<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                    DENNY REHBERG, Montana, Chairman
 JERRY LEWIS, California            ROSA L. DeLAURO, Connecticut
 RODNEY ALEXANDER, Louisiana        NITA M. LOWEY, New York
 JACK KINGSTON, Georgia             JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                 LUCILLE ROYBAL-ALLARD, California
 MICHAEL K. SIMPSON, Idaho          BARBARA LEE, California
 JEFF FLAKE, Arizona                
 CYNTHIA M. LUMMIS, Wyoming         
                                    
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                 Susan Ross, Kevin Jones, John Bartrum,
              Allison Deters, Jennifer Gera, and Lori Bias,
                           Subcommittee Staff
                                ________

                                 PART 5
                                                                   Page
 Overview--Veterans Employment and Training Programs..............    1
 U.S. Department of Education.....................................   57
 Department of Education--K-12 Education Budget...................  143
 Department of Labor..............................................  201



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ________

         Printed for the use of the Committee on Appropriations












                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                    DENNY REHBERG, Montana, Chairman
 JERRY LEWIS, California            ROSA L. DeLAURO, Connecticut
 RODNEY ALEXANDER, Louisiana        NITA M. LOWEY, New York
 JACK KINGSTON, Georgia             JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                 LUCILLE ROYBAL-ALLARD, California
 MICHAEL K. SIMPSON, Idaho          BARBARA LEE, California
 JEFF FLAKE, Arizona                
 CYNTHIA M. LUMMIS, Wyoming         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                 Susan Ross, Kevin Jones, John Bartrum,
              Allison Deters, Jennifer Gera, and Lori Bias,
                           Subcommittee Staff
                                ________

                                 PART 5
                                                                   Page
 Overview--Veterans Employment and Training Programs..............    1
 U.S. Department of Education.....................................   57
 Department of Education--K-12 Education Budget...................  143
 Department of Labor..............................................  201



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 75-962                     WASHINGTON : 2012

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\           NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\             MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia                 PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                  NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey     JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                        ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama             JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri                JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                      ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho               DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas             MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida                 LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana                  SAM FARR, California
 JOHN R. CARTER, Texas                   JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana             CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California                 STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                      SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio              BARBARA LEE, California
 TOM COLE, Oklahoma                      ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                     MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida              BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania           
 STEVE AUSTRIA, Ohio                     
 CYNTHIA M. LUMMIS, Wyoming              
 TOM GRAVES, Georgia                     
 KEVIN YODER, Kansas                     
 STEVE WOMACK, Arkansas                  
 ALAN NUNNELEE, Mississippi              
   
 ----------
 \1\Chairman Emeritus    
                                    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2013

                              ----------                              

                                         Wednesday, March 21, 2012.

          OVERVIEW--VETERANS EMPLOYMENT AND TRAINING PROGRAMS

                               WITNESSES

LIEUTENANT COLONEL ISMAEL ORTIZ, USMC, RETIRED, DEPUTY ASSISTANT 
    SECRETARY FOR VETERANS' EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF 
    LABOR
LIEUTENANT COLONEL KEVIN M. SCHMIEGEL, USMC, RETIRED, EXECUTIVE 
    DIRECTOR, HIRING OUR HEROES, VICE PRESIDENT, U.S. CHAMBER OF 
    COMMERCE
JOSEPH CARBONE, PRESIDENT AND CEO, THE WORKPLACE, INC.
    Mr. Rehberg. I want to thank everyone for being here.
    Job creation and unemployment are the top challenges facing 
Congress right now. When we are talking about job opportunities 
for veterans, I think we understand the urgency with which we 
need to identify and implement workable solutions.
    I am fortunate to represent the entire State of Montana, 
where we have the highest per capita rate of veterans in the 
country, other than Alaska. With a population of a million 
people, more than 1 out of 10 people who live in Montana serve 
their country in the armed forces. Montanans are proud of our 
veterans, and rightfully so.
    For the men and women who answer the call to service, it is 
difficult to grasp the personal sacrifice involved. It is 
impossible to fully repay it. They are asked to uproot their 
lives and go where their grateful nation sends them in the 
cause of liberty. They must leave loved ones at home, as well 
as the stewardship of the homeland.
    But in a lot of ways, this country has failed to maintain 
the homeland while its soldiers were away. Today's veterans are 
returning home to find an economy that has no place for them. 
There simply aren't enough jobs.
    And for the past 3 years, the Federal Government has been 
spinning its wheels. Trillions have been spent, borrowed for 
so-called stimulus or for bailing out big banks, bankrupt 
governments, and failing companies. We have got to do better.


                         veterans unemployment


    We are here today to address veterans unemployment. I 
believe that one of the best ways to help returning veterans 
find the jobs they need is to do what needs to be done to 
encourage broad economic recovery. As they say, a rising tide 
raises all ships.
    If our economy is producing more jobs for everyone, our 
vets will have more opportunities when they come home. To that 
end, I am going to keep working with my colleagues here to get 
this economy back on track.
    But once the jobs exist, there are still plenty of 
challenges to getting vets integrated into the workforce. A 
2010 study found that 1 out of 4 post-9/11 veterans reported 
having a service-connected disability. In 2011, there were more 
than twice as many combat-related amputations than there were 
in 2009.
    These soldiers are literally giving their life and limb for 
the service of their country. What is their country prepared to 
offer them in return? I think this is one of those situations 
where everyone--Republican, Democrat, public, and private--
wants the same outcome.
    How can we work together to leverage this to find the best 
solutions? I look forward to hearing from the experts on our 
panel.
    I know there are some very promising things happening on 
the private front. Microsoft's Elevate America veterans 
program, for example, helps trains vets and their spouses in 
high-tech training and certifications.
    On the public front, the Department of Labor oversees the 
Transition Assistance Program to help returning veterans 
reintegrate into the private sector. I think we can do more to 
leverage the valuable skills they learn in the service to the 
private sector.
    As President Obama winds down our efforts in Afghanistan, 
it will become all the more important to ensure that our shared 
efforts are effective and efficient. In many cases, the 
challenges our men and women must overcome will last a 
lifetime. It is our job to make sure that, as a nation, we are 
there to provide whatever help we can for the long haul.
    Sometimes the challenges we face in Congress are daunting, 
but when I see a young man who needs a job after serving two 
tours in the Middle East, I know we have got to find a way to 
work together. They handled their end of the bargain overseas. 
Now I hope that we can find a way to uphold our end on the 
homefront.
    Before turning to Ranking Member DeLauro, I would like to 
personally welcome the distinguished panel. Mr. Ortiz, Mr. 
Schmiegel, both retired Marines who left the Marine Corps after 
20 years of service, continue to serve our country in the all-
important civilian capacity. Mr. Carbone, who brings the vast 
experience associated with the Connecticut workforce system, is 
a perfect complement to the panel.
    I thank you all for appearing today and look forward to 
hearing your testimony.
    Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    I apologize for being a few minutes late, but I took my 
grandkids to daycare this morning.
    Mr. Rehberg. Good for you.
    Ms. DeLauro. I did. And I, quite frankly, don't know how--I 
don't know how especially single women get out of the house in 
the morning. [Laughter.]
    Mr. Rehberg. How old are they?
    Ms. DeLauro. One is 7, and one is 4\1/2\. Very independent-
minded young people.
    Mr. Rehberg. I am shocked. Your grandchild? [Laughter.]
    Ms. DeLauro. Right.
    Mr. Rehberg. Shocked.
    Ms. DeLauro. Thank you.
    I want to also say thank you to you, Mr. Chairman, for 
convening the hearing and to thank our witnesses.
    And first, to welcome Kevin Schmiegel and Ismael Ortiz and 
to thank you for your service to our country and for being here 
today to share your insights and expertise.
    A particular hello and a thank you to a good friend, Joe 
Carbone, who is president and the CEO of The WorkPlace. And 
through his hard work, thousands of residents in my State, 
including countless veterans, have found better, richer, and 
more fulfilling employment.
    Recently, Joe's innovative efforts to target the long-term 
unemployed were recognized nationally and spotlighted on CBS's 
60 Minutes. So we thank you, and it is wonderful to see you.
    The brave men and women who serve our Nation overseas 
deserve our admiration, our grateful thanks, and when they get 
back, opportunities for a good, well-paying job to support 
their families. In 2011, the average unemployment rate for new 
veterans, those serving since September 2001, was 12.1 percent, 
compared to an 8.7 percent annual average for nonveterans.
    The most recent monthly reports in January and February of 
2012 have been more encouraging, with last month's unemployment 
figures for new veterans dropping to 7.6 percent. The first 
time below the national average of 8.3 percent since August of 
2010.
    Despite these potentially hopeful indicators, it is clear 
we need to do much more to help our veterans returning from 
Iraq and Afghanistan find work. This is particularly true of 
our young veterans. In 2011, the unemployment rate for new 
veterans aged 18 through 24 was a staggering 30.2 percent, 
almost double the over 16 percent unemployment faced by 
nonveterans in this age group.
    With a projected 1 million more men and women returning to 
civilian life in the next 5 years, we have to be sure we are 
doing everything that we can to facilitate the transition from 
the battlefield back to the job market.
    And we must remember as our veterans are seeking work, they 
are often trying to transition back into their life at home 
with their families. And sadly, far too many are dealing with 
post traumatic stress disorder and other combat-related 
challenges. These transitions take time, and it is important to 
remember that our veterans employment initiatives do not take 
place in a vacuum.


                         vow to hire heroes act


    I am glad that despite our differences on other issues, all 
Members of Congress have come to agreement on the crucial 
importance of veterans employment, as exemplified by the 
unanimous passage of the VOW To Hire Heroes Act last November. 
Under the leadership of President Obama, Jeff Miller, chair of 
the Veterans' Committee here in the House, Senate Veterans 
Affairs Committee chair Patty Murray, Senator Tester, and 
others from both sides of the aisle, this bill includes a new 
returning heroes tax credit of up to $5,600 for veterans who 
have been unemployed 6 months or longer.
    It also includes a wounded warriors tax credit of up to 
$9,600, increasing an existing tax credit for firms that hire 
veterans with service-connected disabilities who have been 
unemployed for 6 months or longer. And this bill overhauls the 
military's Transition Assistance Program to provide veterans 
with the baseline training for getting work in the civilian job 
market. It updates job protection laws for deployed Guardsmen 
and Reservists and creates a job training program for 
unemployed older veterans.
    I hope today that we can discuss how the implementation of 
this overhaul is proceeding, and how we in the Congress can 
best complement these efforts in the 2013 budget. I look 
forward to discussing the impact of this new law on the needs 
of all Department of Labor programs that serve veterans.
    This is something I take seriously. Last Congress, I 
introduced legislation expanding the opportunities under the 
post-9/11 GI bill to include a benefit to support on-the-job 
training and apprenticeship programs on par with that offered 
through the Montgomery GI bill. Similar legislation, though not 
retroactive, was included in the post-9/11 Veterans Educational 
Assistance Improvements Act that was signed into law last 
January.
    Veterans have put their lives on the line for our safety 
and security. They have been overseas, away from their families 
for long stretches. The least we can do to honor their bravery 
and their service is to help them to find good jobs when they 
get back.
    No investment is more critical than investment in our human 
capital. And job training and re-employment services for 
veterans and, yes, for the rest of our citizens are part of the 
core essential role for government, helping responsible people 
succeed from their own hard work.
    In any event, I look forward to today's testimony. I 
welcome all of you. I thank you for being here, and I look 
forward to the discussion and our questions.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rehberg. Great. Thank you very much.
    Colonel Ortiz.


                            dol/vets mission


    Lieutenant Colonel Ortiz. Good morning, Chairman Rehberg, 
Ranking Member DeLauro, and members of the subcommittee. My 
name is Junior Ortiz, with Department of Labor's Veterans' 
Employment and Training Service.
    Thank you for the invitation to testify today and for all 
the hard work that you do on behalf of our Nation's veterans.
    I understand that my testimony will be entered into the 
record. So I would like to use this time to highlight some of 
the important work that we are doing at DOL.
    VETS' mission is to provide veterans, transitioning service 
members, and their families with the critical resources to 
assist and prepare them to obtain meaningful careers, maximize 
their employment opportunity, and protect their employment 
rights.
    As a Marine Corps veteran, I understand the importance of 
the service we provide. I have three sons on active duty and 
one who just left the service. And between them, they have 10 
tours in Iraq and Afghanistan. So I understand the sacrifice 
made by our service members, their families, as well as the 
challenges they face when they return home.
    Secretary Solis and I believe that we have an obligation to 
serve these men and women as well as they have served us. This 
is what VETS does every day. But we can't do it without the 
support of our partners in the public and private sector. These 
partnerships are critical to the work we do every day.
    That is why I am pleased to be on the panel with Mr. 
Carbone and Lieutenant Colonel Schmiegel. Mr. Carbone's 
organization does important work that VETS is proud to support. 
Having the head of the Workforce Investment Board here also 
demonstrates the integration of our VETS programs in the public 
workforce system.
    Thank you, sir.


                             vets programs


    Mr. Schmiegel has stated in his testimony we have been a 
part of the Chamber's Hiring Our Heroes program since the 
beginning. We are proud of the great work they are doing and 
the success of this program.
    Now I would like to highlight what VETS programs are doing 
to prepare, provide, and protect our men and women who have 
served our country. With more than 160,000 active duty service 
members and 95,000 Reserve and National Guard demobilizing each 
year, our first aim is to prepare these men and women for the 
transition from military service to the civilian workforce.
    As part of this transition, DOL provides the TAP employment 
workshops at military installations worldwide. Over 2\1/2\ 
days, we provide them with the information and resources they 
will need to succeed when they leave the military.
    We teach them about job searches, current labor market 
conditions, resume preparation, and interviewing techniques. We 
are presently redesigning the TAP employment workshop in an 
effort to bring more effective ways to help our service members 
successfully transition into civilian life.
    Last year, over 144,000 transitioning service members and 
their spouses attended one of these workshops. We anticipate 
that this number will increase dramatically in the coming 
months.
    As these men and women leave the military service and 
complete their transition back to civilian life, VETS continues 
to provide them with the tools they need to succeed. This is 
done at our local level with the State workforce agencies and 
our partners at the Employment and Training Administration.


                     veterans state grants program


    Through the Jobs for Veterans State Grants program, we 
provide State workforce agencies with funds to hire, train, and 
support veterans employment staff. These (DVOPs) and Disabled 
Veterans' Outreach Program Specials and (LVERs) Local Veterans' 
Employment Representative provide intensive service to those 
veterans who face barriers to employment. They are part of the 
workforce system that connects veterans to the full range of 
programs that are available with a priority of service in DOL 
programs.
    Mr. Chairman, I know you are committed to ensuring our 
disabled veterans have the resources they need to succeed. I 
want to assure you that we share the same commitment. In fact, 
last year, over 330,000 disabled veterans were served by our 
DVOP specialists, and we will continue to make them a priority 
in our programs.


                homeless veterans' reintegration program


    We are also committed in the goal of eliminating 
homelessness among veterans. Last year, we served close to 
16,000 homeless veterans through the Homeless Veterans' 
Reintegration Program. As we move forward, we will continue to 
provide employment services for homeless veterans, including 
homeless female veterans and those with families.
    VETS is not only an employment and training agency, but 
also a worker protection agency. We are committed to protecting 
the rights of our returning service members by enforcing USERRA 
and the statutes requiring veterans' preference in Federal 
hiring.
    Last year alone, we investigated over 1,500 Uniformed 
Services Employment and Reemployments Act (USERRA) claims and 
844 veterans' preference complaints. We will continue to 
vigorously enforce these important statutes, as well as 
educating employers, service members, Guard, and Reserve about 
their employment rights and protections.
    In conclusion, the Department of Labor's veterans' 
employment and training program are part of a large effort to 
help our veterans succeed. It is our job to give them the tools 
they need to be successful in the civilian workforce.
    Mr. Chairman, members of the committee, this concludes my 
statement. I would be happy to answer any questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rehberg. Thank you very much.
    Colonel Schmiegel, welcome. It was nice having you in 
Montana. Thank you for coming to Gore Hill.
    As I understand--I was there, but as I understand, the rest 
of the day was extremely successful.
    Lieutenant Colonel Schmiegel. It was.
    Mr. Rehberg. I saw the numbers and the number of people 
that showed up, and it was a nice public-private combination 
because there was a lot of volunteers that occurred, and a lot 
of people took advantage of it. So I thank you for taking the 
time to come out to Montana and being a part of that.


                 executive director of hiring our hero


    Lieutenant Colonel Schmiegel. Thank you.
    Chairman Rehberg, Ranking Member DeLauro, and members of 
the committee, my name is Kevin Schmiegel. I am the founder and 
executive director of Hiring Our Heroes at the U.S. Chamber of 
Commerce.
    Thank you for allowing me to appear as a witness and speak 
to you about what the chamber is doing to help our Nation's 
heroes find jobs. The reason we are interested is simple. Many 
of our members want to hire veterans and military spouses.
    Even with high unemployment, we have a huge skills gap in 
America that is hindering our recovery and undermining our 
global competitiveness. Several weeks ago, the President of the 
United States in his State of the Union address pointed to 2 
million jobs that aren't being filled right now because we lack 
a trained workforce.
    Veterans can help fill that gap. They have unique 
leadership experience, advanced technical skills. They are team 
players and problem solvers, and they are extremely reliable 
workers.
    DoD spends millions and millions of dollars training our 
forces, and it is a lost investment if we don't repurpose those 
skills for the private sector. In the President's own words, 
``We have trained these folks to nation-build abroad. Now we 
need nation-building here at home.''
    As a veteran myself, it is an honor to be here today. In 
2009, I retired from the Marine Corps as a lieutenant colonel. 
My own transition was full of good fortune. I was lucky to have 
a mentor like former National Security Adviser General Jim 
Jones, and I was lucky to be hired by an organization like the 
U.S. Chamber of Commerce that understands the value of hiring a 
veteran.
    Not every veteran is that lucky, which is why in March of 
2011, the Chamber launched Hiring Our Heroes. Working with our 
State and local Chambers, DOL VETS, Employer Support of the 
Guard and Reserve, (ESGR), the Military Spouse Employer 
Partnership at DoD, veterans services organizations, 
nonprofits, and the business community at large, we have led a 
massive public-private sector coordinated campaign to help 
veterans and military spouses find careers in hundreds of local 
communities across America.
    In less than a year, we have created a movement. With 
hiring fairs in 115 cities and 45 States, we have connected 
more than 100,000 veterans and military spouses with over 5,000 
different employers, and more than 8,500 of them have gotten 
jobs. And we are just getting started. This year, we are 
expanding our efforts to 400 cities across the country.
    Recognizing the unique challenges that military spouses 
face, the Chamber has also launched a standalone program that 
focuses on job portability and career progression. It will 
include 20 hiring fairs at major military installations across 
the country.


                  veterans employment advisory council


    This past Veterans Day, we also formed a Veterans 
Employment Advisory Council, comprised of more than 20 of 
America's biggest employers, representing 25 million jobs in 
America. With this council, the Chamber will also lead a 
sustained campaign to enlist the support of the small business 
community. With our 3 million small businesses that are part of 
our federation and 3.7 million veteran-owned small businesses 
in America, we will move the needle on the staggering rates of 
unemployment that Ms. DeLauro mentioned in her statement.
    We should view hiring veterans and military spouses as a 
national security imperative. High unemployment for post 9/11 
veterans, members of the Guard and Reserve, and military 
spouses will become both a recruiting and a retention issue if 
we don't act now.
    George Washington once said, ``The willingness with which 
our young people are likely to serve shall be directly 
proportional to how they perceive veterans were treated and 
appreciated by their nation.''
    How can we expect young men and women to raise their right 
hands and volunteer for service if they face higher 
unemployment rates than their peers after serving our Nation? 
And why should military spouses encourage their partners to 
make the military a career and endure long separations and 
frequent moves if they can't achieve their own career 
aspirations?
    Over the past year, many leaders in the public sector have 
called on the business community to do more. I believe we are 
at the point now where our Government must help them do just 
that. We must look for innovative ways to assist transitioning 
service members before they become veterans.
    This includes helping them launch a small business, 
equipping them to make informed decisions about employment, and 
improving and expediting certification and licensing. And 
finally, Government programs, both existing and new, should be 
measured against clear objectives and established metrics so we 
can focus on what is working and stop funding programs that are 
not producing results.
    Chairman Rehberg, Ranking Member DeLauro, and distinguished 
members of the committee, I pledge to you that the Chamber will 
continue to do its part to demonstrate to our Nation's heroes 
that their service is not only appreciated, but valued, namely 
by helping them find jobs.
    I appreciate the opportunity to testify, and I look forward 
to your questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rehberg. Thank you, Colonel.
    Mr. Carbone? Welcome. From Connecticut.
    Mr. Carbone. Good morning. Thank you.
    Is this on? Is it okay?


                            one-stop system


    Okay. Thank you for this opportunity to talk about how the 
One-Stop system, the umbrella, I think, to broad partnerships 
in communities all over the Nation, offers the best opportunity 
to bring veterans to employment.
    My region is the lower part of Fairfield County in 
Connecticut, and I have got three One-Stops in my region. And 
about 30,000 people a year will come through our centers, and 
at least 2,000 will be veterans.
    We have an opportunity, given the broad partner base that 
we have to basically leverage the Federal dollars that come in 
to support the One-Stop system and create real value added, to 
bring partners that can contribute and help veterans to get 
beyond that. Let me give you some examples.
    The Connecticut Department of Labor, through their LVERs 
and DVOPs, are present at the One-Stops. So they are there to 
provide services. They have got their own area that has been 
identified. They can use the normal One-Stop services and 
things like helping people to create the resume, to develop 
skills in interviewing, to learn about the job--actual job 
search strategies, dealing with things like social media, 
education refreshers, be it in math or in English or whatever 
it may be. There are certified teachers onsite at our One-
Stops.
    At our One-Stop in Bridgeport and in Derby and in Stamford, 
all three of them, we have got a community resource center. 
That center is supported through dollars from the United Way, 
from foundations, from corporations, and companies like 
JPMorgan Chase.
    We provide financial assistance for people that need it. We 
provide all kinds of counseling, energy assistance. It is a 
location where people can access other Government programs that 
can help them while they are unemployed and in some kind of a 
job search.
    It is also a site, what we call here a Volunteer Income Tax 
(VITA) site, so they can do--get their tax preparation work 
done. We do about 200 a year. About 20 percent of them are 
vets, and the average return is more than $2,000.
    Our One-Stop system has enabled us to make contact under 
that partnership with a number of veteran residential 
facilities, things like Homes for the Brave, which is a 51-bed 
facility in Bridgeport--just opened one for female vets with 
children--and other kinds of supportive housing operations. 
Again, it is value added.
    We have, at the One-Stop, a disability resource center. One 
could actually traverse the entire American workforce system. 
You can look for jobs anywhere. You can get assistance. It is 
completely staffed by people with disabilities, but it can help 
them to get beyond that disability and get to employment.
    We have applied for a number of Federal competitive grants 
that have helped us here with veterans, one of which will be 
called Teleworks. It has been in operation for a number of 
years. And for veterans who are looking for opportunities to 
work from home, we have got a trained counselor at the One-Stop 
to do just that.
    We buy blocks of classes at the community colleges. This is 
where you can create, I think, real value added. You buy the 
class, and it can be veterans and other people that can be in 
it. But you will get better product for a better cost.
    We have got a fatherhood initiative, you know, for the 
noncustodial parents. We have got a coach, a mobile coach, 39-
footer that can go anywhere that needs to go. We do about five 
job fairs a quarter, mostly for veterans, but for other groups 
as well. It is supported by private contributions.


                 homeless veterans' reintegration grant


    And in the competitive side, we have our third Homeless 
Veterans' Reintegration grant. So we are actually in year 7 of 
doing that, and again, Homes for the Brave and a number of 
other groups are our partners.
    I can go on giving you a litany of different grants that we 
have put together. I think the basic message here is that you 
are investing in a system already under the Workforce 
Investment Act. It opens doors. It puts keys in the door. You 
have got trained staff that are there, offering a whole variety 
of services.
    It is not just the issue of training. It is a lot of other 
things that do contribute in a positive way to help to bring 
people to work.
    Let us not forget that when you have been away from a job 
for a long period of time, be it unemployed or being in the 
service, there are other issues like emotional support needs 
that people have or, basically, the motivation issues, things 
that will help them to get beyond whatever barriers that they 
have.
    I think the One-Stop, for all that it can offer, offers the 
best opportunity for value-added, better product for better 
cost. It is there. It is part of the Federal budget. It works, 
and it ought to be centerpiece for the American veteran 
operation in jobs.
    Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rehberg. Great. Thank you all.


                   employment challenges for veterans


    I appreciate mostly hearing about your success or the 
programs you are working on. If I could get you to dwell on the 
challenges, what are the barriers? What are the problems? Are 
they private sector problems, Government problems? Are they 
financing problems?
    When I went to the job fair at Gore Hill, I am trying to 
remember the two rooms and all the various people that were 
involved in it and the type of people that were coming. I don't 
remember if there were any public colleges. I know there were a 
lot of for-profit colleges there, at least four or five. I know 
the Forest Service was there, BLM.
    So I know the kind of people who are looking for jobs, but 
I don't know where the problem exists between the veteran and 
getting the job. The logical answer would be things like 
sometimes our schools are training them for jobs that don't 
exist.
    I don't know if that is something that sticks out in your 
mind. I just throw that out to start the conversation. So why 
don't we mix it up and start with you, Colonel, and then we 
will go that way and that way just for something different.
    Lieutenant Colonel Schmiegel. Sure. I should start by 
saying we are all going to look at this through a different 
lens, obviously, in our roles. Junior has got a very important 
role from the Government perspective. I will provide my 
perspectives based on the strong relationship we have with the 
administration, with the Government agencies, but also just to 
be an honest broker in terms of what the private sector would 
like more help with in order to be more helpful to veterans 
that are transitioning.
    I think the main issue, to sum it up in one word, is 
access. The private sector does not have access to service 
members before they transition. This is apparent in a number of 
different programs that are currently underway.


                  transition assistance program (tap)


    I think if you look at the Transition Assistance Program, 
we know that the Government is working hard to improve that. 
But they need a private sector eye.
    Listen, I was a Marine for 20 years. I was not in a 
position, when I was a lieutenant colonel leading Marines, to 
give them informed advice about what they can expect in the 
private sector. And we need to be a little bit more creative 
and allow the private sector into that process.
    There is a Veterans Employment Task Force that is comprised 
mostly of Government agencies. There is not a seat at the 
table----
    Mr. Rehberg. How soon before they become discharged would 
you do that--weeks, months, years?
    Lieutenant Colonel Schmiegel. Well, we spend 13 weeks 
taking someone from jeans and t-shirts and putting them in a 
uniform. We should spend at least 13 weeks to bring them out of 
a uniform and put them in a suit or a pair of coveralls.
    So I would look at a 4-month minimum. I think we should 
start, in my opinion, as soon as they come in the military. We 
should start helping them with their personal brand and start 
helping them think about transition.
    At the end of the day, 3 out of every 4 Marines are leaving 
after their first 4 years. We have a fundamental responsibility 
to start preparing them from the moment they put on the uniform 
because the argument that it disincentivizes them to make a 
career is moot. If 3 out of 4 are going to leave anyway because 
our manpower system directs 3 out of 4 to leave because we want 
to keep a young force, we certainly have a responsibility to 
make sure they are better prepared.
    Mr. Rehberg. Mr. Carbone.
    Mr. Carbone. Yes, I would say that they are facing the same 
kind of challenges that other long-term unemployed people face. 
When you have been unemployed for 2 years or you have been in 
the service for 2 years and you have been certainly distant 
from the civilian workforce, I think you are facing a challenge 
in terms of emotional issues and other kinds of things like 
motivation and things of that sort. That if they can be 
addressed in the part of their comeback here with respect to 
job search, they would be a lot better prepared.
    I mean, let us understand that business is still making I 
think very, very great demands in terms of what they require 
for workers. Even businesses----
    Mr. Rehberg. Does what Colonel Schmiegel say----
    Mr. Carbone. I'm sorry?
    Mr. Rehberg. Does that make sense? The same----
    Mr. Carbone. Yes, it does. I think it does make sense. I 
think but once they come into the job sector or the job search 
sector, those kinds of services need to continue, in fact, even 
intensify. That is the moment, I think, that they need to get 
prepared for what business is going to be demanding.
    Even if you can get the most accommodating businesses, and 
we have got a bunch in our region, when the person comes for 
the interview, that employer has to know that that person could 
do the job as well as anybody else. So let us understand. I 
mean, that when they come to us, they are suffering from things 
like long-term unemployment issues.
    Mr. Rehberg. Colonel Ortiz.


                         preparing our veterans


    Lieutenant Colonel Ortiz. You know, I tend to agree with 
what both Kevin and Joe have said in the sense that preparing 
our veterans to do what needs to be done is very important, 
even from the moment they walk into the service and they go 
out.
    I think it is important that we teach them what their value 
is when they get out because, as Joe has said, the biggest 
thing that happens when these young men and women come in is 
being able to sell themselves to the companies. At the same 
time, the educational piece of teaching the companies of how to 
ask the right questions.
    Because sometimes, sometimes, you know, the person that you 
are looking for is right in front of you, except you are not 
asking the right questions.
    Mr. Rehberg. Yes. Well, thank you.
    One of the things I have recognized over the years, having 
been involved both with veterans and the Department of Defense, 
is the Department of Defense's lack of a desire to recognize 
that anybody is ever going to leave them. And so, you 
especially see that in veterans medical where if you do 
anything to encourage veterans, the Department of Defense is 
all over you, saying, oh, you are trying to steal our best and 
brightest, and you want them to quit.
    So you are probably up against institutional bias in not 
wanting to recognize that 3 out of 4 are leaving the service 
after their first tour of duty. So it is the right answer. It 
just will be interesting to see how that occurs.
    Ms. DeLauro.


                         newly discharged vets


    Ms. DeLauro. Thank you, Mr. Chairman.
    Colonel Ortiz, in that vein of continuing this conversation 
somewhat, what type of labor market information do newly 
discharged vets receive when they exit the military? What 
connections are made with the One-Stop centers upon discharge 
in order that vets have the best opportunity as quick as 
possible to look at how they may regain civilian employment?
    Lieutenant Colonel Ortiz. Well, ma'am, I think, as Kevin 
already alluded to, I think it starts once they are in the 
service. I think our biggest thing that helps our young men and 
women do this is going through the employment workshop. In 
other words, understanding what it is that they are going to 
face once they get out.
    Understanding----
    Ms. DeLauro. And that is happening at the end of their 
service now?
    Lieutenant Colonel Ortiz. Yes, ma'am. Yes, ma'am.
    And it all depends, ma'am. It depends on if you are 
retiring, it is up to 2 years prior to retirement that you go 
through the TAP, the TAP program.
    Ms. DeLauro. Right.
    Lieutenant Colonel Ortiz. Up to a year if you are 
separating from the service. The idea is to get as much 
information to these individuals, which we try to do with the 
TAP employment workshop, teaching them how to write a resume, 
present themselves, be able to dress the correct way, learn the 
different culture of the civilian side of the house, ma'am, 
because that is very important.
    I mean, we are in a culture for 4 years that have taught us 
to be very successful in everything we do. We have to teach 
them how to be able to go out there and do the right job.


              the education of this generation's veterans


    Ms. DeLauro. Isn't it true, and I will just ask all of you 
this question, that as I read the background material and the 
literature here that in terms of education, education levels, 
and the kinds of preparation that you are talking about, this 
generation of veterans, if you will, has less education, less 
training, not military training they have, but other kinds 
because they are a younger population? They are coming in at a 
younger age into the service, and they are coming in with less 
education than we have seen in the past.
    I think that that is right. I think that that is what I 
have read. So I am just trying to gauge between because I think 
there is a great mix here of Federal, of private, of Chamber, 
and of the again public sector, but working both as to how we 
take these young men and women as to where they are and are not 
imposing something that is top-down with a set of skills that 
are not there. But building from the bottom-up on skills that 
they need to have, whether that is educational or work skills.
    And, yes?


                         veterans under age 25


    Lieutenant Colonel Schmiegel. So, if I may? You hit the 
nail on the head. The population that is suffering the most are 
veterans under the age of 25.
    Ms. DeLauro. Twenty-five, right.
    Lieutenant Colonel Schmiegel. So most of them are sergeants 
and below, enlisted troops that have served for 4 years and 
have left the service.
    The fact is that the TAP program, the Transition Assistance 
Program, is a 3-day program. It is very general in nature, and 
it is not specific. It is not pointing service members to a 
pathway to a direct program where there are jobs.
    Service members are not making informed decisions when they 
leave the military. The TAP program does not prepare them in a 
way that shows them there are companies across America that 
have a skills gap. If you go to this community college and get 
a 1-year credential, you can get a job in this company making X 
dollars, and the jobs exist.
    Service members that are leaving make a decision of the 
heart. They go to a geographic location, and they are not 
thinking about what they are going to----
    Ms. DeLauro. But when Mr. Carbone spoke, he talked about 
working with community colleges and providing that kind of 
service and training that is necessary. So I am trying to 
figure out the link that is going from your piece of training, 
then I am making a presumption that it goes--there is some sort 
of a pathway to the One-Stop center, which has these kinds of 
services that are available that then move into working 
together with industry here.
    And you are dealing with almost the credentialing side of 
this thing in some way. Is that right, Mr. Carbone?
    Mr. Carbone. Yes, we are. And I think we are dealing with 
other issues as well. But I think most of the veteran 
organizations in our region eventually make the referral to the 
One-Stop.
    So the One-Stop, in my view, at least in my part of 
Connecticut, is providing the search for a job, education, 
training, whatever it takes to get there. It is coming from the 
One-Stop.
    I think the important thing here is that they have been 
away for 2 years, and there has been a transformative change in 
what business requires. So whatever they might have done before 
may not have any relevance at this point. And if they are 
younger, they are. They are missing education credentials that 
you have to deal with, all right?
    But I think the important thing here is that if you work 
with businesses closely, you can sometimes make that match, and 
businesses are willing to give them a chance and to 
accommodate. So that part of it is important.
    Lieutenant Colonel Schmiegel. The only add-on in that is 
triage. It is not being proactive. It is being reactive. So I 
continue to say access earlier.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Rehberg. Mr. Alexander.
    Mr. Alexander. I am surprised he called on me. He told me 
yesterday I needed a haircut. [Laughter.]
    Ms. DeLauro. No way.
    Mr. Alexander. He made a good colonel in the Marine Corps.


                            the tap program


    The TAP program, I understand how important it is. But I am 
concerned maybe about the length of training time. We have got 
men and women that have been in the service or in uniform 5, 
10, 15, 20 years. Are 2\1/2\ days enough to properly train them 
for what they need to be doing?
    Lieutenant Colonel Ortiz. Sir, as a person who runs a TAP 
employment workshop, sir, I mean, it is a basis, as Kevin 
alluded to. It is a way of preparing them. It is a way of being 
able to give them the fundamental tools so that when they do, 
in fact, get out, they have a basis of what needs to be done.
    Understanding how to write a resume, what should be in 
there, what is the business--what is it going out there, what 
is the economy like, and things like that. Then being able to 
hand them over, if you will, almost like a warm handoff, to 
what Joe and his crew do as far as the One-Stop centers 
throughout the country.
    That is the force multiplier. That is where the individual 
comes in and actually gets the aid that they need in order to 
be able to be successful to find a job.
    Mr. Rehberg. Mr. Alexander, if you would yield for a 
minute? Maybe you could expand upon it?
    As I understand it, it is only mandatory for Marines, 
though. It is not mandatory for Army and Navy?
    Lieutenant Colonel Ortiz. Well, sir, if I may----
    Ms. DeLauro. It is now mandatory.
    Lieutenant Colonel Ortiz. Mr. Chairman, the VOW Act has 
made it mandatory now.
    Ms. DeLauro. Right. Mandatory, yes.
    Mr. Rehberg. For all?
    Lieutenant Colonel Ortiz. For all services.
    Ms. DeLauro. For all the services.


                          gold card initiative


    Lieutenant Colonel Ortiz. And I applaud that only because 
of the fact that we need to be able to get our young men and 
women prepared to lead. And I have got to tell you, sir. I have 
a young man who just left the service who, when he decided to 
get out, was a little bit shaky on exactly what he needed to 
do. The Gold Card initiative gave him the opportunity to go 
into a One-Stop and be able to get 6 months of intensive 
training.
    Mr. Alexander. Well, the trainers that are doing the 
training are taught by the veterans. Is that correct? The point 
I am trying to make is how much input do Chambers have, 
business people, into training the program?
    And the reason I ask that is a few days ago, I was having a 
meeting down in my district in Louisiana. And I asked an 
employer that was conducting some workshops for the employees, 
I said how often do people from the Education Department and 
the labor force training, how often do they call you and say 
what would you like for us that are educating the young men and 
women, potential employers, what would you like for us to train 
them to do? And he said, ``I have never had anybody to ask me 
thatbefore.''
    So the point being that are we training people sometimes, 
and we don't necessarily know what we are training them to do 
or why we are training them? How much input do the business 
people have with saying this is what we need you to teach these 
veterans so we won't have to train them once again if we hire 
them?


                    access to the business community


    Lieutenant Colonel Schmiegel. There is very little access 
with the business community. There are rules, the joint ethics 
rules. This is what I am talking about, creativity and maybe 
looking at the rules that are in place and inviting the private 
sector in earlier.
    The TAP program, I went through it just under 3 years ago. 
And for someone like me, who is leaving as a lieutenant 
colonel, I probably don't need to go through TAP. It doesn't 
prepare an E5. And to my point exactly, we need to be more 
creative and think about these solution sets earlier.
    How much sense does it make that a driver goes to military, 
gets a military driver's license, and then has to get 
credentialed in each of their States after they leave? They 
have to go through an arduous process to do that. How much 
sense does it make that a man or woman, as a corpsman or medic, 
saves lives in the battlefield, and they have to go through an 
EMT certification?
    We could very easily, if the private sector was invited in, 
get a serviceman or woman a commercial driver's license while 
they are getting their military driver's license. And then they 
have their credential before they leave. Just like we can do 
the same thing for a corpsman or medic and get them their EMT 
certification.
    Creativity, access earlier. If we do those two things, we 
aren't going to be talking about connecting them with One-Stops 
or services after they leave when they are on the unemployment 
rolls. And it is over $1,000,000,000 our country is paying for 
that.
    Mr. Rehberg. I entirely agree. You know, I fly a 
helicopter, and yet the military that are coming out don't 
qualify for a rotorcraft license. They have to go through the 
whole process again. And they are much better pilots. It is 
absolutely amazing the lack of cooperation. What you say is 
exactly correct.
    Ms. DeLauro. Mr. Chairman.
    Mr. Rehberg. Yes, Ms. DeLauro.
    Ms. DeLauro. I am not going to take your time, but I just 
would like to--not at this juncture, Ms. Roybal-Allard is next 
up. But I want to just find out why businesses can't be--you 
mentioned in your early comment about ethics and so forth. So 
when we get around to that again, I am interested in why they 
can't.
    Mr. Rehberg. Okay.
    Ms. Roybal-Allard.


                    military recruitment assessments


    Ms. Roybal-Allard. Just following up a little bit on the 
discussion, are any assessments made when someone goes into the 
service so that it is determined that this person is good in 
math, this person is good in something else? Are those 
assessments made when they first go in that could then be used 
to start providing them with the kind of experience within the 
service that would be helpful for them to transition?
    Lieutenant Colonel Ortiz. Yes, ma'am. In every military 
service, a person is assessed while they are at boot camp. 
Actually, they are assessed prior to. They are given I guess 
like almost an entrance exam to see where they are placed and 
see how they come out and what their strengths are.
    For example, I will use myself as an example. My strengths 
were in the military police, in law enforcement side of the 
house. So, obviously, my recruiter helped me to get to that 
area.
    So, yes, that is one piece. We also have young men and 
women who come in and they score a certain level. And based on 
what they have, their strengths and weaknesses, they are pushed 
into that area.
    Now we say that our infantrymen don't have that capability. 
I disagree wholeheartedly with that because some of our 
smartest, our smartest Marines are our infantrymen. They just 
chose to be that vice a mechanic or vice anything else.
    And as far as being able to get them into a specific level 
of training, again, ma'am, it depends on, number one, the needs 
of the service, what their capabilities are, and what they are 
able to achieve while they are in the service. That, in itself, 
is one problem, or one thing, excuse me.
    The second thing is let us say they do become a motor 
transporter or a medic or a corpsman. The idea of being able to 
certify them later on is something that we are all working to 
try and achieve. I mean, on the business side of the house as 
well as on the military side of the house because it is very 
important.
    However, ma'am, and with respect, the legislation for each 
one of the States are completely different. You know, unless 
there was a unified stance across the board where all the 
Governors agreed that when a person goes to Fort Lewis or a 
school specifically to be a driver, and when they come out, as 
soon as they finish, they get a commercial driver's license.
    If that was to happen across all lines, ma'am, we wouldn't 
be discussing the problem that we are having right now. But 
unfortunately, that is every State has different rules and 
regulations.


           armed services vocational aptitude battery (asvav)


    Lieutenant Colonel Schmiegel. The test itself that Junior 
refers to, I don't know, because I came from the military, I am 
not sure what the acronym stands for. It is the ASVAV test, A-
S-V-A-V. If you want, people can look it up.
    But Junior hit the nail on the head. There are two factors. 
Even if you score the ASVAV test and it directs you towards a 
specific MOS, as a service member that is joining, you have 
your own preference. And then, obviously, there is the specific 
needs of the recruiters, and they are trying to fill specific 
spots. So it is never a perfect alignment, but they do use that 
test.
    Ms. Roybal-Allard. I was just trying to get--no, go ahead.
    Mr. Carbone. Yes, the one point I would like to make here 
is that often, because they have been away for 2 years or 
longer, they will come in and they are interested in getting a 
job as quick as possible. And they might choose the quickest 
way of getting there, which is the shortest form of training. 
It may not be exactly what they want or what is perfect for 
them.
    But one of the things we have tried to do is to keep them 
in touch with our system. I mean, it is important to get them 
what they need immediately. But if they don't continue 
education or training on some kind of a lifelong learning 
basis, they are going to fall out of the workforce at some 
point, and they are not going to achieve their goals and 
objectives.
    So we try to get them the job. But I think our folks at the 
One-Stops have done an excellent job with keeping in touch with 
them once they are employed and with the employer. Because in 
many cases, the employer offers those kind of opportunities.
    Ms. Roybal-Allard. I would like to change to the Homeless 
Veterans' Reintegration Program. Los Angeles has more homeless 
people probably than any city in the Nation, including 7,000 
homeless veterans on any given day.
    And organizations in my district depend on the HVRP program 
to provide critical job training services to homeless veterans. 
Demand for HVRP funding will greatly increase as our military 
operations wind down in Iraq and Afghanistan. How do you plan 
to meet this increased demand with only the level of funding 
that is being requested in the President's budget?
    Mr. Rehberg. I will ask that you answer that very quickly. 
That was a long question in the last 30 seconds.
    Ms. Roybal-Allard. Yes, I am sorry.
    Mr. Rehberg. Unless you want to carry it over into your 
second round so you could have a more meaningful? If you would 
like to expand upon that, we are going to do a second round. 
And so, if you wanted to wait and----
    Lieutenant Colonel Ortiz. If you wouldn't mind, I would 
like to wait a minute, ma'am. If you don't mind?
    Mr. Rehberg. Okay. We will do that.


                   placement and performance metrics


    Then we will begin our second round of questioning. And I 
wanted to go back, Colonel Schmiegel, to something you said 
about metrics and objectivity. And that is one of the things 
that we talk about in this subcommittee a lot is oversight, 
especially as it relates to job service, the Department of 
Labor, One-Stop.
    And so, we always worry that are we really providing the 
service that we intended to provide for the dollars that we are 
spending? And when you see the number of various job training 
duplications in the various agencies, you worry about that. How 
would you set up some kind of a metrics or an objective 
determination as to whether you are providing the service for 
the veterans that you intend to provide?
    And then I will ask the others the same question. And Mr. 
Carbone, I am really impressed with your One-Stop. Eventually, 
we will expand upon that as well. It sounds like you are doing 
it right. There are others that aren't quite.
    So, Colonel Schmiegel.
    Lieutenant Colonel Schmiegel. Well, again, our program is 
singularly focused on jobs. So our primary metric is all 
related to jobs. I think that has to drive the debate right 
now. If you look at the fact that 12.1 percent----
    Mr. Rehberg. But would your metric be placement or going 
back in 6 months and seeing if they are still in the same spot, 
that their employer is happy with them, whether they have 
accomplished----
    Lieutenant Colonel Schmiegel. Both. I think placement and 
retention. So----
    Mr. Rehberg. Is the Chamber working on that?
    Lieutenant Colonel Schmiegel. Yes. We are. We are working 
with a number of different organizations on a smaller-scale 
level in a pilot with an organization called Hire Heroes USA. 
It is an Atlanta-based organization run entirely by Iraq and 
Afghanistan veterans.
    Mr. Rehberg. Is Mr. Ortiz or someone else involved with the 
Department of Labor? Have you even attempted to go outside 
for----
    Lieutenant Colonel Schmiegel. No. No. In this case, we 
decided on a parallel track in the private sector only.
    Mr. Rehberg. Colonel Ortiz, would that be something you 
would be interested in learning about, watching, participating, 
or maybe you don't want their participation? I don't know.
    Lieutenant Colonel Schmiegel. No, we would be happy for the 
public sector to participate.
    Mr. Rehberg. Colonel?
    Lieutenant Colonel Ortiz. Yes, sir. That is something we 
can look at. Kevin and I, we do a lot of things together when 
it comes to the veterans side of the house, sir. So----
    Mr. Rehberg. Are you working on any objective standards so 
that you can see that the programs that you are working on are, 
in fact, working?
    Lieutenant Colonel Ortiz. Actually, sir, we try to meet our 
standards based on the needs of our service members, sir. So we 
are in conversation with some of our public sector areas and--
--
    Mr. Rehberg. That is a yes or a no?
    Lieutenant Colonel Ortiz. Yes, sir. We do.
    Mr. Rehberg. Okay. Mr. Carbone.
    Mr. Carbone. Well, I mean, I think the kind of services 
that we talked about earlier that we are providing at the One-
Stop and kind of bringing together all those organizations that 
can assist people and to get to a career or to get to a job----
    Mr. Rehberg. Do you have a review? Do you have an objective 
standard?
    Mr. Carbone. Yes, the standard is to arrive at placement, 
at placement. So you try to achieve that as soon as you can, 
but I think the important factor is to keep in contact with 
that person, that business that they went to so that you don't 
lose them.
    Mr. Rehberg. Exactly. The important standard is where are 
they in 6 months?
    Mr. Carbone. Where are they in 6 months? Exactly.
    Mr. Rehberg. Do you keep track of that?
    Mr. Carbone. We go to a year.
    Mr. Rehberg. Okay.
    Mr. Carbone. We go to 1 year. But in between that 1-year 
period, I mean, there is a lot of contact made with that 
business. And that is why it is important. Be a little bit 
selective here on the kind of businesses that you try to make 
that connection to. You want businesses that will work with 
them and nurture them, appreciate them and respect them and 
nurture them and try to help them to advance.


                         veterans job retention


    Mr. Rehberg. And Colonel, I guess I would ask what are the 
barriers to your trying to create either the appropriate metric 
or working with the Government?
    Lieutenant Colonel Schmiegel. Yes. As you spoke, I think 
you hit the nail on the head, Mr. Chairman. Veterans will have 
3 jobs in their first 3 years on average. So retention is a 
critical issue.
    The private sector innovates 35 times faster than the 
public sector. We should go to a company and ask them how they 
are doing it.
    General Electric knows that their veterans are retained at 
a rate of 7 percent higher than nonveterans that work for their 
company. They have 10,000 veterans. That is a huge sample size. 
Bring the private sector in. Let them explain how they are 
doing it, and adopt that in a Government-wide program.
    Mr. Rehberg. Yes, sir?
    Mr. Carbone. Yes. I think that is--that would be the result 
of a company that cares, a company that is trying to nurture 
that candidate, working with that candidate and helping them 
along every step of the way. If you try to deal with companies 
that have a good culture like that, it makes the difference.
    Lieutenant Colonel Ortiz. I am in agreement, sir.
    Mr. Rehberg. Do you provide a directory of those kinds of 
employers so that I think you suggested they go back to their 
hometown, whether there is a job there or not. Is there a 
central source of information of the kind of friendly employers 
that are out there like GE?
    Lieutenant Colonel Schmiegel. We are creating that right 
now, Mr. Chairman. That is the whole basis of the Chamber's 
initiative. And now we are going to major military 
installations to host hiring events because the Chamber is a 
nonprofit organization in this regard.
    So we talked a little bit about access. We are going to go 
and bring dozens of companies to each of the bases, not just 
one.
    Mr. Rehberg. Okay.
    Ms. DeLauro.
    Ms. DeLauro. I have just a couple of things. I just want to 
first of all, make a comment. I think there would be agreement 
that we ought to go to a longer period of training, whether it 
is 2\1/2\ days, 3\1/2\ days, whatever it would be. That 
requires resources.
    I say that because we are an appropriations committee, and 
we need to ask for more time for training and then be willing 
to put the resources where they are necessary to accomplish 
that.


                      veterans program evaluations


    But I also wanted to deal with program evaluation in some 
way, and there are a lot of new efforts that are underway with 
regard to both the Federal Government and your program, Colonel 
Schmiegel, started in March of 2011.
    Lieutenant Colonel Schmiegel. That is right.
    Ms. DeLauro. So we are looking at a year in terms of trying 
to deal with it.
    But I would just say, and I am not going to go through all 
the data, but I think it ought to be useful to put into the 
record program evaluation data. A new initiative, Joining 
Forces. Since August, 45,000 hires have been reported. They 
have got businesses pledging to hire in excess of 195,000 
veterans.
    The Veterans Jobs Bank, a joint venture between Department 
of Labor, the VA, and Google, there are 1 million jobs posted. 
The site has a skills translator that is embedded.
    The tax credit for business hiring veterans, waiting to 
hear about whether that is working or not. And again, there is 
Jobs for Veterans States Grants, the VETS program, transition 
programs. There is data on results in those, all of those 
programs.
    The Homeless Veterans' Reintegration Program, 2010, awarded 
140 of those grants. Almost 16,000 homeless vets received 
services. So the data and the statistics are important, and I 
am just saying that they are there at the Department of Labor 
for people to look at.
    I understand, Colonel Schmiegel, that you are now putting 
these pieces in place. You are a year old. And the question 
becomes, again, what you have said is that when a company comes 
out with a public pledge, do you have a mechanism for following 
up to confirm that the hires actually occurred? I presume you 
do. Yes?
    Lieutenant Colonel Schmiegel. Yes.
    Ms. DeLauro. Okay. Are you able to track actual placements 
from job fairs and the satisfaction rates of service members 
once they are on the job?
    Lieutenant Colonel Schmiegel. Yes.
    Ms. DeLauro. Okay. Is there data yet on the retention in 
the positions that have been secured? All that is----
    Lieutenant Colonel Schmiegel. No, not yet.
    Ms. DeLauro. No, exactly.
    Lieutenant Colonel Schmiegel. It is a year old.
    Ms. DeLauro. You are a year old. I am making the point that 
you have got some programs that have been there that are 
existing programs, and Mr. Carbone, you go back, you said, I 
thought I heard you say you go back it is a year to see whether 
they are on the job in a year.
    Mr. Carbone. One year.
    Ms. DeLauro. So that I think we have seen that we have got 
the real basis and cooperative relations here between both 
business and the private and the public sector to make sure 
that the programs are not duplicative, that they are doing the 
job that they are supposed to, that they are supposed to be 
doing.
    And I think that that is gratifying. I think I am hearing 
for the first time a kind of a relationship here that exists 
that is workable.
    Let me just, I am going to ask a question about military 
spouses, because this is a problem. Spouses are on their own, 
for the most part. It seems again from the data that they are 
educated people, and they are looking for a way to demonstrate 
self-worth.
    And so, I guess there are two pieces here. Are we going to 
do another round, Mr. Chairman? Will we have enough time for 
that? I think so. It is only 11:00 a.m.
    Mr. Rehberg. Excuse me? [Laughter.]
    Ms. DeLauro. We are supposed to be on from 10:00 a.m. to 
12:00 p.m., right?
    Mr. Rehberg. We will do another round.


                    community colleges and one-stops


    Ms. DeLauro. Thank you so much, Mr. Chairman.
    But there is this certification piece on the people that 
you have there. It is not there at the moment. There ought to 
be if you can be in the motor pool in one place, you can be in 
a motor pool in another place.
    But it is actually working with the community colleges on 
the certifications. What is being done on the certification 
area to speed that process up? Is there anything, Mr. Carbone?
    Mr. Carbone. Yes, I can tell you that the fact that we 
bought these blocks of classes at the communities colleges.
    Ms. DeLauro. What does that mean, you bought blocks of 
classes?
    Mr. Carbone. You buy the whole class. I mean, when you are 
dealing with the One-Stop, it is not only the vets. It is your 
entire customer base that there are folks from each of them 
that may need those services. The colleges, by and large, 
cannot take a loss. They can post that they are going to do the 
class, but they have got to get a minimum number of people.
    So if we buy the class, we are sure it is going to happen, 
and we can take people from all sectors of our customer base 
and put them in there. That makes a big deal here because you 
can get it done on time. And often then it can correspond with 
the needs that businesses have to have the person actually 
complete that program on a certain date.
    Ms. DeLauro. Is Pell useful in that process?
    Mr. Carbone. Pell is not needed in that process, no.
    Ms. DeLauro. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rehberg. Mr. Alexander.
    Mr. Alexander. Kevin, you have mentioned that you would be 
happy for the private sector to participate. Can you expand on 
that a little bit?
    Lieutenant Colonel Schmiegel. I am putting that into 
action, and I actually went to the individual services myself. 
I spoke to the head of their different manpower departments 
and, in some cases, the service chiefs directly. Sometimes it 
is helpful to know and to work for a former service chief like 
General Jim Jones. And we have asked for access to the bases.
    I referred earlier to joint ethics regulations. A lot of 
companies that we work with have individual contracts with the 
Government. So they are defense contractors. But if the Chamber 
comes on and offers to work in 40 bases and stations to do 
these hiring fairs, we can have access, but we invite all the 
companies from the individual industries and sectors to take 
part.
    The only criteria is that they have jobs for transitioning 
service members and spouses that will attend those fairs. If 
they don't have jobs and a service member or their spouse says 
that they were referred to a Web site or that company doesn't 
have a job, they want to hand out pamphlets, they are not going 
to be invited to our hiring fairs anymore.
    Mr. Alexander. Well, let us know what we can do to help 
with that.
    Colonel Ortiz, how often do you find that the employers 
simply are just unaware of the regulations in the USERRA?
    Lieutenant Colonel Ortiz. USERRA, sir?
    Mr. Alexander. USERRA. Do they ignore them, or do they just 
not know about them?
    Lieutenant Colonel Ortiz. I would say about 95 percent of 
the time, sir, that the companies are aware of them, and they 
pretty much stick by them. Other times, it is a matter of 
education, of being able to outreach them because sometimes 
they don't know the specifics behind it.
    Mr. Alexander. Okay.
    Lieutenant Colonel Ortiz. And especially when you are 
talking about low and medium companies. They may not know the 
specifics behind it. But I would say, sir, that the majority of 
our companies out there are very, very supportive of our 
troops.
    Mr. Alexander. Thank you.
    Mr. Rehberg. Ms. Roybal-Allard.


                         accessibility obstacle


    Ms. Roybal-Allard. Before I go back to my original 
question, if I understood what Ms. DeLauro was saying, it seems 
like all the pieces are there to achieve the goals that we all 
want to get to and that you are moving in that direction.
    What are some of the obstacles that you are running into or 
some of the things that concern you the most that aren't 
enabling you to move more quickly in that direction or that are 
actual obstacles to what the objectives are? And how could we 
be helpful in that way?
    Lieutenant Colonel Schmiegel. I go back to the original 
point. I think access earlier is the most important issue. A 
lot of the stuff that Mr. Carbone addressed is after the fact. 
The service members are leaving. When we go on base for these 
40 hiring fairs, we are going to do something very interesting. 
I think Mr. Carbone and Junior would agree that this is the 
right way of going.
    We have enlisted the support of 20 companies that have huge 
pockets of employment. If you take a company like Entergy in 
Louisiana, they are not employing in all 50 States. You take a 
company like Chesapeake Energy in Texas. You take a company 
like Capital One, which is actually a bank that is growing. 
They are looking for hundreds of people.
    So imagine if you go to a hiring fair on base with 50 
companies, but the Chamber sets up its own booth with 20 
companies that have 10,000 jobs in 100 cities, and we just lay 
on a 6-foot table a map with 100 pushpins. And there is 100 
packets that a service member can take with them.
    And it shows them if you use your GI bill to get 
credentialed for 1 year or 6 months or whatever the case may 
be, you get a job guaranteed with one of these 20 companies in 
those 100 cities. Then we are not doing it after. We don't have 
to worry about the service they get after.
    We are going to where they are making the decision, and we 
are helping them make an informed decision because you have 
young men and women that are using their GI bill to get a 
history degree or a geography degree, and they are dropping out 
after 2 years.
    This has to be holistic, and you have to bring it to them 
before they leave, not after they are already unemployed.
    Ms. DeLauro. Would the gentleman yield for one----
    Lieutenant Colonel Ortiz. I am sorry, ma'am. I will tell 
you, ma'am, that in principle I do agree with everything that 
Kevin is saying, based on the fact that being able to get to 
the individuals earlier. Because the earlier you get to an 
individual, the more informed they are, the easier it becomes 
for them to be able to move in that life cycle, if you will.
    However, the biggest problem that occurs is, and this is 
where, at least from what I see, that Junior Ortiz sees, is the 
fact of being able to bring in a company that wants to hire 
Kevin, but yet he has 6 months left in the service or 12 months 
left in the service, you know?
    There are some companies out there that are willing to wait 
because they know what the value is of that individual. 
However, there are a lot of them that are trying to fill the 
ranks now, and they want to be able to do what needs to be 
done. I think once you are able to get that information out to 
everybody and let them know that there are jobs available and 
that there are jobs available for you when you get out, that is 
one thing.
    To guarantee them a job and everything as they get out, you 
know, if a company can do that, we are all for it, ma'am. The 
point being is the needs of the service, the military member 
doing what needs to be done, and believe me, ma'am. I am very 
supportive of trying to get our kids--and I say ``kids'' 
because I can--out and be able to get jobs once they leave.
    Again, it is the accessibility of being able to hit them 
early that runs into problems.


                       homeless veterans program


    Ms. Roybal-Allard. Do you want to answer the previous 
question with regard to----
    Lieutenant Colonel Ortiz. Yes, ma'am. I mean, we were 
talking about since the administration took office, HVRP has 
increased about 46 percent, ma'am. We approximately--we had 
about 26 million, and right now, it is over 38 million. You 
were talking about how many grants we will be able to fill and 
especially in your area, ma'am.
    Ms. Roybal-Allard. Given the increase.
    Lieutenant Colonel Ortiz. We have 151 grants right now. The 
grantees are using what needs to be done based on the money 
that they are given. I think one of the things that we need to 
understand is we need to protect the funding stream. We 
definitely need to protect that, making sure that our newly 
separated service members don't become homeless.
    I mean, the key in this whole entire thing is if we can 
stop the homeless piece, then the HVRP programs, as well as 
they are, as well-intended as they are, will cease to exist. 
And if we could do that, you ask how do we help the future? Let 
us hope to God that we don't get our young veterans--and 
believe me, ma'am, now we are seeing in the homeless programs, 
we are seeing younger and younger veterans going in there and 
especially young women.
    Mr. Rehberg. Thank you.
    We will begin the DeLauro final round.[Laughter.]
    And first of all, may I ask a question? What was your 
expertise or your specialty in the Marine Corps?
    Lieutenant Colonel Ortiz. I had a few, sir.
    Mr. Rehberg. Okay. Couldn't keep a job? [Laughter.]
    Lieutenant Colonel Ortiz. You are right, sir. I could not. 
I was an airlifts control officer. I was a counterdrug/
counterterrorist specialist. I was an administrative officer. I 
was an operations officer. I was also an instructor at the U.S. 
Naval Academy. I taught Spanish and leadership.
    I was also the director of marketing and advertising for 
all the Marine Corps, a professional recruiter, if you will.
    Mr. Rehberg. You were all-around.
    Lieutenant Colonel Ortiz. And a few other cats and dogs.
    Mr. Rehberg. Well, first of all, let me thank you for your 
service. But more importantly, your kids. That is a testament 
to you and your leadership and your fatherhood. So thank you 
for doing that.
    Lieutenant Colonel Ortiz. Thank you, sir.
    Mr. Rehberg. What was your----
    Lieutenant Colonel Schmiegel. I was an artillery officer. I 
deployed for the first Gulf War as an artillery officer. And 
the latter half of my career, I was very focused on the human 
resources process in the Marine Corps. I ran----
    Mr. Rehberg. That shows, and thank you.
    Lieutenant Colonel Schmiegel. Thank you.
    Mr. Rehberg. And I won't put you through it, but thank you. 
Very impressive. I like what I am hearing about your program. I 
would like to see more about the One-Stop because One-Stop is 
something that actually does concern me nationwide. I am a 
little concerned that some get it, some don't.
    There is a certain level of disjointment going on, and it 
sounds like you have got your act together.
    Mr. Carbone. Yes. I would say that for sure the structure 
of the system is there, and it was put there for the right 
purposes. It may not be used evenly. It may not be the same all 
across the Nation. But----
    Mr. Rehberg. Well, and maybe it doesn't need to be. You 
know, we call it One-Stop, but maybe the flexibility sometimes 
is important as well.
    Mr. Carbone. That is right. Right.
    Mr. Rehberg. Inefficiency is unacceptable, especially when 
it comes to veterans. But we don't want to create inefficiency 
by making everybody fit into the same piece, and it sounds like 
you have got a handle on it.
    And thank you, Ms. DeLauro, for bringing or inviting him to 
come down.


                 tax credits for businesses hiring vets


    Now I really want to ask a question about the success or 
perceived lack of success perhaps of the tax credits for 
businesses for hiring. You have a piece of it because you are 
supposed to be monitoring it. You see it day in and day out.
    Do you think it is working or not? And the only reason I 
ask that question is because I come from the State legislative 
arena. I was a Lieutenant Governor. Before that, I was a State 
legislator. And I was always very active and helped to 
cosponsor veterans' preference, and we had a miserable time 
making it work. It was so difficult to make a veterans' 
preference.
    And we wanted to, and it was the best intention, and we 
thought everybody was going to participate. It just never 
worked as well as we wanted. And that is why I worry that the 
tax credits are available. Are the businesses taking advantage 
of it? Is it working as well as you thought it was going to?
    And Colonel Ortiz, are you monitoring it? And what would 
you be, your opinion as to whether it is working or not? Not 
that I want to change anything. I just want to know from your 
perspective is it working?
    Lieutenant Colonel Schmiegel. Sure. I think, one, Mr. 
Chairman, there are two pieces. There is a big business 
component and a small business component. I will give you the 
top line because I don't think the tax credit is being 
utilized.
    I can tell you that we have worked with several thousand 
companies, and I have spoken to hundreds of them, and not a 
single company that I have spoken to has used the tax credit. I 
think big businesses are figuring it out because they have an 
HR team. They have tax consultants and lawyers.
    Small business, if you offer them $5,000 or $10,000, they 
don't have an HR manager. They don't have a tax consultant, and 
they don't have someone to advise them in the legal side of 
this on whether or not they should take advantage of the tax 
credit.
    And if you are small business owner, and there are 27 
million in America, you are not going to take an extra hour at 
the end of a 16-hour day to figure out whether or not it is 
worth your time to get a $5,000 tax credit.
    So I don't think on the small business side it will be 
used. I think we might see some movement on the big business 
side.
    Mr. Rehberg. Colonel?
    Lieutenant Colonel Ortiz. I tend to agree with Kevin in the 
sense that is it being utilized as much? I am not seeing that, 
sir. I can't--I can't answer that specifically.
    I see a lot of the organizations and a lot of companies out 
there hiring veterans because they think it is the right thing 
to do. And in actuality, that is what it should be.
    Mr. Rehberg. Right.
    Lieutenant Colonel Ortiz. You know, the tax credit, it is 
great to have it. Especially if you are a medium size or a 
small company, that may help you. But the bottom line on that 
is you shouldn't be hiring a veteran because you are going to 
get a tax credit.
    Mr. Carbone. I can tell you that in our practices I 
consider them to be really worthless. I don't--I think in 
particular in the post recession economy, businesses are not 
all that focused on whether or not the tax credit is going to 
be there. They are looking for a skilled person who is going to 
make a difference in terms of their bottom line.
    So tax credits don't open doors, don't get people employed 
unless there is a lot more reason to hire the person than just 
that. If it is the right candidate for the right job, and that 
person happens to have a tax credit, then fine. They will take 
advantage of it. But it is not going to make the difference, in 
and of itself.
    Mr. Rehberg. Ms. DeLauro.
    Ms. DeLauro. Just several points. We have talked about 
access. I just want to pursue one comment on the credentialing 
and certification. Are we looking at getting credits, 
certifications, it seems to me that we have got to get both 
business and the academic side to accept the work that is being 
done in the military as work experience that goes toward 
accreditation in some way.
    And I just need a quick answer on this. Is that happening 
or not happening?
    Mr. Carbone. It is not--I have not seen it happen, at least 
in my region.
    Ms. DeLauro. Yes?
    Lieutenant Colonel Schmiegel. The Chamber with the American 
Legion hosted a credentialing licensing summit. DoD is looking 
at that right now.
    Ms. DeLauro. Okay. I think that this is just like what is 
your work experience? The job description says 4 years of 
college or equivalent work experience, you know, whatever it is 
to be able to use as a lever to move this process more quickly.
    Lieutenant Colonel Schmiegel. DoD is looking at it.


                           userra enforcement


    Ms. DeLauro. The other--let me just again quickly, Colonel 
Ortiz, USERRA enforcement. Department of Labor is working at 
making sure these rights are enforced here for these folks to 
be able to go back to their jobs?
    Lieutenant Colonel Ortiz. Yes, ma'am. We are committed to 
aggressively enforce these laws.
    Ms. DeLauro. Okay.
    Lieutenant Colonel Ortiz. We provide them as best as we 
can. We have--we have representatives throughout the country 
that make sure that these things are investigated properly, any 
complaints that we have.
    Last year alone, as I had stated in my testimony, ma'am, we 
had 1,500 USERRA claims. Through the efforts, we have recovered 
almost $2,000,000 worth of lost wages and benefits. So we are, 
in fact, doing what needs to be done.
    Ms. DeLauro. I want to--a couple of other things. There are 
some things happening here which I think are worth noting. And 
we may be in the midst here of two things. One, and I know the 
legislation I think that we have all signed on to, new 
incentives to hire veterans as first responders--Department of 
Justice, FEMA, hiring vets to protect Americans as first 
responders, law enforcement people. Putting people to work. Now 
those are public sector jobs.
    And one of the issues that comes up here is that, and I 
think the statistic is, is that men--it is about 21 percent of 
veterans are in public, Government and public sector jobs, the 
vets, and about 29 percent of women veterans are in those jobs. 
Now we are looking here at one, there is the issue of 
sequester, which may be coming up, which would then be, you 
know, what, 7, 8, 8.5 percent cut across the board.
    And that is for the Federal workforce system that is 
serving that veterans group, targeted veterans programs, as 
well as employing veterans. What is your sense of what that 
means in terms of the future for veterans here?
    Lieutenant Colonel Schmiegel. I think it means we need to 
do more. It is not, it is no surprise that veterans are 50 
percent more likely to serve in the public sector if the public 
sector is using resources to encourage them to serve in the 
public sector.
    The answer to all these questions, the answer to solving 
the issue of veterans employment lies with small business. That 
is the job growth engine of this country. As we come out of the 
recession, jobs will be created in small businesses.
    So if we are going to look at programs, we have to look at 
the private sector and small businesses.
    Ms. DeLauro. Well, I understand that, and I would concur 
except that we are looking at, again, the COPS program. And 
again, we have all supported these----
    Lieutenant Colonel Schmiegel. Sure.
    Ms. DeLauro. Veterans bills. We are talking about making 
sure that veterans come out of the military with the training 
or the cert that they have that they are looking at employment 
that is somehow based on their experience. And we are 
encouraging people to actively go into these efforts.
    I might also add that the SBA is working very, very closely 
with veterans to look at how they can be set up as 
entrepreneurs, et cetera. So that is working with business, et 
cetera.
    But we should be careful is what I am saying here as to 
what we are all doing on our side of the table, and what we are 
demanding that our agencies do and who they are hiring. And 
then, by the same token, then on the other side of it saying 
that we are going to look at public sector jobs cut because of 
budget tightening at the State level, at the Federal level, and 
then if that is the case, what are the assurances that we are 
moving veterans into long-term and sustainable jobs?
    And unless we have that full discussion, we are going to 
find ourselves in a position where we have brought people in to 
jobs that we think they ought to fill, and then we cut them out 
of them, and then they have no place in which to go.
    Mr. Rehberg. Ms. Roybal-Allard.


                   educating veterans about services


    Ms. Roybal-Allard. I just wanted to raise one issue with 
regard to the fact that representatives of the Los Angeles 
County Workforce Investment Board have told me that it is going 
to be very difficult for veterans to find information about the 
employment services that are available to them. Are the VA and 
the Department of Labor and other agencies coordinating efforts 
to address this issue and to help educate veterans about the 
services?
    Lieutenant Colonel Ortiz. For me, ma'am?
    Ms. Roybal-Allard. Yes.
    Lieutenant Colonel Ortiz. Yes, ma'am. We are working hand-
in-hand with a lot of our agencies, with some of our partners 
also. The majority of the things that we are trying to achieve 
is the fact that we are making everything feasible by starting 
them off by the Transition Assistance Program, which the DoD, 
VA, DHS, and DOL work.
    We also work hand-in-hand with the agencies as far as our 
reintegration programs and also our--the Veterans Reintegration 
Employment part where VA gives them a certain amount of--
prepares them for work and then brings them, puts them over to 
the DOL One-Stop shops where we are able to help them find 
employment through this.
    So, yes, ma'am. We are, in fact, working hand-in-hand to 
make sure those things happen.
    Mr. Carbone. Yes. I can say that that has not been a 
problem in my region. If the One-Stop or the WIB is operating 
the way it should, you have got avenues to all of those groups. 
And as information is available, it is made available to the 
One-Stops and to the system.
    I think the point I have been trying to make here today is 
that that infrastructure is in place. How it works is up to the 
Department of Labor and, of course, to the Congress. If funding 
is reduced, it means you have got to make less money available 
because it does not reduce the number of groups that you have 
to serve.
    And what I have given you here with respect to veterans is 
that in some respects they are no different than long-term 
unemployed. They come with the same kinds of emotional 
challenges and a need for self-confidence building and other 
factors that sometimes cost a little bit more. But in the long 
run, they certainly provide a great difference in terms of the 
eventual outcomes that you have.
    Lieutenant Colonel Schmiegel. I would say, if I could, two 
things. One, the idea of a hiring fair being the be all to end 
all for hiring, getting veterans jobs is not. I don't want to 
give people that impression.
    But we do bring the VA, Department of Labor, ESGR, and 
other Government agencies and nonprofits around this single 
event. So if those communities come together around one event, 
they can certainly meet twice a month to help veterans and 
military families reintegrate into communities.
    We have done events in L.A. It is a big city. We are going 
to be back in L.A. What you see when you do this in a community 
is a different core group of leaders, and it will look 
different because sometimes the DOL leader may be weak. 
Sometimes the Chamber leader may be weak. So you need kind of 
some depth there.


                       opportunities for america


    The last thing I want to say and it keeps on coming up, 
whether or not it is the right thing to do for business. This 
is not charity, and if anything, we are helping businesses do 
the smart thing, not just the right thing.
    We have to bring that point home because this is an 
opportunity for America. In World War II, millions of veterans 
went back into the workplace, and they raised our economy and 
made our manufacturing sector the strongest in the world.
    There are sectors growing in America right now. We have an 
opportunity with a million service members leaving over the 
next 5 years to infuse the energy sector, the healthcare 
sector, the infrastructure sector with talented people. This is 
not charity.
    Ms. DeLauro. Mr. Chairman, I just have or two----
    Ms. Roybal-Allard. Can I just ask one quick? Do you know 
when you are going to be in L.A.?
    Lieutenant Colonel Schmiegel. I don't know off the top of 
my head. We have 400 dates on the calendar. But I will send 
them to you, ma'am.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Rehberg. Ms. DeLauro.
    Ms. DeLauro. Just a couple of things, and Mr. Ortiz, if you 
could, I don't know if you can do it briefly or do it for the 
record, but this is on the DOL performance measures. If you can 
get us that information, that would be very useful and helpful 
information.
    Lieutenant Colonel Ortiz. Yes, ma'am.
    Ms. DeLauro. Of course, I don't know if you could say 
anything quickly because I know the chairman wants to wrap up.
    Lieutenant Colonel Ortiz. I will be more than happy to 
provide that for the record, ma'am.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Ms. DeLauro. If you can, because I think it is important. 
And we are getting information about what is happening with the 
Chamber. I think that is critical.
    And the same with Mr. Carbone, you know, with what are the 
objects?
    And I would just like to--Mr. Chairman, we didn't get at 
all to talk about, I think, an issue which is so critically 
important, and that is the issue of women veterans.
    Lieutenant Colonel Ortiz. Yes, ma'am.
    Ms. DeLauro. And they, quite frankly, are behind the curve 
in every effort here, and they are most unemployed. They are 
most of our homeless, and it is becoming a very serious 
problem. And they are serving in the same capacity that male 
veterans have, and what I wanted to try to do was to get some 
quick appraisal of what you all are doing with regard to female 
veterans?
    Lieutenant Colonel Ortiz. Well, ma'am, I will tell you. The 
Department of Labor, we have HVRP programs specifically for our 
females.
    Ms. DeLauro. For women.
    Lieutenant Colonel Ortiz. And we have 26 grants last year 
that we gave out. The Women's Bureau holds listening sessions 
across the country to make sure we cover, we go to women stand-
downs specifically for our women veterans.
    We are part of the women's veterans groups to make sure--
Secretary Solis is very, very adamant to making sure that we 
reach out specifically to them. Not just to veterans, but to 
female veterans and female veterans with families.
    Ms. DeLauro. Right.
    Lieutenant Colonel Ortiz. Because sometimes it is hard for 
them to be able to do certain things. So it is important for us 
to do that.
    Mr. Rehberg. Real quickly, the other two gentlemen, please.
    Lieutenant Colonel Schmiegel. I will be quick.
    Mr. Rehberg. And then I will point out that the record will 
be open for a period of 14 days for the Members to ask 
additional questions. If asked, I hope you will answer in a 
timely fashion.
    Mr. Rehberg. And we will conclude then with the two 
gentlemen, please.
    Thank you.
    Lieutenant Colonel Schmiegel. Thank you.
    I would like to tie two points together. You mentioned 
military spouses earlier, and we didn't get to it.
    Ms. DeLauro. Right. We didn't get to that.
    Lieutenant Colonel Schmiegel. Forty percent of military 
spouses are women veterans. It is not surprising given they 
meet their mate at that point in their life. My wife was a 
military spouse for 15 years, serving alongside me. Twenty-six 
percent of military spouses are unemployed. So they face an 
equally challenging issue as women veterans.
    I think you need to approach this differently. Women 
veterans, first, one out of three don't self-identify, and they 
don't like to go to hiring fairs to find a job. We have hired 
three women veterans in our program. We have also hired a woman 
named Laura Dempsey, who is the founder and co-chair of Blue 
Star Families.
    She has started a couple of initiatives. She brought 
together nine nonprofits under one entity, one umbrella called 
the Military Spouse Business Alliance. And we are starting an 
e-mentor platform. And I think mentoring women, and business 
executives need to mentor women veterans and military spouses 
about the challenges they face when they transition.
    Ms. DeLauro. We also have on our committee Ms. Granger, and 
she is not on our committee, but on Armed Services, Susan 
Davis, are on the board, Mr. Chairman, of Joining Forces, which 
is active in this area as well. And our State commissioner of 
veterans in Connecticut, Linda Schwartz----
    Mr. Carbone. Schwartz.
    Ms. DeLauro. Sits on that effort as well.
    Mr. Rehberg. Mr. Carbone.
    Mr. Carbone. Yes, we were--we did win one of those awards, 
by the way, that you alluded to, and it does serve the female 
veterans. We have got a program now in Stamford, and we have 
got one in Bridgeport as well, and both are working well. In 
fact, we have got a residential facility that was just opened 
in Bridgeport as well.
    Just want to make one point on the performance measurements 
that you made reference to earlier. One of the things that is 
not really a performance measurement, but I think says a lot as 
to whether or not that One-Stop or that WIB is being effective 
is whether or not they can leverage those formula dollars to 
grow the business, to create some kind of an environment where 
you can do a lot more things and do greater things as a result 
of money that you may even have a lot more flexibility with.
    I think that is important, and I think that has made the 
difference here in some of the programs that you have read 
about at The WorkPlace.
    One last point I would like to make with respect to the job 
fairs. It is not unusual sometimes that you will get 75 or 80 
businesses that will want a table at the job fair. Your 
reference before about not inviting businesses back that just 
come there to put up their shield, kind of take advantage of 
the nice picture or something of that sort, but don't respond 
with jobs, all right?
    Just like you do, I am doing that herein because we have 
got 5 that we are doing over the next 2 months. And there is a 
good 30 or 40 businesses that come there, proudly put up their 
shield, but don't hire anybody.
    Mr. Rehberg. Thank you very much.
                                          Thursday, March 22, 2012.

                      U.S. DEPARTMENT OF EDUCATION

                               WITNESSES

HON. ARNE DUNCAN, SECRETARY, DEPARTMENT OF EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Rehberg. We do start on time here.
    Good morning, Mr. Secretary. Welcome to the subcommittee.

                       Chairman's Opening Remarks

    This morning we have an opportunity to talk about what I 
think is one of the most important investments we can make in 
our country, the education of our young people.

               FISCAL YEAR 2012 EDUCATION APPROPRIATIONS

    I am proud to say that last year, even under very difficult 
budget circumstances, we were able to maintain the maximum Pell 
grant at $5,550 while making commonsense reforms to put the 
program on a solid financial footing this year. We were also 
able to increase IDEA grants to States by a modest amount, $100 
million. It isn't as much as the $1.2 billion increase that I 
had proposed in the bill I introduced last fall, but I know 
that every penny makes a difference to struggling local 
districts. And, finally, Title I grants to States were 
increased by $60 million.
    Although the overall funding level at the Department of 
Education actually represented a cut from the prior year, we 
made the tough decisions to prioritize these core, large 
formula grants that benefit almost every district in the 
country.

               FISCAL YEAR 2013 EDUCATION BUDGET REQUEST

    So I was very disappointed when I saw that, with the nearly 
$2 billion in new money allocated for education resources in 
the President's budget this year, he didn't put funds into IDEA 
to help meet our Federal commitment there, you didn't put them 
into Title I, you didn't put them into Impact Aid basic support 
payments or rural education programs or TRIO--not one penny.
    Instead, your budget requests $1 billion for a new, never-
authorized Race to the Top program which would be operated at 
the college level. The budget request does not provide any 
authorizing legislation to carry it out or details about how 
this program would work. Your request also includes a $300 
million increase for the K-12 Race to the Top program, which 
members of this subcommittee as well as members of the 
authorizing committees have serious reservations about. I think 
you should have gotten that message loud and clear last year. I 
notice a pattern here.
    Many other aspects of your budget request also echo the 
theme of less money for tried-and-true formula grant programs 
to States and more money in flexible pots for brand-new ideas 
left entirely to your discretion, and yours alone, without 
congressional input. Why are these large grant programs all 
level-funded in your budget while new and untested ideas like 
Race to the Top and the so-called First in the World 
competition get huge increases? This is a question we will 
address.
    Sometimes it is necessary to level-fund a program in tough 
budget times. I understand that. But I do not understand why, 
instead of investing the nearly $2 billion in additional 
educational resources you had to help meet our Federal 
commitment to IDEA, you chose to create brand-new programs out 
of whole cloth that you must know are not going to go over 
particularly well within this congressional committee.
    I will ask some questions along these lines in a moment, 
but at this time I would like to yield to my ranking member, 
Ms. DeLauro, for her opening statement.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                    Ranking Member's Opening Remarks

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Good morning. Welcome, Mr. Secretary. Mr. Skelly, good to 
see you.

                PAST AND PROJECTED EDUCATION BUDGET CUTS

    As we think through the President's budget proposal for 
2013, I think it is critical to remember the context in which 
it comes. This year's request arrives after two successive 
rounds of budget cutting. It comes as the House majority is 
once again proposing a budget that asks the middle class to pay 
for more tax cuts for the wealthiest Americans, including by 
making significant cuts to investments in education.
    Under the 2012 legislation enacted in December, 
appropriations for the Department of Education, excluding Pell 
grants, are $1.5 billion less than the comparable level 2 years 
earlier. That is the cut in actual dollar terms without taking 
into account rising costs, growing population and student 
enrollment, and unusually high levels of need.
    An enormous number of critical programs and services have 
already been cut and, in many cases, completely eliminated. A 
few examples: Education Technology State Grants, Smaller 
Learning Communities, Civic Education, Teaching American 
History, Foreign Language Assistance, Javits Fellowships, Even 
Start. The list goes on.
    Meanwhile, many of the foundational grant programs that are 
at the core of the Department's mission have simply been 
frozen. And it goes without saying that after considering 
rising student enrollment, local and State budgets, growing 
pressure to improve student achievement, providing level 
funding to these programs serves as an effective cut in 
services.
    I should note that, had the majority had their way, these 
cuts to education would have been even more severe. A year ago, 
we were debating H.R. 1, the chairman's proposed budget for the 
remainder of 2011, which would have cut Federal education 
accounts by $5 billion. A total of 957,000 children would have 
lost Title I support; 482,000 children would have seen School 
Improvement Grant funding dry up; 196,000 children would have 
lost access to Head Start; and college students would have lost 
$845 a year in Pell grants.
    In the final 2012 budget, I was pleased to work with 
Chairman Rehberg to instead secure some modest increases for 
some of our education priorities, such as Title I, IDEA, 
Promise Neighborhoods. But the 2013 budget proposal put forward 
by Budget Committee Chairman Ryan earlier this week argues for 
similarly deeper cuts. It rolls education, job training, social 
services into one budget function that is 20 percent less than 
2012 levels.
    Further information was put out by OMB, and in their 
calculation the Department of Education would be cut by more 
than $115 billion over a decade. For IDEA, it would be a 5.4 
percent cut, $645 million cut to IDEA if this budget goes into 
effect, that is 18.9 percent below 2012. That clearly doesn't 
meet our commitment, nowhere meets our commitment to 40 percent 
funding for Special Education.
    This is wrong. It does not make sense to roll back our 
critical investments in education, particularly at this 
difficult and delicate economic moment. If we want to create 
jobs, grow the economy, reduce the deficit in the long term, we 
have to maintain our investments in education, work to ensure 
educational opportunity for all.

               FISCAL YEAR 2013 EDUCATION BUDGET REQUEST

    Education is the great equalizer. It sets aside your 
gender, your race, your socioeconomic status, your religion, 
your political party, and it says, your God-given talent is 
what ought to drive your ability to succeed. Education, all 
types of education, including vocational, community colleges, 
is the key to our successfully navigating this transitioning 
economy. I am glad to see the administration recognizes this by 
increasing the Education Department's budget by 2.5 percent.

                COMPETITIVE VERSUS FORMULA-GRANT FUNDING

    Mr. Secretary, you know, and we have had these 
conversations, I continue to be concerned with the emphasis on 
competitive grants in the budget at the expense of formula 
funding. The 2013 request puts a full 18 percent of funding 
into competitive grants. That is a 50 percent increase from 
last year. Formula funds fall by $1.2 billion, while 
competitive grants go up by about $2.8 billion.

                    TESTING AND STUDENT ACHIEVEMENT

    When we are looking at how we distribute these awards or 
measure program success, I also urge caution against 
overemphasis on testing. A recent systematic study by the 
National Academy of Science concluded that test-based incentive 
programs have had little to no effect on student achievement 
and that exit exams have depressed graduation rates by 2 
percent with no impact on achievement.
    Testing can be a very valuable diagnostic tool for 
identifying problems and determining how best to help a child 
succeed. But making tests, rather than the kids, the 
centerpiece of the education system and the one and only 
indicator of success or failure is problematic, in my view.
    Instead, I believe we should be taking a more comprehensive 
approach to improving education. That means recognizing the 
profound impact that poverty, grinding poverty, has on learning 
so that we invest in early childhood education--yes, and I 
support universal preschool; I wish we could get to universal 
preschool education in this country--after-school programs, 
ensuring that our kids have access to good nutrition, good 
health care, and good counseling.

                       EARLY CHILDHOOD EDUCATION

    With that in mind, I am excited about the Early Learning 
Challenge Grants included that have already been awarded in 
nine States. I look forward to seeing some great results. I 
strongly support the administration's prioritization of early 
childhood in this year's budget proposal, and I firmly believe 
that the earliest experiences are essential and supportive 
environments are critical to long-term outcomes for children.

                    COLLEGE ACCESS AND AFFORDABILITY

    I am glad to see the President is continuing his effort to 
increase college access and affordability in this budget. 
Continued support of the Pell program is vital to these 
efforts. More than 9 million low-income students depend on this 
benefit to keep them in school so that they can earn their 
degrees and find quality, well-paying jobs.
    Unfortunately, Pell grants continue to be a target for both 
cuts and heated rhetoric by Members of the majority. In the 
national dialogue, some have been impugning the value of higher 
education and telling students to aim for second-best. 
Education is about telling people to reach for the stars, to 
aim for being the first, not to settle. That is what our goal 
should be. It is the great equalizer. It opens doors to 
opportunity, to jobs, to higher wages, and a better life for 
those who work hard. And I hope today we can discuss how best 
to provide that opportunity to all of our students.
    In any event, on behalf of the students in my district and 
across this Nation, I want to thank you, Mr. Secretary, and I 
want to say a thank you to the President for continuing to 
invest in education. It is the right thing to do. It is what 
our economy needs.
    And we thank you for coming today. I look forward to 
hearing your testimony and for our dialogue.

                  Committee Chairman's Opening Remarks

    Mr. Rehberg. Full committee Chairman Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary and your colleagues.

                 EDUCATION AS A FOUNDATION TO DEMOCRACY

    For years, in giving tours to young people through the 
Capitol, I close out my tour by saying that there are three 
basic reasons why we are a great country, one of which, I like 
to say, is universal free public education. As one of our 
Founding Fathers said, and I am paraphrasing, only an educated 
population knows how to run a democracy or can be a democracy. 
And I firmly believe in it and have voted that way down through 
the years.
    The importance of education as an investment in future 
generations is a value that can be traced all the way back to 
our Founding Fathers. John Adams extolled the virtues of 
educational attainment. Thomas Jefferson founded that great 
university. Others promoted education across all classes, no 
doubt about that.

                    EDUCATION INVESTMENT AND RESULTS

    We have spent billions of dollars over time with the goal 
of improving the quality of and access to education for all 
Americans. Forty years ago, we spent about $4,500 per student 
in the country; today, that figure is over $10,000. Yet we 
continue to see our students' achievement fall behind students 
in other countries.
    When we see Federal dollars funneled to programs which have 
not improved outcomes, when examples arise of those dollars 
being wasted at the school-district level, and when groups 
demand more dollars with no oversight or reform, it makes some 
of us wonder if this Federal investment is being effectively 
used or is even worthwhile. As policymakers, it is our job in 
the Congress to ensure, along with you, that these investments 
have good returns.

            MANDATORY VERSUS DISCRETIONARY EDUCATION FUNDING

    Which brings me to this final thought. Two-thirds of 
Federal spending is now on automatic pilot--entitlements, 
mandatory spending. Only one-third is what is appropriated--
that is to say, discretionarily advised by the Congress. When I 
came here 32 years ago, it was just the opposite. We 
appropriated two-thirds, and entitlements were, like, one-
third.
    The result is, we owe $16 trillion. It is advancing by a 
trillion and a half a year. We are borrowing over 42 cents of 
every dollar we spend, a lot of it from people that don't wish 
us well around the world. We are digging a hole that is going 
to be almost impossible for even our grandchildren to dig their 
way out of.
    So we have a problem. And although I am a strong believer 
in spending on education, like I have told the Supreme Court in 
their budget request, no one should be exempt from the 
austerity that we all have to face. And that includes 
education, unfortunately, but it does.
    Mandatory spending, the largest driver of our debt, largely 
outside the purview of the Congress to oversee, is a big part 
of the problem. And I strongly believe that leadership from the 
administration and collaboration in Congress is urgently needed 
for us all to pull together to try to solve this problem that 
is eating away at our future. Unfortunately, the budget request 
that you have given to us doesn't help that problem. Your 
budget request seeks to add another $9 billion to mandatory 
spending, putting critical dollars on autopilot, as I have 
described.
    Mr. Secretary, basic economics tells us that if we do not 
bring mandatory spending under control and cease the trillion-
dollar annual spending deficit, we will not only make it more 
difficult for our kids to receive a world-class education, we 
will have saddled them with a burden that severely limits their 
freedom and their opportunity and their future. And I just 
think we all need to pull together in the same harness to be 
sure that we stop this cancer that is eating away at the future 
of our country.
    Thanks, Mr. Chairman.

               Committee Ranking Member's Opening Remarks

    Mr. Rehberg. Ranking Member Dicks.
    Mr. Dicks. I thank Chairman Rehberg for recognizing me. And 
I want to join him, Ranking Member DeLauro, Chairman Rogers, 
and the rest of my colleagues in welcoming Secretary Duncan and 
Mr. Skelly.

                           PELL GRANT PROGRAM

    Let me begin by raising the problems facing the Pell grant 
program. As my colleagues know, Pell grants are the foundation 
of our student aid program, helping almost 10 million students 
afford to go to college every year. The need for Pell grants 
expanded rapidly during the recession. People who lost their 
jobs decided to go back to college and get more education and 
better skills. And we know that there are jobs out there for 
people who have appropriate training. Also, the amount of your 
grant depends on your income and on your parents' income, and 
we had more people with less income qualifying for full Pell 
grants.
    Working in a bipartisan fashion, Congress has now made some 
substantial changes to the Pell Grant program to help contain 
costs. CBO tells us that we have reduced the appropriation 
needed by more than $20 billion over 5 years. There has also 
been some additional temporary funding derived from savings in 
other student aid programs that have helped us keep Pell going. 
And now it looks like we have a surplus in the program in the 
current fiscal year and again in 2013. That is great news.
    Unfortunately, I would add quickly, we haven't found a 
permanent solution. When the additional funding runs out in 
fiscal year 2014, the Pell grant program will be back in 
deficit again by about $6 billion under current estimates. All 
of us in both the legislative and executive branches need to 
get together on a workable long-term funding approach for Pell 
grants. This program is too important for us to fail. Cutting a 
lot of students out of the program or making big cuts in grant 
amounts just isn't an acceptable option. I am eager to hear the 
Secretary's thoughts on how we can address this serious 
problem.

            RACE TO THE TOP COMPETITION AND WASHINGTON STATE

    I also would like to raise my concern with the narrow 
definition of ``innovative schools'' that the Department of 
Education adheres to frequently when determining policy and 
awarding grant money. Perhaps the highest-profile example would 
be during the second round of the Race to the Top competition, 
the State of Washington applied after the State legislature 
approved a number of education reforms sought by the 
administration. Ultimately, the request was rejected by the 
Department of Education.
    According to the Governor and the State superintendent of 
public instruction, a leading factor in the rejection was that 
the State does not allow charter schools. On three separate 
occasions, voters in Washington State have rejected charter 
schools on the ballot.
    Washington has a long and progressive history of promoting 
choice, fostering innovation, and offering alternatives within 
the public school system. I have a list with me of more than 
300 schools in the State that would qualify as ``innovative'' 
under any definition except perhaps that of the Department of 
Education. Aviation High School, for example, in the Highline 
School District near Seattle provides a unique focus on the 
STEM disciplines--science, technology, engineering, and math--
in partnership with Boeing, Microsoft, and other premier 
Northwest companies. In my own congressional district, many 
school districts are engaging in very innovative programs, such 
as the new STEM Academy at West Hills in the Bremerton School 
District, the Tacoma School of the Arts, and the Science and 
Math Institute in the Tacoma School District.
    These schools are the equal of any charter school in terms 
of innovation and accomplishment, but, unlike many charter 
schools, they also have the discipline and accountability that 
public schools have and Washington State voters demand. I hope 
the Secretary understands that you can have innovation in 
education without charter schools and that the Department in 
the future will consider what these schools accomplish, rather 
than what label they may carry, when determining policy and 
grant awards.
    I thank the chairman again for yielding to me, and I look 
forward to hearing the Secretary's testimony.
    And, again, I support what Congresswoman Rosa DeLauro said. 
Education is fundamental in this country, and somehow we are 
going to have to figure out a way to keep supporting it and 
especially the Pell Grant program.
    Thank you.

                PROPOSED COMMITTEE RECESS FOR HOUSE VOTE

    Mr. Rehberg. I would like to welcome you to the committee. 
As I mentioned to you before we began today, it looks like we 
are going to be called to a vote somewhere between 11:00 and 
11:30. We will do everything we possibly can to get through at 
least one round of questioning, and I understand then that 
would probably complete our hearing. So if you can shorten your 
statement--we have it for the record--that would give us an 
opportunity to open up a dialogue.
    But the time is yours, Secretary Duncan. Welcome.

               Opening Statement of Secretary Arne Duncan

    Secretary Duncan. Thank you so much, Chairman Rehberg, 
Ranking Member DeLauro, and members of the committee.
    Thank you for this opportunity to talk about President 
Obama's fiscal year 2013 budget for the Department of 
Education. This budget request reflects President Obama's firm 
belief that our country has always done best when everyone gets 
a fair shot, everyone does their fair share, and everyone plays 
by the same rules.

            EDUCATION INVESTMENTS TO SECURE AMERICA'S FUTURE

    Our budget reflects the administration's dual commitment to 
reducing spending and becoming more efficient while investing 
to secure our future--investments that improve our global 
economic competitiveness, and, as the Council on Foreign 
Relations' Task Force on Education stated this week, 
investments that directly impact our national security. 
According to the task force co-chairs, former Secretary of 
State Condoleezza Rice and former New York City Schools 
Chancellor Joel Klein, the State Department is struggling to 
recruit enough foreign language speakers. U.S. generals are 
cautioning that enlistees cannot read training manuals for 
sophisticated equipment. And a report from the 18th Airborne 
Corps in Iraq found that out of 250 intelligence personnel, 
fewer than five had the aptitude to put pieces together to form 
a conclusion.
    Few issues touch so many parts of our lives and few 
investments are as important to our safety and wellbeing as the 
commitment that we make to education in America.

                FISCAL YEAR 2012 EDUCATION APPROPRIATION

    And I want to begin by thanking all of you for your work on 
the 2012 appropriation for education. I know that you faced 
some real challenges in reaching an agreement, but I believe 
the final appropriation reflected a reasonable balance of 
continued support for programs designed to help State and local 
leaders achieve groundbreaking education reforms as well as 
reductions in other areas where budget savings were difficult 
but a necessary decision.

            RACE TO THE TOP AND INVESTING IN INNOVATION FUND

    In particular, I want to thank you for your continued 
support for both Race to the Top and the Investing in 
Innovation Fund, the i3 Fund. As a result of Race to the Top, 
46 States have created bold, comprehensive reform plans, with 
buy-in from Governors, legislators, local educators, union 
leaders, business leaders, teachers, and parents.
    For an investment of less than 1 percent of total K-12 
education spending, we have seen more reforms across the 
country in the last 3 years than we have seen in all the years 
of the previous decade put together. Even before we spent a 
single dime of taxpayer money, 32 States changed over a hundred 
laws and policies to improve the opportunities for children to 
learn.
    We have also seen the transformative impact of Race to the 
Top in communities across the country. From Ohio, where funds 
have helped rural districts partner on principal and teacher 
training, to Tennessee, where STEM coaches are helping to 
improve the skills of K-12 math and science teachers, and 
Georgia, where public-private partnerships have formed to 
prevent at-risk youth from dropping out of school, Race to the 
Top is making a big difference in children's lives and 
transforming public education as we know it.

                    EARLY LEARNING CHALLENGE GRANTS

    I am happy to report today that, thanks to your continued 
support for comprehensive education reform, we plan to use our 
fiscal year 2012 Race to the Top funds for both the district-
level competition and another round of Early Learning Challenge 
Grants. We know that early-learning investment is probably the 
best investment we can make. We were fortunate to be able to 
fund nine States in the last round. We had many other great 
applications; we just simply didn't have enough money to fund 
them. And we want to continue to invest there this year and 
going forward. And we are still working out the details, but we 
look forward to updating the committee in the coming weeks with 
more information.

           INNOVATION THROUGH FORMULA AND COMPETITIVE GRANTS

    At their core, Race to the Top and i3 are about spurring 
reform by rewarding success and giving flexible funding to 
implement good ideas. Especially in a time of tight budgets, we 
need to make the most effective use of Federal funds. Formula 
funds alone can't drive the kind of transformational reform our 
education system needs. We need to combine a strong foundation 
of formula funding, which is the vast majority of our budget, 
about 84 percent, with targeted use of competitive grant funds.

                    PROMISE NEIGHBORHOODS INITIATIVE

    I was also pleased that you have doubled the funding for 
our Promise Neighborhoods initiative. The growing income 
inequality in America over the past 30 years has led to 
historically high child poverty rates. Sort of a staggering 
number, but close to one-fifth of America's children live in 
poverty. And in some States poor children represent almost 50 
percent of all public school students. This is morally 
unacceptable, and it is economically unsustainable.
    Education, as Congresswoman DeLauro said, education has to 
be the great equalizer. And if we ever hope to lift our 
children out of poverty, we must give them access to effective 
schools and to strong systems of family and community support. 
We think Promise Neighborhoods can help to break cycles of 
poverty, and I really appreciate your support for this 
initiative.

                           PELL GRANT PROGRAM

    We also recognize the committee made some difficult choices 
with respect to the Pell grant program, but we appreciate that 
the maximum Pell grant award was maintained at its current 
level, which will help close to 10 million students across the 
country pursue higher education.

                   REPRESENTATIVE RYAN'S BUDGET PLAN

    Before I give you an overview of our budget request for 
next year, I would like to take a moment to address an issue 
that could threaten our ability to prepare America's students 
to compete in this globally competitive economy and undermine 
our national security. As you know, yesterday Congressman Ryan, 
whose leadership I respect, unveiled an alternative budget plan 
which you may soon be considering here in the House. And 
however well-intentioned, the Ryan plan would lead to 
catastrophic cuts in education programs by balancing the budget 
on the backs of America's students, teachers, and families.
    If the Ryan budget is voted into law, we could see 
disastrous consequences for America's children over the next 
few years. By 2014, Title I, which helps fund educational 
programs and resources for millions of low-income, minority, 
and rural and Native American children, could see a $2.7 
billion reduction that might deny resources to over 9,000 
schools serving more than 3.8 million students.
    Mr. Rehberg. Secretary Duncan, please summarize your 
comments.
    Secretary Duncan. Okay. I would like to walk through a 
couple more challenges there.
    Funding to help educate special-needs students, students 
with disabilities, would be cut by over $2.2 billion, which 
would translate to a loss of over 30,000 special education 
teachers, aides, and other staff. One hundred thousand children 
could lose access to Head Start. Work-study programs for folks 
going to college, would be cut; 130,000 would lose access. TRIO 
programs, $159 billion cut, leaving about 148,000 students in 
the lurch. And that is just the tip of the iceberg. Simply put, 
this country cannot afford to go backwards here.

                             SEQUESTRATION

    Likewise, we can't afford the disastrous across-the-board 
cuts known as budget sequestration that could take effect next 
year. We look forward to your collective leadership to make 
sure that we don't go down that route.

              FISCAL YEAR 2013 EDUCATION BUDGET PRIORITIES

    As a country, we have to continue to invest, and that is 
why we are requesting in fiscal year 2013 $69.8 billion in 
discretionary funding, an increase of about $1.7 billion. Four 
areas of significant increase: supporting State and local 
reforms at the K-12 levels, elevating the teaching profession, 
strengthening connections between school and work, and trying 
to make college much more affordable, which is by far the 
largest share of this.
    Our young people today have to get a higher education 
through 4-year universities, 2-year community colleges, or 
trade, or technical/vocational school training. We all must 
invest. We at the Federal role have to play our part. States 
have to continue to invest even in tough economic times. And 
universities have to keep down their costs and be reasonable 
there. The vast majority of the jobs of the future are going to 
require some form of higher education, and we have to make sure 
we are committing there. So whether it is maintaining the Pell 
grants that are so important, whether it is trying to double 
the number of work-study opportunities, or making the American 
Opportunity Tax Credit--AOTC tax credit permanent, we have to 
continue to make sure these options are out there for our 
Nation's hardworking young people.

                   ELEVATING THE TEACHING PROFESSION

    We need to elevate the teaching profession. We have the 
baby-boomer generation that is retiring, and we want to invest 
heavily to bring in the hardest-working and most committed to 
fill those slots over the next 4 to 6 years. This is a once-in-
a-generation opportunity.

                    INVESTMENT IN COMMUNITY COLLEGES

    We want to invest in community colleges. We think they are 
a hugely important piece of the education continuum. And as 
folks get back on their feet--green energy jobs, health care 
jobs, IT jobs--community colleges have a huge role to play.

          BIPARTISAN SUPPORT NEEDED FOR EDUCATION INVESTMENTS

    I think these investments in education, again, aren't 
Republican, aren't Democratic ideas; these are American ideas. 
Education is the great equalizer. We have to educate our way to 
a better economy, and we look forward to partnering with you to 
help strengthen our Nation.
    Thank you so much, Mr. Chairman.
    Mr. Rehberg. Thank you.
    [The prepared statement and biography of Secretary Duncan 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 SUPPORT FOR EARLY CHILDHOOD EDUCATION

    Mr. Rehberg. I would like to begin the questioning. And I 
would just ask the Members, again we are now being notified 
maybe 11:00 to 11:15. Don't feel compelled to fill the time. 
Ask your question as concisely as you can, and we can hopefully 
get through at least one round.
    Mr. Secretary, I understand you wanted to make some comment 
about early learning. One of the things that Ranking Member 
DeLauro and myself were particularly concerned about, and we 
have talked about this, is a lack of recognition or either 
understanding on your part or at least a recognition within the 
President's budget of our priority for early learning.
    And so I guess I would like to ask you what you intend to 
do with early learning. And give me a specific amount that you 
are going to appropriate--or, not appropriate, but set aside 
within the fiscal 2013 budget if we give you the funding. I 
want to know exactly how much.
    Secretary Duncan. Well, far from a lack of recognition, 
historically our Department has invested in early childhood 
education. This is something that has always been desperately 
important to me. I keep saying we don't need another study 
telling us, if we want our children to enter kindergarten ready 
to learn and ready to read, that high-quality early childhood 
programs are hugely important.
    So, thanks to your support this past year, we invested 
heavily in States, with the partnership of HHS, cutting through 
bureaucratic silos. I felt great about that. We were able to 
fund nine states.
    I am not prepared to give you an exact dollar figure today, 
but we want to use a significant piece of the Race to the Top 
resources this year to fund----
    Mr. Rehberg. When will you give me an exact figure?
    Secretary Duncan. Over the next couple weeks. We are 
working on this very, very quickly. We want to do two things--
--
    Mr. Rehberg. So I will be able to put language in my bill 
in this committee specifically to that number?
    Secretary Duncan. Again, I will have to check on the 
timing. But we want to fund a district-level competition; 
districts have been working very, very hard. And we want to 
continue to fund States that are doing a great job in their 
early childhood space.

          EDUCATION BUDGET PRIORITIES--BASICS OR NEW PROGRAMS?

    Mr. Rehberg. I appreciated your comments about the Ryan 
budget. It is always nice to talk about something that may or 
may not happen in the future. This is not necessarily the 
appropriate venue because you are here to defend your budget.
    And so I guess the question is, with all of this ``woe is 
me'' about the Ryan budget, then why did you lack the 
priorities that we have tried to identify, as in the education 
basics of IDEA, Impact Aid, Title I and such, to move forward 
on unauthorized projects that seem to be the President's 
priority but are not necessarily the Congress' priority?
    So, you know, if the Ryan budget, let's say, doesn't pass 
and there is a level funding, you personally, within your 
agency, are doing the same damage that you are blaming him for 
to a greater extent in his budget. So, explain why the lack of 
priority among your administration for things like Impact Aid.

                 IMPACT AID--AN ADMINISTRATION PRIORITY

    Secretary Duncan. No, Impact Aid is a huge priority. So, 
again, whether it is Impact Aid or funding for----
    Mr. Rehberg. Then why not increase the funding?
    Secretary Duncan. So, again, these are very tough economic 
times. We were able to maintain existing funding for that. And 
I think so many of the investments we are making----

             FUNDING FOR EDUCATION BASICS AND NEW PROGRAMS

    Mr. Rehberg. So, in your mind, new programs are more 
important than the existing basic education programs of Impact 
Aid, Title I, or making up for a lack of funding within IDEA.
    Secretary Duncan. No, I think we are trying to do both. And 
I think what is so important is some of these competitive 
dollars have actually helped to leverage Impact Aid.

              IMPACT OF COMPETITIVE FUNDING ON IMPACT AID

    Let me give you a concrete example. One of the things that 
I do is--I go talk to military families across the country. One 
of the things that they most struggle with is the huge 
disparity in standards State by State, and every time they move 
they get hit by that. Thanks in part to some incentives through 
Race to the Top, States voluntarily adopted higher standards. 
As I talk to military families, they so appreciate that.
    And, so, again, using some of the competitive money to 
better leverage Impact Aid, Title I, and IDEA funding, we think 
you get a bigger bang for your buck that way.
    Mr. Rehberg. I think I am hearing a different answer from 
those that are receiving the Impact Aid dollars. They would 
rather see the funds going to the Impact Aid schools or the 
program itself or to IDEA. They just definitely disagree with 
you.
    And so, you know, as Chairman Rogers said, in a time of 
tough fiscal times, you know, it is nice to have ideas and look 
for newer opportunities, but you are underfunding now, in our 
estimation, the basic programs.

          INCREASING AND PROTECTING FUNDS FOR HIGHER EDUCATION

    Secretary Duncan. Those are great questions. These are 
really tough economic times. The largest increase we are 
looking for in this year's budget is to try and create some 
incentives to get States and universities to continue to invest 
in higher education. And we desperately want to protect Pell 
grants and increase them.
    We at the Federal level can't do it by ourselves, when you 
have 40 States cutting funding, when you have universities with 
tuition skyrocketing much faster than the rate of inflation. 
Again, we have to put some incentives out there to try and 
encourage universities to be full and equal partners at the 
table. Otherwise, the benefits of Pell grants get diminished.
    Mr. Rehberg. I would just caution you, before you start 
laying comments on a proposed budget, the Ryan budget or any 
other budget, look at your own budget to see what you have done 
with the basic programs, the ones that we consistently have 
prioritized. And you seem to have lessened the prioritization 
within your administration. So let's not cast those stones yet. 
Let's take a look at your budget.
    Secretary Duncan. Absolutely. And, again, I think in very 
tough economic times, to maintain funding in those areas, to 
not cut, and then to try and create some funding opportunities 
that would help leverage the impact of that funding, again, in 
serious economic times, we think that is the right way to go.
    Mr. Rehberg. Ms. DeLauro.

                       EARLY CHILDHOOD EDUCATION

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And, Mr. Secretary, first of all, I want to say thank you 
to your commitment to early childhood. From my opening 
statement, you know where my commitment is in that effort. And 
I truly do hope we would get to universal preschool in this 
Nation at some point and we would make the commitment of 
resources to do that. I look forward to hearing from you in the 
next couple of weeks about the amount of money we are going to 
devote to this area.
    I would just reinforce that I think the States have done an 
incredible job. There is real excitement out there amongst the 
States. And I would encourage the continued use of that vehicle 
in order to move forward on----
    Secretary Duncan. If I could just say on the early 
childhood topic, we are in this for the long haul. So we are 
thrilled to be able to help this past year. We want to do it 
this year, and we want to do it going forward. I just want to 
be very, very clear about this. This is a hugely important area 
for us to continue to invest in.

            NEED TO ANALYZE IMPACT OFF SEVERE EDUCATION CUTS

    Ms. DeLauro. I also have just this one comment. I think one 
can't keep your head in the sand, any of us. If there is a 
document on the table, whether it is the President's budget or 
whether it is the Ryan budget, a massive cut, $115 billion over 
a decade, what it means to Pell, what it means to the reforms 
in K-12 education, what it means to IDEA is critically 
important in the context of what we are undertaking today.

         SCHOOL IMPROVEMENT--CONSULTANTS VS. TURNAROUND MODELS

    With that said, let me just move to an issue that I want to 
talk about. This is about the School Improvement Grant program, 
SIG.
    Turnaround is hard; we all know that. No one can make 
guarantees that any school or program is going to work. I am 
concerned that we are asking some of the toughest schools in 
the country to reinvent the wheel for themselves. They are 
relying particularly on advice from consultants rather than 
using what has been proven, whole-school models that are ready 
to go. We are seeing reports that some of the SIG schools are 
having serious difficulties. Even where programs seem to be 
working in individual schools, we don't know how to extend what 
they are doing to additional schools.
    On the other hand, I think that you have made an investment 
in the i3 program to look at the most promising school models 
and the scale-up for school improvement. It is my understanding 
that the top-rated scale-up and validation programs--Success 
for All, Reading Recovery, KIPP--the Knowledge is Power 
Program, and Talent Development High Schools--have not been 
extensively called upon to work in SIG schools. It would just 
seem to me to be logical to take advantage of the growing 
investment in this effort, which is very, very promising, other 
than having these schools look to consultants, which is 
becoming a cottage industry, and they are not dealing with the 
proven programs.
    What the difference is--because I think this is important--
between a program and a consultant is that the program provides 
specific materials, software, training, organizational plans 
that have been tested in high-poverty schools, found to be 
effective. The consultant can give you good advice, but it is a 
long road from advice to action.

                 WHOLE SCHOOL REFORM--HARKIN-ENZI BILL

    I know in the Senate we have the Harkin-Enzi bill that is 
offering a whole-school reform. I won't go into it; I think you 
know about it. And it is an option for SIG schools focused on 
the evidence of effectiveness. So it says that they can use 
that model.
    I would like to see this committee continue to fund SIG, a 
long overdue focus for Title I funds. Why not expand the 
program a bit, just to incentivize schools to use the programs 
that the Department is already endorsing in that i3 program?

         SCHOOL TURNAROUND MODELS FOR REDUCING SCHOOL DROPOUTS

    Secretary Duncan. Great point. And so, just first of all, I 
am thrilled, again, to thank this committee and everybody for 
their support.
    For decades, Congresswoman, we just passively watched as 
these dropout factories perpetuated year after year after year, 
like we didn't expect poor children to learn or that black and 
brown children can learn. As a country right now, we have over 
a thousand schools that are in the process of being turned 
around, and we are seeing some amazing success stories. Some 
are struggling, some have a long way to go, but folks are 
engaged in this work.
    But your point of, you know, using best practices, using 
proven players, getting folks who know how to make a difference 
for the children who historically have been desperately 
underserved by public education, I am absolutely with you on 
that.
    Ms. DeLauro. Are you open to a fifth model, if you will, in 
terms of----
    Secretary Duncan. I am open to anything that will work. And 
just to be real clear, so what we did on this, again, we put 
this money out to States, States competed it out to schools. 
And we are seeing some, you know, really interesting work going 
on there. There was an announcement this week with America's 
Promise Alliance that the number of dropout factories have gone 
down in this country. We have about 400,000 fewer children in 
this country going to dropout factories. That is very 
encouraging.
    But if folks can show me what they are doing to transform 
schools and offer opportunity and to do it with a sense of 
urgency, that is why we are doing this work.
    Ms. DeLauro. Uh-huh. I would like to continue our 
discussion on this because I think that there are more models, 
and we can use what you have done with i3 and additional models 
in order to effect the change that you would like to make.
    Thank you.
    Secretary Duncan. As a country, we are finally in this 
business, and we want to get smarter and better every single 
year.
    Ms. DeLauro. Thank you.
    Mr. Rehberg. I usually ask in order of attendance at the 
time the gavel is dropped.
    Mr. Alexander.
    Mr. Alexander. I will yield.
    Mr. Rehberg. He yields to the chairman, which is a smart 
thing to do. We were going to ask if you wanted to, and I 
thought you would do the right thing.
    Mr. Rogers.
    Secretary Duncan. You saw that one coming.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you, Mr. Alexander.

                  MANDATORY SPENDING INCREASE PROPOSED

    Your budget request for fiscal year 2013 includes a $9 
billion increase in mandatory spending--that is to say, money 
that will not be overseen by the Congress or by this 
subcommittee. You are asking for another $9 billion to go onto 
automatic pilot without the public's chance, through the 
Congress, to oversee that spending.
    What I want to know is, why is it so important to give the 
money for these programs outside the purview of the Congress 
and borrow the money from Red China to pay for it? Why is it 
that important?
    Secretary Duncan. First of all, again, I think the 
President has a proposal, which folks may agree or disagree on, 
but he has a proposal that has a balanced approach. We all want 
to reduce the debt and not borrow from folks.

                    INVESTMENT IN COMMUNITY COLLEGES

    But I think a couple of those investments, again, that we 
are making, one in community colleges, I can't overstate how 
important they are to our Nation. As I travel the country, I go 
to hundreds and hundreds of great schools; some of the most 
inspiring are my visits to community colleges. You have 18-
year-olds, you have 58-year-olds, you have folks from all over 
the globe going back to retrain and retool--green energy jobs, 
healthcare jobs, IT jobs. You have some community colleges 
today literally offering classes 24 hours a day--24 hours. So 
we are trying to help meet that capacity.

                     INVESTMENT IN CAREER ACADEMIES

    Secondly, we want to invest in career academies. And we are 
serious about preparing students for college and for careers. 
And we think there are great jobs out there in the technical 
world that we are not preparing students for. Again, we have to 
educate our way to a better economy. And the only way we are 
going to reduce this dropout rate and build these 2 million 
high-wage, high-skilled jobs is through those investments. We 
think it is a really good thing for the country.

                      DISCRETIONARY SPENDING CUTS

    Mr. Rogers. Look, last year, last calendar year, this 
committee took on the chore--and it was not fun, and we have 
not been thanked for it either--but we took on the chore. And I 
had a great relationship, working relationship, with my 
Democratic partner, Norm Dicks, and the other members of this 
committee. We took on the chore and successfully cut 
discretionary spending, which is one-third of the budget, one-
third of spending. We cut it by some $95 billion and we did it 
over 2 years, which has not been done since World War II.

          MANDATORY SPENDING INCREASE AND THE GROWING DEFICIT

    We have bit the bullet. And we are going to have to bite 
the bullet again, mainly because of the growth in mandatory 
spending, entitlement spending, over which the Congress, 
through the committee, has no oversight or control. And I am 
asking all of us to ask of every person requesting funds, is 
this important enough that we borrow it from Red China to pay 
for and give the bill to our grandkids?
    Now, under that kind of a test, where we are having to look 
at every dollar we spend--and there is spending on programs 
that are dear to a lot of us, including in education. But 
everyone has to bite the bullet. We haven't gotten that message 
through to the country yet.
    But we have got a severe problem. And I just want to ask 
you, are you telling us this is important enough that we would 
run it past the Congress and not let them oversee the spending 
and then borrow the money from Red China and pass the bill to 
our grandkids? Is this that important?
    Secretary Duncan. So, again, obviously, I just really 
appreciate your leadership. And I and the President absolutely 
share your concern on the debt side. We want to reduce debt. We 
may have slightly different strategies for getting there, but 
we want to do that.
    But these are one-time investments to get our families back 
on their feet and ultimately our country back on its feet. And, 
again, we have to educate our way to a better economy. That is 
the only way we are going to get there. So I think these are 
critically important one-time investments.
    We can get a lot more people retrained and retooled through 
the community college. You know, last week, 2 weeks ago, 
actually, a deaf individual had been an electrician. He lost 
his job, was back in community college for retraining, not 
asking for a handout, not asking for anything. He wants to get 
new skills for the new economy. We have to support those kinds 
of efforts.
    Mr. Rogers. Surely you must have realized, through all of 
last year and today even, that asking for a new mandatory 
spending program is not the most popular thing in the world 
with the Congress.
    Secretary Duncan. I fully understand.
    Mr. Rogers. Yeah. That being so, it seems to me that you 
would be thinking about spending your effort and your chits 
with the Congress on those very basic programs that are in 
jeopardy now in education and not be looking at these new 
mandatory programs that the Congress has been rejecting.

                    ENSURING HIGH SCHOOL COMPLETION

    Secretary Duncan. I hear the concern. Again, where I think 
we may have a difference of opinion is, right now we have a 25 
percent dropout rate in this country. There are no good jobs 
out there for a high school dropout. We have to make sure our 
young people graduate from high school and are college- and 
career-ready. And if we don't do that, if we just sort of 
maintain what we are doing with the 25 percent dropout rate, we 
condemn a whole set of folks around this country to poverty and 
social failure.
    And this has changed. Thirty years ago when I was in high 
school, my friends actually could drop out of high school on 
the south side of Chicago and go work in the stockyards and 
steel mills----
    Mr. Rogers. Thank you, Mr. Chairman.
    Secretary Duncan [continuing]. And have a decent life, 
and----
    Mr. Rehberg. Mr. Dicks.
    Secretary Duncan [continuing]. Those days are gone.
    Mr. Dicks. Thank you, Mr. Chairman.

                           PELL GRANT PROGRAM

    Let me ask you, you know, I have not served on this 
subcommittee during my tenure here, but I am concerned about 
the Pell grant issue, as I mentioned in my statement. As I 
understand it, in 2014 we are going to be $6 billion short 
unless something is done. I think that is unacceptable both, I 
would hope, to the committee and to the administration.
    How do we get out of this box we have gotten ourselves into 
without just destroying the program or severely hurting the 
program?
    Secretary Duncan. I will ask Tom to walk through the 
details. We have a couple ideas of what we would do to maintain 
this critical investment.
    Mr. Skelly. We have seen a drop-off in the increase in Pell 
grant recipients. We don't think it is going up as fast, but we 
would have a $6 billion shortfall in 2014.
    The budget makes three proposals to try to offset those 
costs through some savings in mandatory programs. One is to 
expand the Perkins Loan Program. One is to reduce the amount 
that guaranty agencies get when they rehabilitate defaulted 
student loans. Another is----
    Mr. Dicks. Would you pull the microphone a little closer? I 
am having----

                   IN-SCHOOL LOAN SUBSIDY LIMITATION

    Mr. Skelly. A third policy would reduce the length of time 
during which the in-school interest subsidy is given to 
students. Under subsidized loan programs, we would limit loans 
to only those who would use up 150 percent of the time that 
they are supposed to spend in school. If they are supposed to 
spend 4 years to get out of a program, we would give them 6 
years before we cut it off. The same kind of thing we did with 
Pell grants last year, we would do that with loans.
    In total, those things would save $6 billion through 2014. 
That plus the surplus that we got from 2013 going into 2014 
would mean you don't have any shortage through 2014.
    Mr. Dicks. Would that take care of the problem into the 
future?
    Mr. Skelly. No, sir.
    Mr. Dicks. Or do we have to do this every year?
    Mr. Skelly. We are going to have to do something in the 
future, also. We think this is a good way to make a downpayment 
on preserving that maximum Pell grant.
    Mr. Dicks. Okay.

               TIMELINESS IN ALLOCATING IMPACT AID FUNDS

    Mr. Secretary, you and I have talked a couple times on 
the--and I appreciate the chairman's support for the Impact Aid 
program. Sometimes we have a hard time getting the money out 
the door on Impact Aid. And sometimes they get, I think, 87 
percent or something, but then the rest of it takes a while. 
And, you know, this is a hardship for some of these school 
districts.
    Are we doing any better on that problem?
    Secretary Duncan. We are. And where we haven't done as well 
as we would like to in the past, historically, and obviously 
for preceding administrations as well, it is a real challenge. 
We have basically eliminated that backlog, so we have made real 
progress there.
    Mr. Dicks. Great.
    Secretary Duncan. And we are going to try and do everything 
we can to stay on top of it. And my staff is working 
extraordinarily hard.

                           IMPACT AID FUNDING

    Mr. Dicks. So I understand the cut in Impact Aid is like 
5.7 percent? Is that----
    Secretary Duncan. It is smaller than that.
    Mr. Skelly. No, it is not that much. The proposed cut is 
$67 million. We would still fund Impact Aid at $1.2 billion. 
Most of the money is still there. The programs that fund 
students, in particular, are going to be retained.

                  SCHOOL BREAKFAST AND LUNCH PROGRAMS

    Mr. Dicks. Now, let me ask you this. A lot of these kids, 
as I understand it, you know, are eligible for school 
breakfast, school lunch. Tell us about that. And how many kids 
are involved in that?
    Secretary Duncan. So, again, we have as many as 20 percent 
of young people in some States eligible here. And, you know, it 
is a real challenge. We worked very, very closely with, you 
know, my counterpart at Agriculture----
    Mr. Dicks. I mean, in some districts it is 70 or 80 
percent.
    Secretary Duncan. When I was in Chicago, it was 85 percent 
of my children on free or reduced lunch.
    Mr. Dicks. Yeah.
    Secretary Duncan. And I served tens of thousands of 
children three meals a day--breakfast, lunch, and dinner. And 
you do what you have to do. So----
    Mr. Dicks. How do they get by during the weekends?
    Secretary Duncan. Well, what we did very quietly is, for a 
couple thousand children during the school year, we actually 
sent them home with backpacks of food on Friday afternoon so 
they would not come back to us hungry. And we worked closely 
with the food depository. We see lots of interest in public-
private partnerships.
    But if our children's stomachs are growling, they can't 
learn, they can't concentrate. There are some basic physical, 
social, emotional needs we need to meet, with food being at the 
top of that list. And I got some critique for that, but, again, 
if children are hungry, I don't know how in God's name they can 
concentrate on algebra, biology. It is just not going to 
happen.

                 NATIONAL GUARD YOUTH CHALLENGE PROGRAM

    Mr. Dicks. You know, one program that I have been a 
supporter of is the National Guard Youth Challenge program. 
They take care of these dropouts, and they have had an 
enormously successful record. Are you familiar with that?

                      DROPOUT PREVENTION PROGRAMS

    Secretary Duncan. Yes. Those kinds of programs, the JROTC, 
are all very, very positive programs.
    Mr. Dicks. We have to work with the Labor Department, Mr. 
Secretary. You know, I think this is a model that could work. 
And we have all these disparate programs, and trying to pull 
them together and maybe use this as a model is something we 
ought to talk about.
    Secretary Duncan. We would love to do that. And talking 
about career academies, we actually had in Chicago JROTC 
running a number of our career academies. So there are some 
interesting partnerships we wanted to do here.
    Mr. Dicks. And I am short of time. I have saved you a 
couple minutes.
    Mr. Rehberg. Thank you. And I appreciate your interest in 
these challenges. You know we have worked together.
    Mr. Dicks. Right, no, I appreciate it.
    Mr. Rehberg. You bet. I think it is a good program, as 
well.
    Mr. Dicks. Mr. Lewis and I will keep on it.
    Mr. Rehberg. Mr. Alexander has deferred one more time to 
Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.

                     HISPANIC-SERVING INSTITUTIONS

    Mr. Secretary, we very much appreciate your being here.
    In the meantime, in Race to the Top and the additional 
funding for higher education, my district involves enough 
territory to put four eastern States in it, including the two 
major military bases. But probably your department doesn't know 
that the first funding, the very first funding that ever went 
in for HSIs--Hispanic-serving Institutions--was a proposal of 
my own.
    And could you give me an idea of what you are proposing for 
Hispanic-serving institutions last year versus this year versus 
the coming year?
    Secretary Duncan. I will have Tom walk you through the 
details. But HSIs, and HBCUs--Historically Black Colleges and 
Universities--are hugely important to us. We are going to 
continue to invest there.
    Obviously the Pell Grant program has been very, very 
beneficial to students in those places. And we are trying to 
equalize opportunity. So many of our young people of color, if 
they are first-generation college-goers, have a chance to go to 
school at HBCUs and HSIs, and we do whatever we can to support 
them.
    One thing I am actually very, very encouraged about, over 
this past year we saw a 24 percent increase in the number of 
Hispanic students enrolled in college. And we have to make sure 
they are graduating. So we want to continue to invest there.
    And the final thing I will say is that we want to continue 
to recruit great teachers. We want to make sure our teachers 
reflect the diversity of our Nation's young people. I worry 
about the lack of diversity. And HSIs, HBCUs have been a huge 
pipeline of talent coming into education.

               FUNDING FOR HISPANIC-SERVING INSTITUTIONS

    Tom is going to walk you through the specifics of the HSI 
funding.
    Mr. Skelly. It is the same amount of money that we have had 
in 2012; $221 million is the discretionary and the mandatory 
share of the HSI program.

                         CENTERS OF EXCELLENCE

    We also have an investment this year in the budget in 
something called the Hawkins Centers of Excellence program, 
which is designed to help schools that have a large number of 
minorities do a better job of preparing teachers.
    Mr. Lewis. I feel very strongly that there is huge 
potential here, especially for the Hispanic communities. I am 
concerned that we haven't evaluated very well the money that we 
have spent in the past and where we ought to be going. I am not 
looking for you to change the world here, in terms of 
additional funding, but level funding is not necessarily a 
reflection of what I am suggesting.
    Secretary Duncan. Well, I would love to work with you on 
that. And I have said repeatedly and publicly that we need 
these institutions not just to survive but to thrive going 
forward. And they have a critical role to play to try and 
strengthen our Nation's economy.

                         CHARTER SCHOOL FUNDING

    Mr. Lewis. Mr. Dicks mentioned a specific problem relative 
to the charter schools. And his State has voted to not have 
charter schools; that is not true in California. And we see 
some very good results; we see some that aren't so good. 
Specifically, out in the desert territory, there is a science 
and tech institution that does fabulous work. And I happen to 
think that those charter school funding flows are important.
    So would you respond to that and also respond to Mr. Dicks' 
problem of----
    Secretary Duncan. I actually agree with you; we just want 
innovative schools. And they can be charter, they can be 
traditional. Mr. Dicks referenced Aviation High School. I 
actually visited there. It is a fantastic school. We just want 
more great schools. And so you have high-performing district 
schools, that is great. Innovative schools, you have high-
performing charters, that is great. But we have low-performing 
charters and----
    Mr. Dicks. Mr. Secretary, we did not get funded.
    Secretary Duncan. Well, that wasn't necessarily the reason.
    Mr. Lewis. That is because of Norm. You didn't want to fund 
him, I know that.
    Mr. Dicks. You just wanted to make that point.
    Secretary Duncan. And in all these things, to be really 
clear, we had many more good applicants in all these things 
than we had dollars available. That is just the fact, in every 
single one of these. The Promise Neighborhoods, for example, 
the first round, we could fund 20 communities, yet we had 300 
applicants.
    Mr. Lewis. Mr. Secretary, I appreciate your being 
responsive to my district and not paying attention to Norm's 
district.
    Mr. Chairman, thank you very much.
    Mr. Rehberg. Ms. Roybal-Allard.

                          PERKINS LOAN PROGRAM

    Ms. Roybal-Allard. Secretary Duncan, it is my understanding 
that the administration is proposing a major overhaul of the 
Perkins Loan Program, which offers need-based, flexible, low-
interest loans. And while I strongly support efforts to 
increase college access and affordability, I am concerned that 
this proposal preserves the existing Perkins program in name 
only.
    As I understand it, the new program will reach more 
students but is a costlier alternative because interest will 
accrue while students are enrolled. Students will be subject to 
a 1 percent loan origination fee. The current public service 
cancellation benefits will be lost. The 9-month grace period 
will be reduced to 6 months. And the interest rate will 
increase to 6.8. In other words, the program bears little 
resemblance to the Perkins program that currently benefits low-
income students.
    How does this program differ from the student loan program? 
And is there a way of preserving the existing Perkins program 
while also expanding loan volume, as you have proposed?
    Secretary Duncan. I will have Tom walk you through the 
details. But to be clear, we are trying to keep Subsidized 
Stafford loan rates at 3.4 percent, not have them double. We 
need Congress to act on that. That is part of our budget 
proposal, that, you know, by July 1st, if Congress doesn't act, 
we will go from 3.4 to 6.8 percent going forward. We don't want 
to see that happen. So we are absolutely taking that battle on.
    Tom, do you want to walk through the changes?
    Mr. Skelly. The Perkins loan proposal is one you described, 
but the idea is to expand the number of schools that benefit. 
Right now there are only about 1,700 schools that get Perkins 
loans. We would like to expand that to about 4,400 schools. So 
more students at more schools would be able to benefit. We 
would also increase the loan volume. Right now we only make 
about $1 bilion in loans each year. We would expand it to about 
$9 billion a year.
    So, more loans, more students, more schools. We think we 
ought to provide incentives by giving money to schools that 
would do things like look at college affordability reforms, 
higher completion rates, or getting students good value out of 
their school.
    Secretary Duncan. We desperately wanted to invest and 
invest in many, many more young people, at many more colleges, 
and a lot more resources there. But, again, we also want to 
challenge universities to keep their costs down and to make 
sure they are graduating students, particularly first-
generation goers, you know, Pell grant recipients, and to try 
to get some partnerships underway. Here again, I don't think we 
can do this by ourselves.
    So if we have a chance to dramatically increase access to 
the Perkins Loan Program, we think that is a great thing for 
our Nation's young people.

                 COLLEGE PREPARATION AND AFFORDABILITY

    Ms. Roybal-Allard. I know that the President's goal is to 
significantly increase the percentage of Americans with college 
degrees. And to reach this goal is going to require closing 
that achievement gap that persists among low-income and 
minority students.
    Therefore, again, I was surprised that TRIO, GEAR UP, and 
the High School Equivalency and College Assistance Migrant 
Programs have been level-funded. And, unlike your higher-
education initiatives, these are proven college-preparation 
support programs that have successfully helped low-income 
students achieve.
    So why, again, is the administration investing in new, 
untested programs instead of giving more resources to the 
existing programs that we know successfully reach low-income 
students?
    Secretary Duncan. That is a great question. I guess the 
challenge to the country is that college is becoming 
unaffordable, not just for low-income folks but for middle-
class folks. And I can't tell you how many town-hall meetings I 
have done in rural communities, suburban, urban, where 
hardworking middle-class folks are starting to think college 
isn't for them.
    And so, we need to do something to encourage, to 
incentivize States to invest, to do something to incentivize 
institutions themselves to keep down their costs--some are 
being very creative here; most are not. The tuition cost of 
higher education is going up much faster than the rate of 
inflation. So putting out some carrots there so that States 
will continue to invest, that universities will do the right 
thing, we need to do that or else whatever we do in Pell 
grants, or Perkins loans, just won't be enough.
    Mr. Dicks. Would you yield just quickly?
    Ms. Roybal-Allard. Sure.

                IMPACT OF STATE BUDGETS ON TUITION COST

    Mr. Dicks. What I am told is, you know, in our State of 
Washington again, it is the legislature that has dramatically 
cut back the funding----
    Secretary Duncan. That is correct.
    Mr. Dicks [continuing]. Because they don't have any choice. 
And the university actually is--the cost per student is 
actually down from where it was 20 years ago. It is an amazing 
thing.
    I mean, I think you have to be very careful not to 
criticize the universities unfairly here for what the States 
are doing to them, especially the public universities.
    Secretary Duncan. Yes, that is absolutely correct. But, 
again, this is about shared responsibility. You have some 
institutions and States that, in these tough economic times, 
are acting better than others--there is a variation here, there 
is a spread. Some are being very responsible; others are not. 
And we just want to incentivize all actors to keep costs as low 
as possible.
    Folks are doing some really interesting things with 
technology to increase pass rates in classes, and also to 
reduce costs. Folks have to change, and universities have to be 
part of it. They can't do it by themselves, States can't do it 
by themselves, we can't do it by ourselves. All of us, all of 
us, have to come to the table and behave in different ways.
    Mr. Dicks. Just be careful not to punish the people who 
have done good work.
    Secretary Duncan. Absolutely. And I feel for States. Again, 
States are under huge budget pressure. I just think we have to 
invest in education.
    Mr. Rehberg. Mr. Dicks, what I find ironic is somehow we 
expect our local governments to balance their budget, the 
universities to balance theirs, States are doing the same, and 
the Federal Government is the endless pit of money. We cannot 
continue to expect the Federal Government to make up for all of 
the shortfalls at the local level. The local level is probably 
where they recognize most there is a lack of funding. And 
somehow this administration thinks that they can continue 
putting money into new programs, but we are trying to keep the 
basic programs alive at the local level.
    Mr. Alexander.
    Mr. Alexander. Thank you, sir.
    Mr. Simpson. You are not going to yield to me? That tells 
you where I sit.
    Mr. Alexander. I have a great deal of respect for Dr. 
Simpson but not that much.
    Thank you, Mr. Chairman.

                         COLLEGE AFFORDABILITY

    Mr. Duncan, you used the word ``skyrocketing'' a while ago 
when you talked about tuition rising in relation to the 
inflation. Why? Do you have an idea of why that is----
    Secretary Duncan. I don't have a simple explanation. And, 
again, I think a decent part of it, particularly in the public 
sector--Congressman Dicks is exactly right--is, when States 
disinvest, you know, one thing you do see is tuition goes up.
    But, again, we are seeing some real spread. You are seeing 
some institutions actually reducing their tuition. You see some 
folks going to 3-year programs. I was in Texas recently; they 
are looking at $10,000 college degrees.
    And so I think there is some real creativity there in these 
tough economic times in how folks become more efficient, how 
they increase completion rates, how they use technology. There 
is some really good work going on out there. We just want to 
see that become more the norm rather than the exception.

                FEDERAL STUDENT AID AND COLLEGE TUITION

    Mr. Alexander. Do you have any concern at all that 
federally subsidizing tuition might cause that tuition to go 
up?
    Secretary Duncan. We have looked at that very closely over 
the past 30 years, and tuition has gone up every single year 
whether we increased Pell grants or not. And, in fact, in a 
year when we reduced Pell grants, tuition still went up.
    So, you know, we have looked very, very closely at the 
history of this, and tuition has gone up regardless of what the 
Federal Government does--Pell grants went up, Pell grants were 
flat, Pell grants went down, tuition still went up.
    Mr. Alexander. Thank you, Mr. Chairman.
    Mr. Rehberg. Dr. Simpson.
    Mr. Simpson. If you don't quit saying that, I am going to--
--
    Mr. Rehberg. All right. Mr. Simpson.
    Mr. Simpson. Thank you.

                   EDUCATION FUNDING AND THE DEFICIT

    I found your opening statement and your testimony kind of 
riveting. I felt like I was back on the Budget Committee that I 
sat on yesterday for 12 hours doing a markup of the Ryan 
budget. But the reality is, I will tell you what is the biggest 
threat to education today. It is a $15.5 trillion deficit. And 
if you accept the President's budget as a blueprint for the 
future, it never gets to balance--never. That is the biggest 
threat to education and to every other program.
    Somehow we have got to get--the reality is--do you know 
what the 302(b) allocation is going to be for this committee? 
Because I don't. Do you?
    Secretary Duncan. No, sir.
    Mr. Simpson. So, in reality, you don't have a clue how the 
Ryan budget is going to affect education.
    Secretary Duncan. No, no, we have----
    Mr. Simpson. Because you don't know what this committee is 
going to do and what the 302(b) allocation is going to be. It 
may decide that it is going to be higher for this and lower for 
something else.
    Secretary Duncan. That is correct. But we have a pretty 
good estimate, and if those cuts go in place, it would be----
    Mr. Simpson. But they are just estimates. You are guessing 
what we are going to do. So don't come out with your--I am 
tempted to ask if OMB wrote your testimony or you wrote it.
    Secretary Duncan. No----
    Mr. Simpson. But I won't ask that.
    Secretary Duncan. Our staff did it. And it was very, very 
simple, and----
    Mr. Simpson. Well, then they are not any smarter about what 
this committee is going to do than you--anyway, let me ask a 
question.
    Secretary Duncan. Of course we don't know, but if that 
budget passes----
    Mr. Simpson. And maybe I am just being a little upset 
because I spent 12 hours having these debates yesterday about 
all this and about all the gloom and doom that was going to 
happen. The gloom and doom is going to be if we don't balance 
this budget and start addressing the $15.5 trillion deficit. 
And, as I said, the President's budget never gets to balance.
    Let me ask you an education question.
    Secretary Duncan. Yes, sir.

                          UPWARD BOUND PROGRAM

    Mr. Simpson. The one program that has a great deal of 
impact on my State is Upward Bound. And I am a big supporter of 
the TRIO programs--I am co-chairman of the Congressional TRIO 
Caucus. It has recently come to my attention the Department of 
Education instituted a competitive priority that eliminates the 
opportunity for applicants from my State and other rural States 
while enhancing the opportunities for applicants from some 
States, including Illinois, including the city of Chicago.
    Specifically, the Department's so-called persistently low-
achieving schools, for which Upward Bound applicants can 
receive up to five additional points on their applications, 
does not include any high school in Idaho. Yet the list from 
Illinois only includes high schools, including 66 from Chicago.
    Certainly you understand what this looks like, when you 
have----
    Secretary Duncan. I am happy to----
    Mr. Simpson. And let me also say that only one high school 
under the authority of Bureau of Indian Education across the 
entire Nation is eligible under this priority.
    An explanation would be helpful.
    Secretary Duncan. No, absolutely. I am happy to look at 
that. I am a big fan of Upward Bound. And we will make sure we 
are doing the right thing.
    Mr. Simpson. I would like to have a discussion with you 
later about it.
    Secretary Duncan. Absolutely.
    Mr. Simpson. Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rehberg. Mr. Flake.
    Mr. Flake. Thank you.

               FISCAL YEAR 2013 EDUCATION BUDGET INCREASE

    Just continuing with the discussion on the overall budget, 
when you have seen the increases over the past several years in 
the Department of Ed budget, and then to see a 5.4 percent 
increase in the fiscal year 2013, I ask, how do you do that? I 
mean, how with a straight face can you come and say, you know, 
with a department that has increased the budget so massively--
and I am not just putting all the blame on the Obama 
Administration; it went up precipitously under the Bush 
Administration, for which I think we all should be ashamed.
    And I just would like to know, why? Why a 5.4 percent 
increase?
    Secretary Duncan. Two-point-five percent. It is about a 
$1.7 billion increase, so it is about 2.5.
    And I just fundamentally believe education is an 
investment. We can't invest in the status quo; we have to 
invest in reform. I think this investment in early childhood 
education, which is a newer one for our department, we think 
that is critically important. We have to continue to drive K-
12. And we want to put some incentives out there, again, on the 
higher-education side, so that States will continue to invest 
and universities will be reasonable in tough economic times 
with their tuition.
    So these are the right investments to make. And, again, 
going forward, the jobs of the future are all going to require 
some form of higher education. And if we continue to have a 25 
percent dropout rate in this country, if we continue to just 
perpetuate the status quo, we do our country a great 
disservice, we cut off our nose to spite our face. That is what 
I am fighting against.
    Mr. Flake. Your figures are right. I was wrong. I was 
looking at the federally subsidized and unsubsidized student 
loans. That is the increase of 5.4 percent. The actual increase 
is 2.5. Still, it would seem unjustified when we are going to 
have to cut, we know it, everywhere, to come in with an 
increase here.

                FEDERAL STUDENT AID AND COLLEGE TUITION

    With regard to the relationship between federally 
subsidized student loans and Pell grants and the increased cost 
of tuition, since 1980 there has been a 475 percent increase in 
Pell grants, after adjusting for inflation; and a 439 percent 
increase in the cost of college. You may say, well, one year 
when Pell grants didn't go up, tuition still did. But how in 
the world can you deny a relationship between Pell grants 
increasing this much and federally subsidized student loans and 
the cost of education. I think that that is putting your head 
in the sand, really. Four hundred seventy-five percent, 439 
percent over the same time period. There is a relationship.
    Secretary Duncan. So, again, just looking at the past 30 
years, for 19 of those years there was an increase in the Pell 
grant, 11 of those years there was no increase, and 1 year they 
went down, and every single year tuition went up. So two-
thirds, one-third, but whatever happened on Pell, tuition still 
went up.
    Mr. Flake. I think there is a knowledge that Congress will 
come in and increase it. Which is the dog and which is the tail 
and who is laying chase I think varies from year to year, but 
there is a relationship here as we go along.
    Secretary Duncan. So, again, that is why we can put out 
some incentives to change that behavior. That is what we are 
desperately trying to do with this year's budget.

                     D.C. OPPORTUNITY SCHOLARSHIPS

    Mr. Flake. One more question. With the D.C. Opportunity 
Scholarships, did ending the program, as the President did, 
after current enrollees go through, is that saving the taxpayer 
any money?
    Secretary Duncan. What we are trying to do, obviously, is 
maintain those children who were in the program so that they 
can complete.
    Mr. Flake. But----
    Secretary Duncan. I am sure there are some savings there. 
But I think the goal for us is to invest in the D.C. public 
schools so that every child will have a chance to get a great 
education, not just a tiny handful of children.
    Mr. Flake. I could see if you say these students are more 
costly. That is not the case. These vouchers aren't for any 
more than they were spending in their current schools. And so 
it would seem, just like the question that Mr. Simpson raised, 
there is something that just doesn't look right. It looks like 
a bow to the unions and basically telling those parents, we 
don't value your judgment. And I just--I don't know how else 
you can explain that.
    Secretary Duncan. Again, we wanted to maintain those 
children who were in those schools. At the end of the day, I am 
not interested in saving, you know, 3 children and letting 500 
drown. I want to make sure every child has a chance to get a 
good education. D.C. public schools are getting significantly 
better. They are going to serve the vast majority of young 
people in the city, and we want to support those efforts.
    And, again, if private philanthropy, if folks, if 
individuals want to donate, we think that is appropriate. We 
think for the Federal role to do that doesn't make sense.
    Mr. Flake. You have been good on competition and 
accountability and whatever else, but this seems to be just a 
complete opposite there.
    To the extent that D.C. schools are getting better, do you 
not see a relationship between choice and accountability there?
    Secretary Duncan. I think there is a huge choice, and that 
is probably why they are getting better, but it is within the 
public school system. So you have a thriving charter sector 
here, a huge number of students going to charter schools.
    Again, I want to just make sure that every single child has 
access. And if the private sector wants to help a couple 
individuals, more power to them. I think we have to be more 
ambitious than that here at the Federal level.
    Mr. Flake. Thanks.
    Mr. Rehberg. I want to thank the committee for being as 
quick as they can. We will do the best we can to begin a second 
round. I understand we are going to vote at 11:15. We will turn 
the TV on, and I will cut the meeting off at 10 minutes left on 
the vote. So adjust your time accordingly.
    And I am going to then pass on my first question and move 
to Ranking Member DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.

                   REPRESENTATIVE RYAN'S BUDGET PLAN

    And I just wanted to reiterate that I think last evening, I 
don't know what time it was, but the Ryan budget was passed in 
the Budget Committee, and so, therefore, it brings it into the 
realm of debate and discussion. If it passed there, it will be 
brought to the floor, and we will see what happens with that 
effort. And if people disagree with it, then they will have a 
chance to vote for it or against it. But the fact of the 
discussion about it and what its implications and what its 
effect are are absolutely relevant to what we are talking 
about. And if you have $115 billion in a potential cut in 
education over the next 10 years, we ought to be thinking about 
what that means to the education of our children.

                           TEACHER EVALUATION

    I want to talk about teacher evaluation, Mr. Secretary. We 
are in agreement; we need to attract and retain the strongest 
teachers, visionary school leaders, et cetera. You have made 
this clear in your budget proposal with the RESPECT Program. 
This means not only making pay but conditions in the schools 
attractive, raising teacher morale.
    We want to make sure that we are looking at how we 
identify, remediate, and, if necessary, remove teachers who are 
persistently ineffective. I want to comment to you because--and 
this is my view. I think what happened in New York was very, 
very unfortunate, the release of individual teacher value-added 
scores. I think it has undermined the objectives that you so 
firmly want to take a look at. And I think you may have a 
difference of opinion on this effort.
    We have seen respected experts warn against the use of such 
data for high-stakes decisions, and that is about pay, 
consequences that result there. And that is not, you know, 
people randomly. You are looking at RAND, Educational Testing 
Service at Princeton, National Research Council, National 
Academies of Science. Experts have warned that when you put 
this kind of enormous pressure on educators, that you abandon 
other aspects of the curriculum--science, history, arts, 
citizenship, et cetera.
    I will also say that someone like Bill Gates, for instance, 
being one of the biggest proponents of evaluation, he said that 
using such a system--he would never consider using such a 
system in Microsoft or any other smart business context. And 
that is that this public shaming of teachers is 
counterproductive, especially--and I come from a household that 
deals with margin of error. And you are looking at a margin of 
error, you know, that is from, what, 35 to 53. That is a very 
big margin of error in looking at the stability of this data.
    So I will cut to the chase on this. I just think that--what 
do you say--if we are trying to turn schools around, we are 
trying to create--and I will tell you, I can read you from the 
Hartford Courant today about the morale of the teaching 
profession in my State of Connecticut. What do you say to 
teachers, you know, who have been in The New York Times, other 
media outlets? Botched scores have been made public, their hard 
work has been discredited. They have to face parents who now 
think less of them. What do you say to principals, you know, in 
this effort? How do we develop and retain the great teachers 
that we want to have?
    I just will--one final thing is MetLife, their survey data. 
Teacher morale is at a record low, teachers reporting their 
intent to leave their job at a higher rate than anytime in the 
past 2 decades. How are we going to turn that around and make 
support and the development of quality teachers a higher 
priority than the public shaming of teachers?
    You know, look, what about doctors and value added? Members 
of Congress and value added? Anyway.
    Secretary Duncan. That might be a good idea.
    Ms. DeLauro. Hey, maybe. Or agency people and value added? 
There we go. I mean, because when people are trying to do the 
best job they can----
    Secretary Duncan. I think we are actually very, very much 
on the same page, and I share many of your concerns. And that 
teacher morale is at an all-time low is a big, big deal.

               INVESTMENT IN EDUCATION AND TEACHER MORALE

    The biggest reason it is so low is the underinvestment in 
education. They see their friends being laid off. They worry 
about losing their jobs. We have lost a couple hundred thousand 
teaching jobs. We were lucky enough through the Recovery Act to 
save a couple hundred thousand. But that is the biggest driver 
of that.

                MULTIPLE MEASURES FOR TEACHER EVALUATION

    What teachers want--I have never met a teacher who is 
scared of accountability; they just want it to be fair. It has 
to be multiple measures, performance evaluation has to involve 
multiple measures.
    Ms. DeLauro. Right.
    Secretary Duncan. So you look at what is important: peer 
observation, principal observation. You know what is actually 
very important is student surveys, asking students. Looking at 
growth and gain--you have to look at multiple things, and it 
has to be fair.
    Mr. Rehberg. Mr. Lewis.
    Ms. DeLauro. Mr. Lewis, can I beg you for 30 seconds?
    Mr. Lewis. Of course.
    Mr. Dicks. I will yield my time to her, if that would be 
acceptable.
    Ms. DeLauro. Thank you very much. I appreciate that. I 
really do.
    You were going to finish a comment, but I want to make a 
final comment.

         RESPECT PROGRAM--TRANSFORMING THE TEACHING PROFESSION

    Secretary Duncan. This is why this RESPECT Project--
Recognizing Educational Success, Professional Excellence, and 
Collaborative Teaching--is so desperately important. Our 
ability to attract and retain great talent, to elevate the 
teaching profession over the next 4 to 6 years, shapes public 
education for the next 30. So this is a teacher-led initiative. 
We have our teacher ambassador fellows holding conversations 
with teachers around the country. We have held over a hundred 
roundtables. We have to give teacher voice to this policy 
debate. That is what we are trying to do.
    Ms. DeLauro. What I am just saying to you is there have 
been two examples, in Los Angeles and in New York. And this 
value-added mantra is existing everywhere. And, in fact, having 
a public display of this, I would hope--because you have said 
in newspaper articles that you are supportive of this effort--I 
would hope you would reconsider your support for this kind of 
shaming and humiliating teachers.
    Secretary Duncan. Let me be very, very clear because, 
actually, I think I am very much in agreement with you. I 
encouraged it in L.A. because teachers were denied access. They 
never had this data. And it took this sort of crazy--because 
the district and union were--whatever was going on. The only 
way--teachers desperately wanted it--the only way they got it 
was the L.A. Times printed it out. It should never happen that 
way. It was totally crazy. But teachers want this to improve.
    Mr. Lewis. Reclaiming my time, please.
    Mr. Rehberg. Mr. Lewis.
    Mr. Lewis. Thank you.
    Ms. DeLauro. Thank you, Mr. Lewis.
    Mr. Lewis. You are welcome, certainly.

               MAINTENANCE OF EFFORT IN EDUCATION FUNDING

    Mr. Secretary, education is a priority in all the States. 
Our Constitution says that the number-one dollar will go for 
education. Over the years, we have been frustrated by the fact 
that the State legislature and others, in their partnership 
with local government, have decided on other priorities.
    Now, within your budget and specific language direction, 
are you going to reduce funding or take back funding that has 
been increased during this President's administration to those 
districts or those States where there has been a percentage 
reduction in the portion going to education? Do you have 
specific disincentives, as it were, for that kind of pattern?
    Secretary Duncan. So what we have tried to do is make sure 
that education wasn't cut disproportionately. And we understand 
States have to make tough calls, but where States are cutting 
education----
    Mr. Lewis. Well, do you have language that says, you are 
going to be cut back if you have been doing this?
    Secretary Duncan. It depends, again, on the program. But, 
going forward, part of what we want to do in Race to the Top 
for higher education is to put in place the incentives to 
encourage the right behavior.
    Tom, do you want to add something?
    Mr. Skelly. I would just point out we have at least two 
laws where there is a maintenance of effort requirement, and we 
have enforced it, and there have been consequences where States 
haven't gotten Federal funding recently--IDEA and College 
Access Challenge Grants.
    Mr. Lewis. It is important to know that all of us believe 
in the fundamental drive of education. We are not convinced 
that the Federal Government knows what the fundamental 
direction ought to be. And sometimes the results you get for 
the money you spent cause you to scratch your head even more.

                        SUPPORTING LOCAL REFORM

    Secretary Duncan. So I actually agree with you. To be 
really clear, what we are trying to do is put in place 
incentives to get the best ideas at the local level. I say all 
the time that myself and no one else in Washington, we don't 
have the best ideas in education; they come at the local level. 
We want to put a lot more resources behind those great teachers 
and principals who are doing the right thing.
    Mr. Lewis. Okay. Thank you.
    Mr. Rehberg. Mr. Dicks for the final question.

                           COMMUNITY COLLEGES

    Mr. Dicks. You mentioned community colleges. I happen to 
believe in Washington State one of our great strengths is our 
community colleges. Tell me, what is your take on that?
    Secretary Duncan. Again, I have just fallen in love with 
community colleges. It is not a coincidence that my Under 
Secretary, Martha Kanter, is a former community college 
president. That has never happened before in the history of our 
department. We are trying to put a huge spotlight on this.
    Along with the Department of Labor, we have invested $2 
billion in real public-private partnerships where that training 
is leading to real jobs in the community. That is going to vary 
from Washington to Florida to wherever it might be. But where 
you have these real strong partnerships and community colleges 
aren't an island, you are seeing this amazing transformation in 
those local economies, and community colleges are driving this 
thing.
    We just see tremendous capacity needs--again, literally 
offering classes 24/7. I have been to places with waiting lists 
of thousands of students. We want to continue to invest, and 
that is the request. We want to continue to partner with the 
Department of Labor to do that. But as our Nation gets back on 
its feet, community colleges will play a huge role in helping 
the Nation do that.

                   COMMUNITY COLLEGES AND PELL GRANTS

    Mr. Dicks. And they are very dependent on Pell grants, 
right? I mean, they are absolutely critical.
    Secretary Duncan. Hugely critical. And with a Pell grant, 
at most community colleges you can basically go for free. I 
mean, you can basically remove that huge financial barrier.
    I will tell you something else fascinating which I hadn't 
realized. I have been to a number of community colleges 
recently where folks who have 4-year degrees are going back to 
community college to get the real training they need to get a 
job. It is really, really interesting.
    Ms. DeLauro. Would the gentleman yield?
    Mr. Dicks. I yield.
    Ms. DeLauro. I would just say, I think that this is so 
critical. We had a hearing yesterday on employment and veterans 
training, and we listened to the One-Stops and what was going 
on. And the effort of trying to take veterans or even the long-
term unemployed, couple them with community colleges and with 
industry, and industry making a commitment to offer jobs, and 
they help to design the curriculum, working with the community 
college. This is a model for the future, and Pell is critical 
to that effort.

              IN-SERVICE TEACHER PROFESSIONAL DEVELOPMENT

    Mr. Dicks. Let me ask you one quick question. What are we 
doing to help teacher education/training once they are a 
teacher? I know we have had these programs in the past where 
they could get extra education. Have they gone away or are we 
still doing them?
    Secretary Duncan. No, I think with schools of education, 
like anything else, you have a mix. You have some very high 
performers, but you have many, unfortunately, that I don't 
think are doing a good enough job, and you have too many great 
young teachers who feel ill-prepared to enter the classroom. 
And so we are trying to, sort of, shine a spotlight on the 
successful ones. But, frankly----
    Mr. Dicks. But what about once they are a teacher? What can 
we do?
    Secretary Duncan. Once they are a teacher? So we need to--
you look at high-performing countries, Singapore, Finland, 
other countries, they pay a heck of a lot more money, they have 
much better mentoring, they have much better career ladders. 
This is not rocket science; this is transformational change. 
That is what this RESPECT Project is about. We lose far too 
many of our good young teachers who wash out because we don't 
support them, and that is a big challenge for our country.
    Mr. Dicks. Thank you, Mr. Chairman. I yield you my 
remaining time.
    Mr. Rehberg. Appreciate that, Mr. Dicks.
    And, as always, the record will remain open for the 14-day 
period for Members to add additional questions. We hope that 
you will answer them in a timely fashion.
    [The following questions were submitted to be answered for 
the record:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rehberg. We thank you for being here. Sorry that it 
didn't last until noon. I know you are sorry, as well. But we 
will see you another day. And, Secretary Duncan, thank you.
    Secretary Duncan. Thank you for your leadership.
    Mr. Rehberg. You betcha.
                                           Tuesday, March 27, 2012.

             DEPARTMENT OF EDUCATION--K-12 EDUCATION BUDGET

                               WITNESSES

RON SEAVER, SUPERINTENDENT OF CENTRAL UNION SCHOOL DISTRICT, LEMOORE, 
    CALIFORNIA
GWILE FREEMAN, SUPERINTENDENT OF CATAHOULA PARISH SCHOOL DISTRICT, 
    HARRISONBURG, LOUISIANA
TIMOTHY MITCHELL, E.D., SUPERINTENDENT OF SCHOOLS FOR THE RAPID CITY 
    AREA SCHOOLS, RAPID CITY, SOUTH DAKOTA
JOSHUA P. STARR, SUPERINTENDENT, MONTGOMERY COUNTY PUBLIC SCHOOLS, 
    MARYLAND
    Mr. Rehberg. Good morning, all. Good morning.
    Thank the panel of witnesses for being here today. I look 
forward to learning from your valuable input regarding Federal 
K through 12 education programs funded through this 
subcommittee.
    As we look at today's economic challenges in the global 
context, education is becoming more important to sustain our 
competitive national edge and maintain our quality of life. 
Education, they say, is the great equalizer.
    Globalization and technical advancement has required us to 
educate our young people more effectively and more efficiently. 
In order to prepare our kids for success as adults, a strong 
secondary and elementary education is essential.
    For my family, education is a family tradition. My mom was 
a teacher. My sister is a principal. My daughter just started 
her first year teaching, and both my grandmothers taught in 
Montana. I am proud of them all because teachers really do make 
a big difference in our future.
    As appropriators, we have got to find a way to spend less 
so Federal deficits don't rob the next generation of their 
future. We have got to learn to say no, and it means setting 
priorities. Education is one of our highest priorities on this 
subcommittee, as I know it is yours.
    As I said to Secretary Duncan last week, I am proud to say 
that last year, even under very difficult times, we were able 
to increase IDEA grants to States by $100,000,000. It is not as 
much as the $1,200,000,000 I wrote into the bill that was not 
accepted by the Senate, but I know that every penny makes a 
difference to struggling local school districts.
    We also managed to increase Title I grants to States by 
$60,000,000. Although the overall funding level at the 
Department of Education actually represented a cut from the 
prior year, we made the tough decisions to prioritize these 
core large-formula programs that benefit almost every district 
in the country.
    The Federal Government should not try to micromanage 
education. What works in downtown New York City isn't going to 
cut it in Two Dot, Montana. It is the job of the Federal 
Government to support local school districts so that they can 
deliver the best education to the children of their community.
    I look forward to hearing your thoughts about how best this 
subcommittee can appropriate dollars so that students across 
America can grow and succeed.
    At this time, I will turn it over to my ranking member, Ms. 
DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And I might add I don't have the same pedigree in terms of 
family in teaching, but I have the personal experience of being 
a substitute schoolteacher. Now let me just tell you, you want 
to talk about the firing line, being a substitute teacher is 
it--in the public school system in New Haven, Connecticut.
    Anyway, thank you, Mr. Chairman. And I want to say a thank 
you to our superintendents who are here today. I appreciate 
your time in joining us, but most of all for the work that you 
do and what your efforts are in terms of improving education in 
your communities, and I do look forward to hearing your 
thoughts and your insights on the 2013 budget.
    Yours is not an easy job. And I know the budget situation 
in recent years has made it particularly difficult. According 
to the Center for Budget and Policy Priorities, 37 States 
across the Nation provided less funding per student to local 
school districts in the 2011-2012 school year than they did the 
year before. Thirty States are providing less than they did 
2008, sometimes significantly less.
    So I want you to know I very much appreciate your hard work 
and your commitment in what are difficult economic times. These 
huge State and local cuts, sometimes as much as 20 percent in 
States like California, South Carolina, make our continued 
Federal support to K-12 education more vital than ever.
    With that in mind, I am pleased as well that in a time of 
severe budget constraints, Chairman Rehberg and I were able to 
secure modest increases for some of our key formula funding K 
through 12 programs, Title I and IDEA, in the 2012 budget.
    That being said, the 2013 budget poses new challenges for 
States. For one, the President's budget continues to shift 
resources away from formula funding programs and toward a 
competitive grant model. In their budget proposal, formula 
funds fall by $1,200,000,000, while competitive grants go up by 
$2,800,000,000. I voiced my concerns on this issue with the 
Secretary of Education when he was before us last week.
    I am even more concerned by what I am seeing in the 
majority's recently released budget proposal put forward by the 
Budget Committee. Like H.R. 1, the majority's original budget 
proposal for 2012, this plan cuts deeply into Federal support 
for education.
    Under the new Ryan plan, Title I would face a 5.4 percent 
cut next year and an 18.9 percent cut in 2014. That would mean 
that over 12,000 schools serving close to 5 million 
disadvantaged students would be denied funding; 49,000 teachers 
and aides could lose their jobs over the next 2 years.
    IDEA is similarly impacted. If those cuts are enacted, 
close to 35,000 special education teachers and aides serving 
children with disabilities could lose their jobs over the same 
time period.
    The majority's proposed cuts notwithstanding, we must still 
also contend with the impact of upcoming budget sequestration 
called for by the Budget Control Act. Because the deficit super 
committee failed to come to an agreement last year, 
$1,200,000,000,000 in automatic cuts go into effect in January 
of 2013, meaning an 8 percent cut across the board to domestic 
and military Federal spending.
    Depending on the estimate, this sequestration would cut the 
Department of Education's next year budget by between 
$3,500,000,000 and $4,100,000,000. That means as many as 7.5 
million students would be impacted by reduced aid and services, 
and up to 51,000 teachers, aides, and staff could lose their 
jobs. This goes up by 89,000 jobs lost if you count Head Start.
    My State, Connecticut, for example, would lose close to 
$24,900,000 in funding, hurting over 61,000 students, costing 
600 jobs. California would see $318,600,000 cut, impacting over 
1 million students and costing over 7,400 jobs.
    I am sure that I do not need to tell you the profound 
impact these cuts would have on our school systems, especially 
in the current environment where every penny is already 
stretched so thin. As superintendents on the front lines, you 
know exactly what they mean.
    They mean overcrowded classrooms, overworked teachers. They 
mean further cuts to after school programs, arts, sports, and 
even key subjects like history. And they may even mean more 
drastic changes. Many school districts have switched to a 4-day 
week to save money, and of course, more layoffs mean more 
unemployment and more economic misery.
    So I hope today you can give us a sense of the unique 
challenges that your districts and States are facing and how 
the Federal dollars are being best leveraged to help your 
students. In the end, education is local.
    So I am excited to have administrators here today from all 
corners of our country. I thank you for coming. I thank you for 
your hard work and your service, the service you provide to our 
communities and nations.
    You are often unsung heroes. So I commend you for your 
willingness to tackle one of our greatest challenges, and that 
is ensuring that all of our children are given the best 
opportunities to succeed.
    I look forward to benefitting from your expertise today, 
and I thank you.
    Mr. Rehberg. I am pleased today to welcome our panel of 
witnesses. All of them are school superintendents from 
different areas of the country with different stories and 
different sorts of challenges.
    We first will hear from Ron Seaver, superintendent of 
Central Union School District in Lemoore, California. Central 
Union Schools serve both a naval air station and an Indian 
tribe.
    Next we will hear from Gwile Freeman, is the superintendent 
of schools for Catahoula Parish, Louisiana, a small, rural 
district in East Central Louisiana.
    And I will yield to my colleague Mr. Alexander to introduce 
her.
    Mr. Alexander. It is rural, but it is not small. It is 
almost as big as Montana.
    Mr. Rehberg. Rural, not ``rule.'' [Laughter.]
    Mr. Alexander. Okay. Thank you.
    Mr. Rehberg. What do you teach these kids down there? 
Rural.
    Mr. Alexander. Thank you, Mr. Chairman.
    Dr. Gwile Freeman is the superintendent of schools and the 
largest employer in Catahoula Parish, a student body 
encompassing 57 percent Caucasian, 41 percent African American, 
1 percent Hispanic, and 0.3 percent Asian. Seventy-six percent 
of the study body population receives free or reduced lunch.
    Her 24\1/2\ year career has including teaching in grades 1 
through 8, adjunct instructor at three universities, librarian, 
Title I school improvement coordinator for the Louisiana 
Department of Education, secondary instructional supervisor, 
assistant superintendent, and superintendent.
    Her certifications include elementary grades, supervisor of 
child welfare and attendance, supervisor of student teaching, 
parish or city supervisor of instruction, principal, and school 
superintendent.
    Her preparations include a B.A. degree in elementary and 
secondary education, a master's degree in educational 
leadership from the University of Louisiana at Monroe, and a 
doctor of philosophy from the University of Mississippi.
    Dr. Freeman is married to David Freeman, and they reside in 
Harrisonburg, Louisiana.
    Mr. Rehberg. Thank you, Mr. Alexander.
    Mr. Alexander. You are welcome.
    Mr. Rehberg. The next panelist is Dr. Tim Mitchell, 
superintendent of Rapid City Area Schools in Rapid City, South 
Dakota, the second-largest school district in the State of 
South Dakota.
    And finally, Dr. Joshua Starr. Sorry about that. 
Superintendent of Montgomery County Public Schools right here 
near the Nation's capital in Montgomery County, Maryland.
    We look forward to hearing your testimony and your 
recommendations on how you feel that we at the Federal level 
can do a better job supporting your work on the ground.
    And I will always suggest, and I will at the end of the 
hearing, that our records will remain open for 14 days for 
Members to have an opportunity to provide written questions to 
you if we have additional questions or run out of time. Hope 
that you will answer those in a timely fashion.
    And so, Mr. Seaver, you may begin.
    Mr. Seaver. Thank you.
    Good morning, Chairman Rehberg, Ranking Member DeLauro, and 
members of the subcommittee. I am Ron Seaver, superintendent of 
Central Union Elementary School District in Lemoore, 
California.
    I am here to share with the subcommittee the importance of 
Impact Aid to our school district and showcase the direct 
impact that these dollars have on our successful total school 
program.
    I would also like to share that my daughter is a sixth 
grade teacher at Great Falls, Montana, which serves Malmstrom 
Air Force Base.
    Central Union School District serves Naval Air Station 
Lemoore and the Tachi Yokut Tribe. Our district is situated in 
the heart of the San Joaquin Valley in rural Kings County, one 
of the Nation's richest agricultural areas.
    The district is comprised of four schools--one located in 
Stratford, a farming community; one serving the Tachi Yokut 
Rancheria; and two schools serving the Naval Air Station 
Lemoore. We are also members of the NAFIS, the MISA, and NIISA 
associations.
    Impact Aid is huge to our district. It is 30 percent of a 
$20,000,000 budget. Our enrollment is 59.82 percent military 
dependents, 12.5 percent Native American children, and because 
of these demographics, we are considered a 100 percent learning 
threshold district.
    Let me take a minute and share six areas that have really 
highlighted our district and the Impact Aid community. In 
technology, for instance, visualize a spring program at night 
with all the kids out there performing, and all of a sudden on 
the big screen comes the captain of the combat naval air force 
base, live from the ship, addressing the whole community.
    Visualize that the child didn't know that was going to 
happen, nor the mother, and the emotions that were there. It 
was incredible. This is all a result of our wireless broadband 
facility with multiple drops in the classrooms, 6 computer 
labs, 4 mobile iPad labs, 26 iPod touch labs, with a ratio of 
1.7 ratio of students per devices.
    The classroom teachers all have laptops that they take 
home, and students are able to videoconference with their 
parents at work, at home, or when the parent is on deployment.
    In fine arts, all of our schools have a fine arts program, 
which have music, art, dance, band, and drama. Each of the 
schools has a great program with high student participation and 
community support.
    We have a jazz band that meets, a Pre-1st. Thirty kids show 
up every day with the teacher. He gets no extra pay, by the 
way, and has an incredible program that performs all over the 
community.
    In staffing, our personnel costs are 80.77 percent of our 
district's budget. We have custodial staff, obviously, 
psychologists, opportunity class teachers, two registered 
nurses.
    And with our Tachi Yokut Rancheria, our staff uses 
constructivism teaching approach to what is called a guided 
discovery. Teachers lead students to questions and activities 
to discover, discuss, appreciate, and verbalize the new 
knowledge or the learning objective.
    In our social development and community outreach area, 
Stratford School is home to one of our Family Resource Centers. 
Due to the isolation of the farming community, it is really the 
only point of contact for many families.
    Through the FRC, we do food drives. We do a variety of 
areas that connect with the State, local, and Federal 
Government. And the district also offers two social development 
programs and a 24-hour bully and safety hotline.
    In special education, the district offers special day 
class, resource specialist class, and speech and language. The 
other programs are all through our SELPA, our local area plan, 
and students are taking a bus to their classes.
    Currently, we now are $420,000 that encroached on the 
district budget for special education, and we have received 
$95,000 from the Impact Aid disability line item.
    In building and grounds, all four of our schools are of 
older nature. Two were built in the '50s and two in the '60s. 
And so, as you can imagine, they all have areas of installation 
and structure challenges. But through the Impact Aid 
construction funds, we have had minor repairs and maintenance.
    We also are now operating three solar plants on three of 
the different schools. Two of them are operational, and one 
will be operational in a couple of months.
    Now, Mr. Chairman, let me touch on a couple of concerns for 
you. California's education budget is in a downward spiral. We 
have lost 20.4 percent in funding, with 38 percent of the 
remaining funding deferred until the following school years.
    Additional midyear cuts are looming this year. And in 
addition, for the first time in 14 years, Impact Aid funds will 
be prorated down 90 and 85 percent, respectively, for a total 
loss to the district of $1,780,000. We also possibly face 
another 9 percent under sequestration.
    As you know, Mr. Chairman, the administration's fiscal year 
2013 budget proposes to eliminate dollars for Section 8002. 
When a school district loses taxable land to Federal 
acquisition, it loses part of its tax base.
    Section 8002 is intended partially to make up the lost tax 
revenue, and the elimination of this line item would force 
districts to use local taxpayers or result in cutting programs. 
On behalf of the 235 Federal properties districts, please 
maintain the 8002 funding.
    Numerous times service members and commanding officers have 
indicated that we are providing a great opportunity to their 
children, and they have selected NAS Lemoore as their site 
because of the schools. We also appreciate the fact that you 
have been a true supporter of Impact Aid, and the Impact Aid 
community appreciates this, and we stand ready to help you in 
any way.
    Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rehberg. Thank you. Dr. Freeman, I am letting you slop 
over a little bit, but I am pretty tight with time as well. So 
if you can watch the lights, it will be helpful to keep it 
rolling and allow us opportunity to ask a number of rounds of 
questions.
    Ms. Freeman. Good morning, Chairman Rehberg, Ranking Member 
DeLauro, and members of the committee.
    My name is Gwile Freeman, and I proudly serve as the 
superintendent of schools in Catahoula Parish School District 
in Louisiana.
    Our small, rural school district is located in East Central 
Louisiana, and as indicated, we are the largest employer in our 
school district. We are a school district of 1,563 students 
with 76 percent of those students receiving free or reduced 
lunch.
    I speak to you today from 24 1/2 years of experience as an 
educator and 15 years as a public school administrator. So 
thank you for the opportunity to testify this morning.
    Let me begin by sharing the voice of a student in my 
district, which exemplifies what she and many of her peers face 
each day.
    ``This is the story of me. I have been raised in a place 
where my grandma barely puts food on our table, and most of my 
clothes used to belong to somebody else. I walk to school every 
day, and I pass folks sitting on the porch and standing on the 
corner, waiting for something. I don't want to be like them, 
just waiting for life to show up.
    ``My grandma tells me to find a way out, but my teachers 
tell me to find a way up. The problem is I don't know how. I 
don't want pity. I don't want charity. I just want to know 
where to begin so that I can have a happy ending to my story.''
    Persistent poverty is an ongoing challenge faced by the 
students in Catahoula Parish School District, and although they 
were born in the land of plenty, they live in small towns in a 
rural area in the Delta and in the South, where disadvantages 
can overtake dreams and obstacles can hinder success unless we, 
as educators, help to intervene with those students to find a 
way up.
    Our school district is very dependent upon formula, Federal 
formula-based funds, with our Federal funding expenditures 
encompassing 17 percent of our total expenditures, and 
federally funded employees making up 8 percent of our total 
workforce.
    Throughout the course of my career, I have seen firsthand 
the wonderful benefits of the millions of dollars in Federal 
funding grants, such as Title I, Title II, REAP, and IDEA. 
These funds have supported and assisted our teachers in 
providing instruction and services that will ensure student 
success.
    Title I funds offer supplemental services to disadvantaged 
students, who would otherwise be underserved. Specifically, in 
Catahoula Parish, we utilize Title I funds to offer summer 
remediation for students seeking to pass high-stakes State-wide 
assessments.
    Additionally, we provide tutoring, grade recovery, and 
credit recovery programs. Without these Title I funds, we would 
be unable to offer these opportunities to our students.
    Having flexibility with the use of Federal funds is very 
important to those of us running small, rural school districts. 
As superintendent, I am keenly aware of the importance of 
braiding or cobbling together available funds to offer maximum 
benefit. Because Title I funding is so flexible, I am able to 
use these resources to fill the gaps in my budget as long as I 
do not supplant funding.
    Funds provided through the Rural Education Achievement 
Program, or REAP, are also critical and flexible. These funds 
have allowed us to support the infusion of instructional 
technology into our school districts' classrooms, culminating 
with high-quality professional development for our teachers in 
the use of this technology, which ultimately translates into 
better instruction for our students.
    Recently, I had the honor of serving on Louisiana's State 
literacy team to develop the Louisiana Comprehensive Literacy 
Plan, which aims at ensuring that Louisiana students meet the 
literacy expectations outlined in Louisiana's critical goals 
and also the Common Core State Standards.
    The Catahoula Parish School District recently applied for a 
competitive literacy subgrant through the Striving Readers 
Comprehensive Literacy Program. If we are awarded one of these 
grants, Catahoula students identifying as being the most in 
need of additional assistance and interventions will receive 
quality literacy instruction.
    In conclusion, while these funds are desperately needed in 
Catahoula Parish School District, they must also be flexible. I 
recognize that there is no single solution to transform public 
education and that money cannot solve all of our problems.
    At the same time, I also recognize that we must be held 
accountable with the Federal dollars entrusted to our care. As 
the Congress continues its work to support school districts 
such as Catahoula Parish, I encourage you to continue to 
provide funding that is flexible, such as funds provided by 
Title I and the Striving Readers Comprehensive Literacy 
Program.
    I also encourage you to target resources to the rural and 
small areas, small districts. Formula funding provides rural 
and small districts the opportunity to utilize resources in a 
way that many times competitive grants often do not simply 
because we lack the capacity to write competitive grant 
applications.
    That said, in order for formula funding to have an impact, 
enough funding must be provided for a formula grant program in 
order for school districts to receive a formula grant of 
sufficient size.
    The Catahoula Parish School District, although small in 
population, is large in the commitment to close the achievement 
gap for our students and ensure that all of our students leave 
as college and career ready.
    I am humbled at the opportunity to provide testimony to the 
distinguished members of this committee, and I will consider it 
a privilege to respond to your questions or comments.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rehberg. Thank you.
    Dr. Mitchell.
    Mr. Mitchell. Good morning, Chairman Rehberg, Ranking 
Member DeLauro, and members of the committee.
    My name is Dr. Timothy Mitchell. I am the superintendent of 
the Rapid City Area Schools in Rapid City, South Dakota.
    Rapid City Area Schools is located in the Black Hills, 
second-largest school district in South Dakota. Most known, the 
Black Hills, two national landmarks--Mount Rushmore and Crazy 
Horse Memorial.
    One of our schools, our middle schools, is an historical 
landmark, Calvin Coolidge's summer white house. He walked 
outside on the steps and announced that he would not seek 
reelection for President. So we are steeped in history in our 
school district with the Federal Government.
    Twenty-three schools comprise our school district. You can 
see the demographic information concerning our district in my 
written testimony. Today, I come before you to share some 
thoughts on a number of different issues.
    First of all, I, along with numerous school administrators 
throughout the Nation, have advocated with Congress to meet the 
longstanding commitment to fund additional costs that are 
associated with special education. Covering a Federal shortfall 
year in and year out with local dollars represents a 
significant funding pressure for public school districts across 
the Nation.
    To show the impact, you can see in my testimony I have 
attached two documents, showing that over the last 7 years the 
amount of State and local revenue utilized to meet expenditures 
has continued to increase, and the Federal portion, excluding 
the ARRA money, has remained consistent at approximately 21 
percent for year in our district.
    The State of South Dakota has recently held our State 
funding for special ed at status quo with no increase. This was 
brought forward with an 8.6 reduction in per-student allocation 
for our general operating budget.
    So we are finding that we are no longer able to retain 
quality programming to meet the individual needs of students 
with disabilities. As State and local economies struggle to 
regain fiscal stability and the ARRA emergency funding ends, 
Congress and the administration, we hope, need to recognize 
that there is a funding cliff.
    Full funding of IDEA would provide services for students 
with special education needs and allow local school districts 
to use local dollars to meet local districting budgeting needs.
    You have also seen with those charged that recently you see 
a reduction in the amount of State and local revenue, which is 
a concern as to maintenance of effort when it comes to IDEA 
statute.
    I would hate to come to Washington, D.C., and not make sure 
and remind you of the huge positive impact that Federal funding 
has on school districts across this Nation, and especially 
school districts in our rural area. Much of the success in 
Rapid City Area Schools in meeting the ever-growing needs of 
all of our students has been funded through a mixture of local, 
State, and Federal sources.
    To engineer a successful public school district, those 
school districts need to create a structure of supporting 
operating conditions. The Federal Government has to be flexible 
to allow our rural school leaders to make decisions regarding 
staff, schedule, budgets, and programs.
    External efforts to improve schools invariably focus on 
structural changes, but we know current research shows that 
structural changes do not bring about the meaningful change to 
student achievement. To identify what has helped Rapid City, it 
has been a relentless focus on instruction and professional 
development, the cultivation of teacher and principal support, 
the use of research-based instructional practices and 
strategies, and the conscious encouragement of collegiality and 
collaboration among our staff. This has created the cultural 
change that encourage professionals to take risks and to take 
responsibilities for themselves and for their students and for 
each other.
    That is the major theme of our story, capacity building. 
And capacity building, which is the essential component for our 
success, is resource-intensive, and adequate funding is 
critical. And that is where, in my district, the Federal 
resources have been utilized most effectively.
    I have also long advocated for continued and increased 
investment in Title I and IDEA and other Federal formula-based 
grant programs. I would urge Congress to maintain formula 
grants that provide that reliable stream of funding to local 
public school districts.
    I am concerned by the administration's preference for 
driving new education dollars to competitive programs like Race 
to the Top and Investing in Innovation. Most rural school 
districts, like Rapid City, even though we are large in 
comparison, have limited capacity to compete in this 
environment. And shifting to more competitive grants for new 
Federal dollars, I believe, would be inherently unfair to rural 
school districts. It would be very difficult for us to compete 
with school districts that have the greater capacity and 
expertise in this area.
    And to this point, we have been unsuccessful in retaining 
any Race to the Top or Investing in Innovation resources in our 
local school district and State.
    Lastly, my concern is that sequestration will impact all 
funding programs without considering the scope of effectiveness 
of those being cut. Congress should pick up the work of the 
super committee and work to identify the necessary cuts in a 
manner that impacts both mandatory and discretionary programs 
and considers the program effectiveness.
    We at the local level are committed to being fiscally 
responsible, along with being committed to our mission to 
create effective and productive citizens of the 21st century. 
We understand that we need to be effective, efficient, 
innovative, and creative to meet the needs of the students we 
serve.
    We hope to continue to partner with the President and 
Congress to provide a structure to distribute the Federal 
resources that are provided to us in a way that continues to 
improve this public school system that we have in this country.
    Thank you for your time today, and I would also be happy to 
stand by for any questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rehberg. Thank you.
    Dr. Starr.
    Mr. Starr. Good morning, Chairman Rehberg, Ranking Member 
DeLauro, and members of the subcommittee. My name is Josh 
Starr, and I am privileged to serve as the superintendent for 
Montgomery County Public Schools.
    With 146,500 students, MCPS is the largest school district 
in Maryland and the 17th largest district in the Nation. And I 
want to thank you for this opportunity to address you today.
    If you would like a preview of what the American public 
schools will look like in 20 years, please come and visit our 
school district. The demographic shifts that our Nation is 
experiencing as a whole have already taken root in Montgomery 
County.
    In 1991, just two decades ago, MCPS was a very different 
district than it is today. We have gone from a majority white 
district to a majority minority district, and the percentage of 
students receiving free and reduced price meals in that time 
has nearly doubled to 32 percent.
    Yet amid all this change, MCPS has maintained and even 
increased its reputation as one of the highest-achieving 
districts in the Nation. How have we done that? The main reason 
is that we have the most outstanding staff in public education. 
But there is no doubt that money, invested in the right 
strategies and the right people, has yielded a big return.
    We appreciate the funds that the Federal Government 
provides to our district. This year, we have received 
$72,500,000 in Federal funding, and every dollar is helping our 
students.
    For instance, $20,400,000 in Title I funding allows us to 
provide targeted instruction to our students who are most 
impacted by poverty. IDEA funding of $29,300,000 is an 
important part of providing a continuum of services to the 12 
percent of students in our district who have a disability.
    With $3,400,000 in Head Start funding, we are able to offer 
more than 600 low-income students access to pre-kindergarten, 
including full-day classes.
    I applaud the committee's proposal last year to add 
$1,000,000,000 each to Title I and IDEA. Our district is living 
proof that such funds would be well spent, and I would be 
remiss if I did not ask you to fully fund IDEA to help us 
provide much-needed services for students with special needs.
    Like all school districts, we are very concerned about the 
real possibility of deep cuts due to sequestration. The depth 
of cuts to education, as much as $4,000,000,000, would be 
devastating and could result in the loss of jobs and reduce 
services to students in need. I urge Congress to protect 
education funding at all costs.
    As the Congress contemplates reauthorizing ESEA, I urge 
them to spend money on what works and what our schools need, 
and it is not more annual standardized tests. Federal funds can 
be the catalyst that sparks innovation, fosters collaboration, 
and improves teaching and learning for all.
    Over the past 3 years, the U.S. Department of Education has 
used the comparatively small amount of money it provides to 
schools to spark innovation and change. MCPS was one of 45 
recipients of an Investing in Innovation, or I3, grant in 2010. 
The grant is allowing us to quickly develop and implement our 
new curriculum in the elementary grades, which integrates all 
subject areas and helps students develop the critical academic 
and thinking skills that are so important in the 21st century.
    It includes Web-based professional learning environments, 
and it is an example of how a relatively small investment in 
people and innovation can have a huge impact. So I want to be 
clear that competitive dollars, while they can be effective, 
should not take the place of much-needed formula funding.
    In his excellent book ``The Global Achievement Gap,'' 
author Tony Wagner lists the skills that our students will need 
to be competitive in the 21st century global economy--critical 
thinking and problem solving, collaboration across networks and 
leading by influence, agility and adaptability, initiative and 
entrepreneurialism, effective oral and written communication, 
and accessing and analyzing information with curiosity and 
imagination.
    Developing these skills requires us to rethink the way we 
approach education. Our classrooms can't just be places where 
our kids learn facts and formulas. We must provide them with 
the complementary set of skills they need to be successful in 
the 21st century.
    So we have to have fewer walls in our schools and more 
spaces in technology to spur innovation and collaboration. We 
must foster in our students the drive to do good in society, to 
care for those who are less fortunate, and to strive for social 
justice.
    We also must use funds to foster collaboration among 
agencies and organizations. In Montgomery County, the school 
district works with our local Department of Health and Human 
Services, local nonprofits, and other community organizations 
to provide a continuum of support. I believe the Federal 
Government can play a role in incentivizing such collaboration 
that serves at-risk youth and families.
    And finally, we do not have a student learning problem in 
America today. We have an adult learning problem. When I hire a 
new teacher, I know that I will spend at least $10,000 training 
that first year, including orientation, onboarding, consulting 
teachers, mentors, and staff development.
    About half that money comes from various Federal grants. So 
I encourage you to maintain and even expand those dollars.
    Like many superintendents today, I am concerned about the 
tone of the education conversation. In the name of 
accountability, too many people are pointing fingers at our 
educators and telling them they are to blame for the woes of 
American public education.
    I am proud that in Montgomery County Public Schools, we 
have employee unions that are collaborative and innovative, and 
our unions are equal partners in our solution. We have a 
nationally recognized teacher professional growth system. A key 
component of that system partners new or underperforming 
teachers with master educators to work on classroom skills. And 
if they are not performing, we have a way of exiting them out.
    In conclusion, No Child Left Behind has narrowed our 
curricular focus, used shame as a motivator, and put too much 
emphasis on tests that, frankly, we now realize are not 
reliable indicators of student performance. It has created an 
environment where data, not students, are king.
    But now is our chance to make it right. Let us use ESEA and 
the money that is attached to spur innovation, give our 
students the 21st century skills they need, and create an 
environment where our educators are valued and continue to 
grow.
    Thank you for allowing me to testify today, and I am happy 
to answer any questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rehberg. Great. Thank you very much.
    Far be it from Congress to point fingers at teachers about 
inefficiency and ineffectiveness. You can be assured that we 
are smarter than that. But I know it does occur, it does exist.
    You know, one of the things that I attempted to do and 
provided the money available to increase the budgets in Title I 
and IDEA was that I had a problem with funding an unauthorized 
program, such as Race to the Top. I am not suggesting that it 
is not necessary or that for some reason we don't want to have 
money going into that kind of a program. It just seems like in 
a tough financial time like we are in today, the basics do 
matter.
    I came to the conclusion a while back that people support 
reform as long as it doesn't change anything. And so, that is 
what you get with healthcare reform. That is what you get with 
educational reform.
    And when Secretary Duncan was in here, he was defending 
Race to the Top and suggesting that the competitive grants are 
a way of spurring economic--not economic, but educational 
reform. I am not going to ask you to put words in his mouth or 
enter into his brain. Where do you think educational reform is 
right now, from your own perspective? Is there not educational 
reform occurring without the money being put into Race to the 
Top?
    Because if we were to take that money, and I zeroed it out 
in my budget, and use that money to redistribute to the areas 
that you were talking about, you wouldn't necessarily want to 
do that. When times were better, you may want to consider 
reauthorization of No Child Left Behind or Race to the Top. 
However, it seems like this would be kind of the time to go 
back to the basics.
    And so, you talked more about it than the other three. 
Could you maybe expand a little bit on your philosophy of 
educational reform life? Is it occurring out there? Is that 
program absolutely necessary or you are not going to see any 
kind of educational reform, or is it something that we ought to 
be paying attention to now and maybe with some money?
    Mr. Seaver. At Central Union School District, one of the 
key reforms is involving the teachers. And across the panel, I 
think you heard people indicate involve the teachers in the 
decision-making.
    With Impact Aid, it has also been a reform on our 
technology and how we integrate that into the curriculum, how 
we put the instruments in the hands of the students, on-task 
behavior increases. All of that is in reform that we would have 
never had before.
    Mr. Rehberg. And where do you find the money for that? 
Local? Or is it part of your formula?
    Mr. Seaver. No, all of our technology without the Impact 
Aid, the Federal Impact Aid, we would not have any of that.
    Mr. Rehberg. You have enough flexibility within the Impact 
Aid. You can use it for the technological breakthroughs?
    Mr. Seaver. Absolutely. Impact Aid goes into the general 
fund as part of our school district.
    Mr. Rehberg. Dr. Freeman.
    Ms. Freeman. Chairman, coming from a small, rural district, 
and I made this point in my written testimony, it is very 
difficult at times for us to have the human resources to write 
highly competitive grants that are major Federal dollars 
obviously offered by the Congress.
    The one example that I gave was the Striving Readers 
Literacy Program, which we have applied for that grant. But the 
nature of the grant and the composition of the grant enabled us 
to do from a small, rural perspective, to be able to do so.
    Mr. Rehberg. Your grant writer was on contract or internal?
    Ms. Freeman. No, sir. You are looking at one of them.
    Mr. Rehberg. You are it. That is it. [Laughter.]
    Ms. Freeman. Yes, sir. And I still handle secondary 
curriculum instruction and do human resources. So I am, you 
know, kind of the one in many aspects.
    But you mentioned, you were asking if reform was 
dependent--if your opinion was reform dependent? I mean, 
obviously, we are utilizing Federal dollars in a way Title I 
and Title II that I have referenced, and also REAP, without the 
receipt of Race to the Top dollars. Yes, sir.
    Mr. Rehberg. Under the formula. Okay.
    Dr. Mitchell.
    Mr. Mitchell. One of the things that I always envision is a 
system that embraces the current research. When we look at 
something that would incentivize an innovation like Race to the 
Top, Investing in Innovation dollars, incentivizing systems at 
the base is inadequate, doesn't work.
    And so, you have a real concern of whether or not you can 
support innovation through competitive dollars is if the basic 
educational programming is not in place because of funding cuts 
at the State, local, and Federal level.
    I would say that innovation is occurring each and every day 
with school districts across the country. We are utilizing in 
Rapid City a combination of State, local, and Federal funds to 
do it. Ours is all about embracing the current research about 
professional learning communities, making sure that we really 
focus on implementation of the guaranteed and viable 
curriculum.
    We really focus on formative assessment to know what kids 
know and what they don't know, to have data teams and have 
those teachers collaboratively working together. And those 
sorts of shifts are taking place each and every day across this 
country to provide high-quality school districts, and so we are 
innovating.
    Mr. Rehberg. Good. For the Members' benefit, I will watch 
the time very carefully so that we get as many rounds as we 
possibly can.
    Thank you, and I will get back to you.
    Ms. DeLauro.
    Ms. DeLauro. Do you want to----
    Mr. Rehberg. No, that is fine.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And thank all of you, and I am glad to hear how there is a 
combination of local, State, and Federal funds in order to help 
you to do the job that you need to do.
    Dr. Freeman, in reading your testimony, I was struck by the 
fact that you rely on Federal education funds for fully 17 
percent of your district budget, 17 percent. In Washington, we 
often limit ourselves to thinking in terms of national 
averages, which for this figure is closer to 9 percent.
    In Catahoula Parish particularly, the dollars that we are 
discussing today are for Title I and Striving Readers. I will 
say a word about Striving Readers because in the 2011 budget, 
Striving Readers was eliminated. In the original 2012 budget, 
Striving Readers was eliminated.
    I am going to be self-serving in the effort on literacy 
because it is a mark of a civilized society to deal with 
literacy. In cooperation with Senator Harkin on the Senate, we 
were able to restore funding to that program. And it appears to 
be a vital one for you in terms of literacy.
    But also IDEA, 21st century, rural education, the dollars 
are critical. Can you tell us a bit about the kind of position 
your State and local governments are in right now to step in 
and fill the gap if the cuts in Federal funding that we are all 
concerned about should become a reality? Can you count on 
Louisiana to find room in the budget to make local districts 
whole under this scenario?
    Ms. Freeman. The question about--it goes back in my written 
testimony about the consolidated planning process, which goes 
back to my colleague. You have the local, the State, and the 
Federal dollars, and coming together at the table with all the 
stakeholders to make the most use of our funds.
    The Louisiana Minimum Foundation Program is the mechanism 
by which Louisiana funds States at the State level, and I 
mentioned in my written testimony that our local school 
district is actually going to have to cut at least $500,000, 
which has included a consolidation of schools and a reduction 
in force.
    So, Ms. DeLauro, to answer the question as to whether or 
not the State is prepared, I am hopeful that the State is 
prepared to do so. But I have to be prepared from local, 
Federal, State dollars, whichever mechanism that I might find 
to fill those gaps.
    Ms. DeLauro. Okay. Dr. Mitchell, in your testimony, you 
mentioned Recovery Act funds which are referred to around here 
as ``stimulus.'' You expressed gratitude to the Congress for 
providing those funds. Let me say thank you to you, and you are 
welcome for the opportunity to be able to do that.
    I think those funds were important in terms of helping to 
promote higher levels of student achievement, and I believe 
that the Recovery Act saved or created over 275,000 education 
jobs in just the most recent quarter alone.
    Each of you probably can point to how the ARRA funds 
assisted you in terms of providing quality education to your 
students and maintaining existing programs and staff. We have 
some of my colleagues here, and I might just say, including our 
chairman, who referred to it repeatedly as a ``failed 
stimulus.'' I am proud to hear about the benefits that American 
students received from Federal emergency funds.
    Let me just ask you this. There is the expiration of those 
funds. It makes the current budget climate even tighter. Let me 
ask you about your districts. How have your districts had to 
cut the budget over the last few years due to those State 
budget cuts? Have you had to resort to layoffs?
    And if you would look at the choices you would have had to 
face over the past couple of years if the Congress had not 
passed the stimulus bill, and can you highlight some of the 
long-term benefits of a sustained and significant Federal 
investment in education for our students, schools, and 
communities?
    Go ahead. Go ahead, Dr. Starr? Dr. Mitchell, Dr. Freeman?
    Mr. Starr. In 25 words or less, right?
    Ms. DeLauro. Right.
    Mr. Starr. So the--so we are superintendents, and we are 
used to dealing with whatever we are faced with, whatever hand 
we are given. And kids will come to school every day. Teachers 
will be in classrooms every day. And learning will go on.
    And I think the key issue is, are we able to meet the 
changing demands of our economy, and are we able to meet the 
changing demands of our student population? And money makes a 
significant difference in our ability to do that.
    Ms. DeLauro. Were the ARRA funds helpful in that?
    Mr. Starr. The ARRA funds were extremely helpful in being 
able to save positions, critical positions, support positions, 
and we need to continue to invest in the kind of positions that 
will help our kids succeed.
    Ms. DeLauro. Dr. Mitchell, were the ARRA funds helpful to 
you?
    Mr. Mitchell. Yes, the ARRA funds were very helpful. But of 
course, we structured them knowing that they were going to go 
away.
    Ms. DeLauro. Dr. Freeman.
    Ms. Freeman. Yes. I agree with my colleague. We did 
structure--we did utilize them as intended, but we did know 
that they were not sustained.
    Ms. DeLauro. But they assisted you in what you needed to do 
in order to get you where you are now. And if there is no 
further--if there isn't any kind of continued Federal 
commitment in these areas, you will continue--you will 
struggle. Is that correct?
    Mr. Seaver.
    Mr. Seaver. Central Union School District, through 
attrition and the ARRA funds, managed not to lay off 
educational staff. We did get an Impact Aid ARRA maintenance 
grant.
    Ms. DeLauro. That is great stuff. Right.
    Mr. Seaver. And we did put in a fire protection system and 
a well at Central School, which services the Tachi Yokut 
Rancheria.
    Ms. DeLauro. Okay. Thank you very much.
    Mr. Rehberg. Mr. Alexander.
    Mr. Alexander. Thank you, Mr. Chairman.
    You said something a little earlier that reminds everybody 
of an interesting situation that we find ourselves in. Chairman 
Rehberg said that we have constituents and colleagues that say 
I am for reform as long as it doesn't change anything. And then 
somebody else will say, well, I am for comprehensive reform, 
just not all at the same time. So it is an interesting place 
for us to be.
    Dr. Freeman, when you think about the problems that Rosa 
DeLauro mentioned, and we understand that you have to deal with 
more than just teachers. You have maintenance supervisors, 
lunchroom workers, school bus drivers. When you sit and think 
about all the problems that you have to deal with and then you 
think about the association of Washington, D.C., with those 
problems, what frustrates you the most?
    I hope it is not your Member of Congress or the chairman of 
the committee. [Laughter.]
    Ms. Freeman. No, sir. Those Members are excluded from that, 
definitely.
    Mr. Alexander. Oh, okay.
    Ms. Freeman. The Federal dollars, and I have stressed this, 
I hope, in my written testimony as well, the flexibility of 
Federal dollars. When I receive Federal dollars in Catahoula 
Parish School District and which I can look through that 
consolidated planning process, look at the needs assessment, 
which is comprehensive, and determine the best use of those 
funds, and have the flexibility to do so, that is when those 
funds are most useful to me.
    Mr. Alexander. Okay. Now what do we need to do to change 
that? Does that happen here, at the State level, or----
    Ms. Freeman. I would say if we can use some examples of the 
types of funds that I mentioned that have remained flexible and 
could continue to offer that flexibility to the school 
districts so that when we get to that decision-making process, 
we are able to fill the gaps without supplanting Federal funds.
    And I understand the supplanting issue, but to be able to 
continue to do so within our districts.
    Mr. Alexander. Okay. How much time do I have, sir?
    Mr. Rehberg. Three minutes.
    Mr. Alexander. Oh, wow. Dr. Starr, you mentioned a little 
earlier about you have more trouble with training adults than 
students. Elaborate on that a little bit.
    Mr. Starr. Well, in order for us to meet the new demands of 
the economy and of our society, our adults have to learn. And 
let me be clear. Our teachers are working incredibly hard. They 
are willing to learn. They are eager to learn. I have never met 
a teacher that doesn't want to get better.
    But school has changed. What the economy and the world that 
we are preparing our kids for, the kinds of skills that are 
needed, and the way that teachers need to learn together as was 
aptly described by Dr. Mitchell, the need for collaboration. It 
costs time. You know, we are bound to a 6.5-hour day.
    You have to figure out how to get people together to learn 
together. They don't just learn by sitting in a room in a 
lecture. You need to create the technologies to get people to 
collaborate.
    So we have to learn how to organize our systems to get a 
better result than we ever have before. There is a whole bunch 
of learning at all levels of the system that has to go on in 
order for us to meet the new opportunities we have in this 
country.
    Mr. Alexander. Thank you, Mr. Chairman.
    Mr. Rehberg. Ms. Lee.
    Ms. Lee. Thank you very much.
    Very happy to meet all of you and to listen to your 
testimony.
    I wanted to ask you a couple of questions. I don't believe 
any of you mentioned TRIO and GEAR UP and those two programs 
and what the impact of these programs are in your districts. 
Programs, you focused on Title I, IDEA, which are very, very 
important. But Members of the Congressional Black Caucus 
continue to try to make sure that TRIO and GEAR UP, for obvious 
reasons, are fully funded.
    And I would like to find out if any of you have those 
initiatives in your district and what the impact is on young 
people and their families because many of these programs help 
students who are low income, who are poor, who are minority 
students who come from households where there are very minimal 
resources.
    Their parents are unemployed. Class sizes are huge in the 
public school system. They don't have healthcare. They come 
from circumstances which warrant more attention, such as GEAR 
UP and TRIO.
    Mr. Mitchell. The Rapid City Area Schools does participate 
along with the State of South Dakota in the GEAR UP program, 
and we have had some tremendous benefits for our Native 
American students with helping them navigate through their high 
school career with good planning and then also giving them some 
good information, their parents some help as to navigating how 
to get into college and access higher education.
    So GEAR UP across South Dakota and our school district has 
been very positive and very successful for those Native 
American students.
    Ms. Freeman. Currently, in Catahoula Parish School 
District, we do not utilize GEAR UP funds. However, 
interestingly, I just had a conversation with an instructor 
from Louisiana Tech University about assisting us with that. So 
that is an avenue we are pursuing.
    Mr. Starr. I am not sure of the extent of the involvement 
we have with GEAR UP. I know there is some, and it is another 
example that we are looking at for really helping to create the 
sort of web of services that is required for families and 
students who may not have had someone go to college in their 
family and how you really help them understand, get on their 
radar screen when they are in sixth grade to really help 
develop some collaboration amongst various community agencies, 
to really get that on their radar screen and giving support.
    Critically important for the web of services we need.
    Mr. Seaver. Yes. Currently, Central Union does not 
participate in the GEAR UP as well.
    Ms. Lee. Would--have you looked at GEAR UP in Central 
Union, or is it something that you just don't basically need 
because of your student population?
    Mr. Seaver. No, I think it is twofold. It goes back to, 
again, having staff to be able to apply, to be able to monitor, 
and all of those restrictions. And then with our current 
population, I think we are okay. But it also is a matter of 
monitoring.
    Ms. Lee. Thank you very much for that because, once again, 
we have communicated to this committee, the subcommittee and 
the committee, that we want to make sure that these two 
programs are not being cut. Because many of our districts have 
students who probably would end up on the streets if it were 
not for GEAR UP and TRIO.
    On closing the achievement gap, Dr. Starr, you have 
mentioned that you really in the Montgomery County Public 
Schools have virtually closed the achievement gap or are close 
to closing it in kindergarten reading. What were the strategies 
there as it relates to African-American and Latino children, 
who seem to really struggle in most of our Nation's schools, 
unfortunately? How did you do that?
    Mr. Starr. So, under my predecessor, because I have only 
been there 10 months, a significant--there has been a 
significant narrowing of the gap, particularly the early 
childhood level. And it is pretty straightforward, quite 
frankly. Investment in Pre-K has been one of the significant 
anchors. Raising standards for children and making sure that 
teachers have a lot of professional development and that there 
is good, authentic literature for kids to be involved in and 
regular ongoing assessments of kids so you can adjust and 
readjust.
    But my predecessor, I think, did a remarkable job of 
developing a world-class Pre-K effort that has really helped 
our children and has certainly followed them throughout because 
we have some of the highest AP scores and SAT scores for 
African-American, Latino, and poor kids in the Nation. And the 
investment pays off.
    Ms. Lee. I have two more seconds. Well----
    Mr. Rehberg. Eight.
    Ms. Lee. Eight more seconds? I will come back.
    Mr. Rehberg. All right. Great.
    Ms. Lee. Thank you very much. [Laughter.]
    Mr. Rehberg. Thank you.
    While Ms. DeLauro's points to you were interesting, they 
are irrelevant. If you were to have an entire hour lecture on 
blue pills, and you ended up then giving your student a test 
and asking them what color the pills were, and they said red, 
you would fail them.
    So what was passed was not a stimulus bill, it was a 
spending bill, plain and simple. And you are now paying the 
price because it did not work. It was expenses, not an asset. A 
stimulus should build something that could be built upon to be 
built upon so the next round of tax dollars are available for 
you the way you need them to be made available.
    And this President, that Congress had the opportunity to 
either fix the economy or use the economy as a way to increase 
spending. So don't let anybody lead you to believe that 
expenses create an economy. In the short term, they do. It is 
consumption.
    But in this particular case, if you ever want to read 
something fascinating, it was given to me a number of years 
ago. It is a book called ``Nonsense,'' written by a fellow by 
the name of Dr. Gupta, a genius who is dead. He died at 47.
    It was all about logic and the logic of trying to divert an 
attention away from something by calling it something that it 
really isn't. That was not stimulative, handing money out for 
expenses if you can't build an asset on top of those expenses.
    I would like to ask you the question, grant writing. You 
are the 17th largest school district in the country. Do you 
have professional grant writers on staff?
    Mr. Starr. Yes, we do.
    Mr. Rehberg. How many?
    Mr. Starr. I don't know. But we have professional grant 
writers.
    Mr. Rehberg. It was not a trick question. I am curious 
because other schools don't have that opportunity, and so it 
really does, in my mind, point out the difference between an 
urban education and a rural education, where they are 
struggling to put part-timers on grant writing, where you have 
that ability.
    How would we overcome something like that? Or do you like 
it because it gives you a competitive advantage to be able to--
--
    Mr. Starr. The district I was in previously was a 15,000 
school district, and I have worked in districts of 8,000 kids. 
So I very much understand the resource issue. I think that 
there is--one of the tactics that I employed when I was in 
previous districts was to hire out, use consultants to do it 
and do it on a project base.
    And that certainly minimized the cost, and I actually found 
it was a better way to go because people with targeted 
expertise in certain areas of funding would be able to identify 
and write certain grants.
    Mr. Rehberg. Could I ask you and then I real quickly will 
ask the rest, but would you rather have more money in IDEA or 
competitive grants?
    Let us say I had an additional $5,000,000,000 to give to 
IDEA. Would you rather have that?
    Mr. Starr. I would rather have it in IDEA than competitive, 
but certainly, I would like to have both. [Laughter.]
    Mr. Rehberg. Both. As part of a stimulus plan, yes.
    Dr. Mitchell.
    Mr. Mitchell. We do not have grant writers on our staff. We 
have a Federal----
    Mr. Rehberg. What would you rather have?
    Mr. Mitchell. I would rather have the IDEA funding.
    Mr. Rehberg. Okay.
    Ms. Freeman. Yes, sir, Chairman. I would rather have the 
IDEA funding as opposed to competitive for the reasons I 
mentioned.
    Mr. Rehberg. Yes?
    Mr. Seaver. No doubt about it, IDEA funds.
    Mr. Rehberg. Would it be the same for Title I?
    Ms. Freeman. Yes, sir. It would for me.
    Mr. Rehberg. Talk a little bit about the flexibility. One 
of the things that I go back and forth on No Child Left Behind. 
I can understand why it was passed in the first place.
    So you have three competing groups. You have the 
educational institutions. They are kind of a business, 
education. You know, more money, more money, more money all the 
time, and it is like a business.
    And then you have got the parents who are saying, well, my 
kids are having to go to college and taking remedial math and 
science, and I don't get it.
    Then you have got the taxpayer saying enough is enough. We 
can't give you anymore or we are not willing to give you 
anymore. You see that at the local level.
    And so, you could see where the testing occurred. The 
problem is there was no follow-through. Once the testing 
identified the kids that needed the help, the financial support 
coming back from the Federal Government wasn't there as 
promised.
    But one of the things I did find within the last 
administration was at least flexibility. When I would point out 
something that didn't work in Montana, they would fundamentally 
make a change. How are you doing with this administration on 
the flexibility under the new categories or standards? Do you 
find the same flexibility?
    Mr. Seaver. I will speak just to the Impact Aid and how 
flexible it is and how it allows us to make a quality education 
for our whole district, and that is really what you want. As 
the whole body goes up, all of them will go up.
    So if you had flexibility in IDEA, if you had flexibility 
in migrant and could work with all children on the same skill 
instead of just migrant children, you are going to get all of 
the children to rise to the top.
    Mr. Rehberg. Okay. I am going to run out of time. So I will 
move on to Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Just a comment. Spending on education is a long-term human 
investment, and it is about opportunity for our students. And I 
am really so proud to hear you talk about the benefits that 
American students received from Federal emergency funds from 
ARRA.
    And my hope is that with the end of those funds that what 
we will see is the long-term commitment and resources so that 
we can provide benefits of a sustained and significant Federal 
investment in education for our students, our schools, and our 
communities. That long-term, sustained investment is what is 
critical to your success in providing opportunity for the 
youngsters who are in your charge.
    Superintendent Seaver, it is a privilege to have you here 
today and to hear about your perspective and what has happened 
in communities with a large military presence. My community 
gets Impact Aid because we have a lot of low-income housing. It 
is New Haven, Connecticut, but there is a difference.
    But the military presence, nationally, if you include 
children with parents of active duty, National Guard, and 
Reserve, there are 1.1 million school-age military-connected 
students in total. Eighty percent of these students are in U.S. 
public schools.
    With that in mind, I would like to hear more from you about 
what you see as the unique needs of military-connected 
students? For example, I understand on average these students 
move about three times more frequently than their civilian 
classmates. It seems that the transition alone would have an 
impact on their academic performance.
    What have you learned about dealing with the transitions? 
What you have you seen work over time at the local, Federal 
levels to respond to deployment and to the reintegration-
related challenges? What do military-connected students teach 
us that we can carry over to other student populations?
    Is there need for better data on this student population? 
And given the current environment, what are your thoughts about 
potential future needs?
    Mr. Seaver. That is a whole speech. [Laughter.]
    Ms. DeLauro. Go for it.
    Mr. Seaver. The Naval Air Station Lemoore, we have our 
students there for about 3 years. Many, many times they have 
come from 6 to 10 different school sites before they get to 
eighth grade.
    For everybody, the flexibility those youngsters have is 
just incredible. They have learned to connect with other 
children really, really fast. They have learned to dive into 
their curriculum material very fast because of the parent 
support and the base supports.
    But one of the things that they struggle with is 
deployments. It doesn't matter how flexible they are when dad 
or mom is away 9 months on a deployment or, in some cases, they 
are living with a neighbor because mom and dad are both in the 
military, or a single family military parent.
    And so, it is those deployments that really catch the 
students. Unfortunately, we are----
    Ms. DeLauro. How does it manifest itself?
    Mr. Seaver. Well, isolation. It manifests itself in 
behavioral problems. We have had some unfortunate issues with 
children cutting themselves this last year. Those----
    Ms. DeLauro. Mental health problems?
    Mr. Seaver. Mental health problems. We have had the 
fortunate ability to have a DoDEA grant, and we have a 
transitionalist specialist who is a social worker, seems to be 
working very well. She catches all of the incoming military 
children and their parents and has discussions with them and 
then tracks those students for at least 6 months.
    Ms. DeLauro. Does your Family Resource Center help in that 
regard?
    Mr. Seaver. The Family Resource Center can help. That is 
about, oh, 15 miles away off base. But that is run by one of 
our counselors. So our counselor does help in the schools with 
that as well.
    Ms. DeLauro. How is that funded, the resource center?
    Mr. Seaver. The Family Resource Center is district funded.
    Ms. DeLauro. Great. Anything further. Should we take a look 
at this population with a more analytic or critical eye to see 
what kinds of services might be helpful to your efforts--or not 
to your effort, to these youngsters' efforts of being able to 
succeed?
    Mr. Seaver. Well, the data is, I think, available. Again, 
it is pulling that out of the different systems we have in 
place. The resilience of those kids and those families----
    Ms. DeLauro. Kids must be remarkable.
    Mr. Seaver [continuing]. Is incredible. And I think just 
providing them good schools is the most stable thing in their 
life while their parents are in the military.
    So if I were saying it, I would say you fund Impact Aid to 
the fullest and allow schools to offer great programs.
    Ms. DeLauro. Okay. Thank you so much.
    Mr. Rehberg. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Let me just open this up to anybody who wants to answer it. 
But you have probably seen these surveys that shows among the 
developed countries, the Organization of Economic and 
Cooperative Development specifically, that America is something 
like 17th in reading and 27th in math? Have you seen that? I am 
not sure exactly what the ranking is.
    But it is pretty lackluster. And then when you look at 
spending per student, we are in the top end of it. And lots of 
countries that spend less per student than we do outrank us.
    I was wondering what your reactions are to that? Why are we 
falling behind?
    Mr. Starr. Because we are spending money on the wrong 
things. And there are many different issues with some of those 
rankings in terms of different populations, which I won't go 
into.
    But the American dream in many ways has become the global 
dream, and what we are realizing--and again, the book I am 
reading now is Tony Wagner's book on the global achievement 
gap. That what we are preparing kids for in this country and 
the overreliance on standardized tests and the rigidity of the 
curriculum, the idea that everything can be reduced to one 
single measure that some folks think is equivalent to a profit 
and loss statement is not actually what kids need.
    What kids need is to learn how to problem solve. What kids 
need to learn is how to collaborate with each other, learn 
various perspectives and multiple languages. I could go on and 
on, but I won't.
    So part of what we are facing in this country is a need to 
create or understand there are new basic skills, and our 
education system has to reflect that. A lot of what we get in 
some of the developing countries is a certain thirst, desire, 
and motivation. We also have longer school days, nationalized 
systems, and more stable funding.
    And the dynamics and the political dynamics are also quite 
different in ways that we can learn a lot from. And there is 
also a much different approach to accountability. Many other 
countries have a developmental approach to accountability. We 
have a market-driven approach to accountability.
    And unless we start supporting our educators, supporting 
our teachers, rather than trying to shame them with an 
inadequate measure, I don't think we are going to be able to 
get to where we need to in terms of competing globally.
    Mr. Mitchell. I would echo many of his statements. One of 
the things that I think as we look at public schools, we are 
not afraid to be held accountable, but there could be an issue 
with the accountability system and its research base at this 
particular time with its overreliance on the standardized test.
    If we would become more to what research would tell us 
would be more of a formative type of assessment, variety of 
ways, so we bring things forward and we make the change to make 
sure that we invest our dollars in building capacity. That is 
where the research says we are going to get the best bang for 
the best buck.
    So let us invest our dollars for the things that will get 
us the farthest with the building of capacity, which many of 
those nations that rank above us do, and build the capacity of 
those teachers versus spending a little bit more money--or a 
little bit less money on standardized testing and that type of 
format.
    Mr. Kingston. Well, let me ask you this. In terms of Impact 
Aid, a lot of it has been for bricks and mortar versus 
teachers. I always wonder what the world would be like if we 
paid eighth grade math teachers $100,000 a year and had serious 
accountability in the system.
    But sometimes I think with Impact Aid, there seems to be a 
great, great State-wide lobby pressure to build fancy 
buildings. And is that a misplaced investment? I mean, 
everybody likes to work in a nice place or study in a nice 
place. But should that money have been directed toward teachers 
or toward learning systems or something that is less visible, 
but brings better results?
    Mr. Seaver. When you say Impact Aid, 30 percent of my 
school budget is Impact Aid. And that means that 30 teachers at 
least would not be there if it were not for Impact Aid. So, for 
my district alone, Impact Aid is all about providing programs 
to students. I have buildings in the '50 and '60s, and they are 
nice. They work. They are not brand new.
    I have colleagues all the way across the United States that 
get Impact Aid dollars that are providing wonderful programs 
and have lots and lots of teachers involved in their programs. 
So while there might be some new buildings, I don't think that 
is overall the intent or what is happening with Impact Aid.
    Mr. Kingston. Do you know that for a fact, though, or do 
you think that--does your association monitor how much of it?
    Mr. Seaver. No. My, well, the NAFIS, the association very 
well may monitor it, which I belong to. I am just giving you 
testimony from my side, at my district and peers that I have 
talked with.
    Mr. Rehberg. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you.
    I want to ask two quick questions and then ask each of you 
to respond to the question together.
    First of all, do you see a reduction in your school 
district in the rise--reduction or rise in unwanted teen 
pregnancies? Do you see an increase or decrease in sexually 
transmitted infections, diseases, HIV, and AIDS? Secondly, and 
then secondly, how do you address comprehensive sex education 
in your districts, or if you do?
    And secondly, dropout rates, especially as it relates to 
minority boys, African-American males, for those of you who 
have student populations that include African-American young 
boys. Because there is a direct correlation we know between 
dropout rates and incarceration rates, and I want to know what 
is going on in your districts in that regard.
    Mr. Starr. I think we have seen a reduction in pregnancies. 
I am not sure about STDs. I don't have all the numbers on me. I 
am concerned these days that the numbers show that Latina 
teenagers are more at risk of some of that. It seems to be one 
of the populations that folks are pretty concerned about I know 
from some of the research. I don't have the numbers on me.
    We do have a comprehensive sex ed program. It is woven into 
our health classes, and we teach all different aspects of it.
    Our dropout rate--well, our graduation rate for African-
American and Latino kids exceeds national and State averages. 
However, there is certainly a gap between our white and Asian 
and our African-American children. I think it is about 20 
points. Don't quote me on that. I can give you the exact 
number.
    So it is higher than the rest of the State and the country, 
higher graduation rate. But there is still certainly a gap that 
we are working hard on.
    Mr. Mitchell. I don't have the numbers with me either, but 
we have seen some survey data just recently that we have seen a 
reduction in teen pregnancy and sexual disease transmission. We 
also do our comprehensive sexual education program through our 
health curriculum, and we really struggle with Native American 
achievement in South Dakota, which is our largest minority.
    And we have about a 50 percent dropout rate and a lot of 
transient population of those students and trying to retain 
those students in a quality educational program for a long 
enough time so they get the basic skills so they can graduate 
from high school.
    Ms. Freeman. I don't have any numbers either about teen 
pregnancy or sexually transmitted diseases. However, off the 
top of my head, I would say that there hasn't been a 
significant reduction or really any significant change within 
our district.
    With regard to graduation rate, 80 percent is the goal for 
the State of Louisiana, and currently, our high schools are at 
that level. We will continue to achieve even greater gains, we 
hope, with regard to that. And dropout retrieval programs, 
other initiatives such as JAGS, Jobs for America's Graduates, 
which our school district does participate in, I think have 
proved helpful, particularly with the population of young men 
that you are referring.
    Ms. Lee. So what is the dropout rate among African-American 
males in your district?
    Ms. Freeman. I don't have that number. I will be glad to 
get that and send it in to you.
    Ms. Lee. Okay. Thank you.
    Yes, I am curious. I know in my district, in an urban 
district, dropout rates are ranging from 50 to 70 percent of 
young African-American males. So in a district such as yours, 
you have a lot of rural communities in your district?
    Ms. Freeman. Yes, ma'am. We are.
    Ms. Lee. Yes, I would be very interested to know what the 
rates are there. Thank you.
    Ms. Freeman. I will be glad to get that.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Seaver. Central Union is a K-8 school district. So we 
touch on family life in the junior high, but we have no STDs or 
pregnancies at this time. Thanks.
    Mr. Rehberg. Mr. Alexander.
    Mr. Alexander. Thank you again, Mr. Chairman.
    I would just like a response from all of you, if you will. 
We have talked about the importance of the stimulus funds or 
how the stimulus money helped. But has that created a special 
challenge for you as you look down the road a ways to the so-
called funding cliff, if you will?
    Mr. Seaver. Well, Central Union was able to use the 
stimulus dollars in connection with attrition. So we are able 
to hold staff and keep staff on, keeping our class size at a 
25-to-1 ratio.
    As we go forward, the layoffs are imminent, and they will 
happen. As the State budget goes down, we will be forced to 
eliminate programs and staffing.
    Ms. Freeman. Representative Alexander, as well, we did go 
through an attrition process use of the stimulus funds. When we 
planned for the stimulus money, we knew that we were only 
looking at a short term. And so, with that investment in mind, 
I think our decision-making was led by that fact.
    Of course, I testified in my written testimony provided 
that our school district is currently engaging in a reduction 
in force with the consolidation of two schools currently for 
this upcoming school year.
    Mr. Mitchell. We utilized most of the stimulus dollars to 
build capacity of our people, believing that would be an 
investment in the future. So, as Dr. Starr testified, too, 
about the adult behavior and the adult learning that needs to 
take place, that is what we invested a lot of those dollars in.
    And I do have a concern as we continue to move forward that 
we can continue to leverage enough dollars to do the adult-type 
learning that we need in our system to remain that capacity for 
the future.
    Mr. Starr. The Federal dollars are a small part of 
Montgomery County. It is mainly local and State dollars. But 
certainly, the stimulus funds did help stabilize and decreased 
the impact of--or enabled us to not have to lay off more people 
than we already had to lay off given the local conditions.
    Mr. Alexander. Thank you.
    Mr. Rehberg. Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.
    I just would make one point. There was an earlier 
discussion about TRIO and GEAR UP. I think it is important to 
note for people who do use the program that there is the 
potential for a $45,000,000 cut in this kind of funding, which 
would eliminate services for about 42,000 low-income students.
    In 2014, that would go up, and we would look at cutting off 
services to about 148,000 low-income students, which could 
portend a serious problem.
    Let me ask about something that is very near and dear to my 
heart, and that is early childhood education. This is a 
question for all, to hear your thoughts.
    I happen to think it is so consequential to our public 
school system, even though it may be something that is not 
under your direct control. I believe it is an experience that 
helps to shape schoolchildren before they walk through the door 
of your schools for the first day of kindergarten.
    Education officials nationwide increasingly recognize that 
children who have a high-quality early childhood education 
experience prior to coming to kindergarten are better prepared 
to learn, respond to teachers' directions, get along with 
peers, have confidence in their ability to learn, to do well in 
school. And that research shows that this translates into fewer 
students repeating grades or dropping out of school before 
graduation.
    What school-based or community-based early childhood 
education resources are available for disadvantaged children 
aged birth to 5 in your districts? How would greater access to 
high-quality early childhood education help teachers in your 
school district achieve your school's educational goals?
    That is a question for all. Mr. Seaver.
    Mr. Seaver. We have a State preschool funded by State. It 
is for 4-year-olds so they get an opportunity to do a half-day 
program prior to going into kindergarten. Starting next year, 
we will also have a transitional K program, which is--actually, 
the age limit for kindergarten in California is dropping 1 
month over the next 3 years. So the transitional K will pick up 
those drop-off years, and we will have a 2-year K program for 
students that have, for instance, a November birthday.
    Ms. DeLauro. Would greater access help you with early 
childhood?
    Mr. Seaver. Greater access would help. The State preschool 
program has an income limitation. So if we could take that cap 
off and have all students access that, that would be wonderful.
    Ms. DeLauro. Thank you.
    Dr. Freeman.
    Ms. Freeman. My testimony would be very similar. Ms. 
DeLauro, we do have State-funded early childhood programs. They 
do have funding limitations. So just not all students, of 
course, have access.
    With the Louisiana Comprehensive Literacy Plan, that is a 
birth through 12th grade initiative. So, obviously, the 
stakeholders, those caregivers in the homes because we don't 
have a lot of organized daycare centers within our area, this 
program would actually reach out to them and offer assistance 
to them as they actually care for those children, even at a 
very young age.
    So, obviously, more access would be of more benefit for our 
young students.
    Ms. DeLauro. More access. Okay.
    Dr. Mitchell.
    Mr. Mitchell. I probably bring you the greatest 
disappointing testimony of all of us. South Dakota lags behind. 
We have no State standards, and no State funding. There has 
been no real support at the State level for early childhood 
education. It is only found in schools that do utilize Federal 
resources.
    We do have a General Beadle community school in our lowest-
income area that we use a lot of Federal resources that we do 
provide some preschool education. I am actively engaged in a 
group that is called Starting Strong. We are getting private 
donations and foundational money to provide more quality 
access.
    I am a huge advocate. We have gone to all-day, every day 
kindergarten as a response because we didn't even have that 
when I went to my current district. But we need greater access, 
and we need people in our State to understand the research and 
how important it can be.
    Ms. DeLauro. Okay. Thank you.
    And I just would say very quickly, Dr. Mitchell, I am very 
impressed with the whole notion of capacity building and as 
that ties into the adult learning piece of this.
    Yes, Dr. Starr.
    Mr. Starr. We use--at our most impoverished schools, we use 
a mix of Federal and local dollars to provide very high-quality 
pre-K services, Head Start as well as some special ed preschool 
services.
    One of the aspects about greater access is also working 
more closely with families. There is an enormous amount of 
family education outreach that needs to be done, particularly 
with our increasing Latino and immigrant population. It is 
critically important.
    And we also have to rethink what the pre-K structure should 
be, and it has to match what we know about kids. Social and 
emotional competency development, structured play, and oral 
language development rather than incessant focus on whether or 
not they will be ready for kindergarten as measured by a 
standardized test.
    Ms. DeLauro. I think it is interesting that about just one-
fifth of children in poverty entering kindergarten are able to 
recognize the letters of the alphabet, and fewer than half can 
write their name, which is about the access issue.
    Thank you very much.
    Mr. Rehberg. Thank you.
    Mr. Kingston.
    Mr. Kingston. Let me ask again to the panel, whoever wants 
to jump in. The number-one complaint that we hear from teachers 
is the amount of paperwork and that they don't have control 
over their time in the classroom sometimes because they are 
teaching to standardized tests or that they have to in that 
hour after school fill out paperwork rather than help some 
child with a quadratic formula.
    And what our local boards say is, well, it is Atlanta's 
fault, and then Atlanta says it is Washington's fault. And that 
might be the case in your areas. So I was wondering how you 
would react to that, if that is the case, and what are some of 
these paperwork burdens that we should look at that we could 
eliminate or at least eliminate the duplications?
    And I always explain that the origination of this is that 
there is no such thing as string-free money. And when you are 
getting Federal money, then you are going to have to have 
accountability, and that is what leads to this and so on down 
the food chain.
    Ms. Freeman. In our district, we do--hopefully, do the best 
job that we can in trying to enable teachers to actually get in 
the classroom and teach because that is where it happens. From 
the district-level administration, the school-level 
administration, where the rubber meets the road, so to speak, 
is in that classroom.
    However, at our level, we also need to know that these 
teachers are teaching to the standards that are expected. So 
there is a level of paperwork and a level of responsibility 
there, but we have tried to use technology to enable teachers 
that if they are comfortable with the use of technology, with 
planning, the use of data that we receive through all sorts of 
methods, whether it be State-wide assessments or local 
benchmark assessments.
    So I think at our level, we are doing the best we can to 
try to not encumber them such a load that they are not actually 
teaching.
    Mr. Kingston. How many hours a week do you think a teacher 
would have to devote to paperwork that would be compliance-type 
paperwork, as opposed to grading tests and normal?
    Ms. Freeman. Well, it would depend upon the grade level and 
subject area a teacher would teach. For instance, the English, 
secondary English teacher who is teaching English IV versus the 
kindergarten teacher, it might vary somewhat. Even though there 
is a lesson plan template and planning process that they go 
through.
    But we also have job-embedded professional development and 
collaborative planning. So they do share lesson planning. They 
also do cross-curricular assignments. So there might be, if I 
am a science teacher, and he is an English teacher, then we 
might share an assignment among our students, and I might do 
the grading for that particular one. We try to do as much of 
that as we can.
    Mr. Kingston. But you don't know how many hours for a 
secondary teacher?
    Mr. Starr. Too many.
    Mr. Kingston. Well, let me hear you.
    Mr. Starr. Well, I don't know the exact number of hours, 
but it is something that we have committed to working on with 
our teachers association because we recognize it is an issue. I 
think it is a function of technology and time.
    We have not built the data infrastructure within public 
education to make the sort of facile transfer of information 
that is available in a lot of other places. And a lot of other 
places are working on it as well.
    And then there is a time issue. We have a very rigid 
construction of the day that doesn't really match today's 
economy. It doesn't match Gen Y workers and the way they think 
about it. It doesn't match how families act either.
    So anything that goes beyond the 6.5-hour day, and our 
teachers work very, very hard, in the summer, on the weekends, 
and at night, on instructional issues. But if any of the 
managerial aspects or the administrative aspects creep into 
that time, it feels like undue burden.
    Mr. Kingston. Yes, because like sometimes you go to a 
doctor's office, and you fill out one form. And then you move 
to the next room, you fill out another form that 50 percent of 
the information is the same information, and you wonder. And 
particularly in education, it would appear that you could say 
here is some standard stuff that you won't have to fill out 
over and over again.
    Mr. Mitchell. We have been talking a lot in our district 
about doing differently. That is kind of our motto right now. 
We talk about efficient, effective, innovative, and creative--
those four words that are in my testimony.
    And one of the things I think we forget about in education 
is a ``stop doing'' list. And so, we are really trying to take 
a look at what can we take off the teachers' plates? Because it 
is important, as one of my colleagues testified to, that the 
rubber hits the road is when they are in front of kids and what 
they do when it comes to implementing those instruction 
strategies.
    So, as I have told our teachers many times, there is only 
24 hours in a day, and as the superintendent, I don't have 
authority to give them a 25th hour. So we have to structure our 
time as a valuable resource, and we have to really prioritize 
what we are going to do and try to take those administrative 
burdens off the teachers and get them to do what they do best, 
which is teach kids.
    Mr. Kingston. We still have 30 seconds. Everybody wants to 
jump back in.
    Mr. Seaver. I would just indicate from our end that we have 
done a lot of data inputting, and so lots of our data is 
available through technology.
    Mr. Kingston. You know what? I really appreciate the fact 
that all four of you are very sensitive to it because it is the 
number-one thing that we get from teachers.
    So, thank you.
    Mr. Rehberg. Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Let me ask a question about the after school programs. 
There is a lot of research concluding that expanded learning 
opportunities provided by after school/summer learning programs 
like those funded by the 21st Century Community Learning 
Centers help students succeed by improving student behavior, 
school attendance, engaging young people, and contributing 
toward academics.
    How have these programs helped students and families in 
your districts? If you could move quickly, then I could get a 
couple more things in before my time runs out.
    Mr. Starr. Critically important. We need more wraparound 
services not only to meet the economic demands from our 
families, right, because most parents are working, but also to 
help with those critically important supports that our kids 
need. Vital. Absolutely vital.
    Ms. DeLauro. Thank you.
    Mr. Mitchell. Very important in our district with the use 
of the 21st Century Learning Communities grants. A tremendous 
need to provide more services because more kids are wanting to 
take part.
    Ms. Freeman. I specifically addressed Title I funds for 
summer remediation, credit recovery, grade recovery. Those 
continue to be vital for our students, and also response to 
intervention so that we intercede earlier with our students so 
that maybe they are not in a situation where they have to 
retrieve credit or improve a grade.
    Mr. Seaver. Both of our schools off base have after school 
programs. Both provide a lot of support for families working 
late. Educationally, it is their mainstay for homework or any 
projects that they are working on.
    Ms. DeLauro. Just if I can? Title II funds used in your 
districts. If there are further cuts to this funding stream, 
what about teacher and professional development, teacher 
quality, overall morale of the teachers and administrators who 
are on those front lines to help these kids with an achievement 
gap?
    Can you just briefly talk about the Title II funds?
    Mr. Starr. Our top priority next year is professional 
development, and any cuts to Title II will impact our ability 
to do that much-needed professional development with our 
students--with our teachers.
    Mr. Mitchell. It cuts right in to everything I believe with 
the building of capacity. Those funds are vital in that 
particular capacity, and also the instructional support that we 
provide is vital with those funds.
    Ms. Freeman. Title II funds used for professional 
development within my district.
    Ms. DeLauro. Right.
    Ms. Freeman. Of course, our focus this coming year will be 
on the Common Core State Standards, implementation of the 
Common Core State Standards with fidelity.
    Mr. Seaver. That is providing our professional development 
right now for Common Core Standards. So it is vital.
    Ms. DeLauro. Just two points. This goes back to the early 
childhood piece, which, again, as I say, it is near and dear to 
my heart. I think we need universal pre-K. That is what my view 
would be.
    But if you listen to a couple of the points. A child of 
parents with high socioeconomic status will hear up to 11 
million words a year, while a child with parents on welfare 
will hear only about 3 million, resulting in the differences in 
vocabulary that are apparent as early as 18 months of age.
    And though there are approximately 11.7 million low-income 
children under age 6, there are only about 960,000 federally 
funded Head Start slots and about 1.3 million children who are 
served by State-funded pre-K.
    Along with Title I, as you have talked about, along with 
special ed, you have talked about professional teacher 
development. I think one thing at the Federal level that we 
have to engage in along with the State level is to look at 
providing universal pre-K education to our children so they can 
be ready to learn as they move into your schools.
    I thank you for the good work that you are doing, and it is 
pleasure to have you come before us today.
    I am assuming this is the last one?
    Mr. Rehberg. Yes. Correct.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Rehberg. Let me begin by saying thank you as well for 
those of you who traveled great distances.
    Thank you, minority Members, and the majority as well, for 
your good questions.
    The record will be kept open for a period of 14 days.
    One of the things that is the prerogative of the chairman 
is I get to help write the bill that is presented. And one of 
the things that if I hear you loud and clear--at least the 
three of you, not necessarily you--I don't ever want to do 
anything that affects your great ability to affect your school 
districts as they do.
    But as the President is starting to move toward district 
grant competition as opposed to State, as opposed to formula, I 
am going to look at maybe some language that I would rather the 
$850,000,000 he is requesting this year for Race to the Top be 
spent in K through 12 on IDEA or Title I or Impact Aid, not a 
new unauthorized project.
    However, if what I anticipate happens, which is the Senate 
does what the President asks, I am going to then look at 
language that suggests that if the rural school districts, 
which are equal in number to the number of urban students, if 
they cannot avail themselves of the money, then at least 45, 50 
percent of that money should be put into the Impact Aid or 
Title I or whatever in the rural school districts.
    So that facing facts that you can't compete at the district 
level with grant writing, perhaps there is some way we can 
write language to be more flexible in suggesting that you are 
not going to get screwed out of your money. You will still have 
the opportunity because you have got the grant writers. But you 
are not going to get hurt because you can't, and you are also 
being punished in the other formula programs.
    So I don't know how it is going to be done, but I am going 
to work with staff and see if we can come up with some kind of 
a way of a recognition that there is, in fact, a difference 
between urban and rural education in this country.
    And frankly, I just don't see that kind of flexibility 
coming out of the administration, and I don't want to suggest 
it is because the Secretary is from Chicago. That is not the 
point. But my mind is you kind of reflect where you grew up and 
what you know best, and the Black Hills are a long ways from 
Chicago.
    So, thank you. Appreciate you being here. And I am sure we 
will be in touch.
                                         Wednesday, March 28, 2012.

                          DEPARTMENT OF LABOR

                                WITNESS

HON. HILDA L. SOLIS, SECRETARY OF LABOR

               DEPARTMENT OF LABOR FY2013 BUDGET HEARING

    Mr. Rehberg. Good morning, Madam Secretary.
    Secretary Solis. Good morning.
    Mr. Rehberg. Welcome back to the subcommittee. This morning 
the subcommittee will hear testimony regarding the Department 
of Labor budget request for fiscal year 2013. Secretary Solis, 
while you might be the last, you are certainly not the least of 
our Cabinet officials, enjoy having you here and thank you.
    The programs under your jurisdiction are crucial to what is 
on the minds of millions of Americans today, and that is jobs. 
The Department of Labor is uniquely positioned to help the 
economy continue its slow rebound, but given the fiscal 
realities we are now facing we are going to have to find ways 
to do more with less. What a world we live in where the 
national debt and annual budget deficits have become matters of 
national security.
    The unemployment rate has held at a stubbornly high 8.3 
percent with 12.8 million Americans still out of work. The 
reality is that we could very well eclipse 9 percent again as 
the long-term unemployed, encouraged by the prospects of 
finding work, reenter the job market. So we are far from 
calling this a true recovery. We will find a way to make the 
Federal job training programs more productive.
    The Bureau of Labor Statistics has said that the job 
openings rates that trended upwards since the end of the 
recession in June 2009, this is a 3-year upward trend and we 
still can't break 8 percent. With 3.5 million job openings 
currently available, we must find a better way to connect job 
seekers with those job openings.
    Seems to me though that in recent years the Department has 
been operating in a vacuum as it seeks to revamp these training 
programs. Many stakeholders, myself included, opposed the 
Workforce Innovation Fund, WIF, when it was first proposed. 
Many State agencies have voiced their opposition to reducing 
the Governors reserve as an offset to this new fund, and yet 
this budget proposes $100 million more for the WIF, the newly 
announced American job center, we have done this before in the 
late 90s and it was abandoned after just 2 years. There must be 
some level of outreach and consultation with those who actually 
implement those programs. Without their support and buy-in on 
these costly proposals, the workforce delivery system will 
continue to produce marginal success rates.
    I further believe it is the Department's role to create an 
environment that fosters job creation and economic growth. We 
need to help these businesses hire, not regulate them into 
submission with an agenda of some 60-plus proposed regulations. 
We must hold bad actors accountable. There is no question about 
that. But with this election year budget, again doubling down 
on an overly aggressive enforcement activities, it does little 
more than promote an adversarial relationship between employers 
and the Federal Government. We can't and we must not over 
regulate.
    I will ask questions along these lines in a moment, but at 
this time I would like to yield to my ranking member, Ms. 
DeLauro, for an opening statement.
    Ms. DeLauro. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for joining us today. The work that you are doing to 
create not just jobs, but good jobs as we have gone through 
this historic recession is to be commended and I look forward 
to your testimony.
    The work that the Department of Labor does, from job 
training to protecting workers, is critical for America's 
middle class, so it is unfortunate that we have seen the 
Department's budget cut by almost $1 billion over the past 2 
years, a cut of more than 7 percent. Now we have a budget being 
put forth by the House majority that is almost certain to force 
still further cuts, and I hope today's hearing will demonstrate 
the damage that would cause.
    The largest share of the Labor Department's budget is spent 
on job training. No investment is more critical than our 
investment in our human capital, and job training programs are 
the essence of good government. They work to make opportunity 
real.
    The national network of employment and training programs 
organized and funded by the Department of Labor has a proven 
record. One particular strength of the current system is that 
it is customized for each local community under the guidance of 
private-sector-led workforce boards.
    In 2010, nearly 70 percent of adults and dislocated workers 
receiving services through this workforce system were employed 
by the end of the first quarter after completion. And of those, 
85 percent were still employed 6 months later.
    I find this degree of success to be especially meaningful 
considering that there are more than four job seekers for every 
available job in today's labor market. Still we need to look 
for ways to make the system work even better. The 
administration has some ideas in that regard and I am sure that 
others do as well. Unfortunately, we may be going backward, 
rather than forward.
    As a result of the majority's policy Labor Department 
employment and training programs have already been cut $664 
million since fiscal year 2010. For those who imagine that 
Federal programs just grow every year these critical job 
training programs may provide a useful dose of reality since 
the trend has generally been downward over the past decade. 
Appropriations for Department of Labor job training and 
employment are now about $779 million less than 11 years ago, 
in fiscal year 2001. That is in actual dollar terms before 
adjustment for inflation, numbers of unemployed or anything 
else. Yet apparently that is still not enough for some. The 
majority is now walking away from the agreement on 
appropriation levels negotiated last year and are trying to 
impose new rounds of cuts on the relatively narrow slice of the 
Federal budget that is nondefense appropriations. If they 
succeed, it seems inevitable that job training and employment 
services will shrink some more. That would be bad for workers 
seeking employment and bad for businesses who are seeking 
qualified workers.
    Though employment and training is the largest part of its 
budget, the Labor Department has a number of other important 
responsibilities as well. Especially as we see women struggling 
to recover from the Great Recession at similar rates to men, 
the work that the Women's Bureau does in coordination with the 
Department's worker protection agencies is essential to working 
women who still face unequal wages, workplace discrimination 
and unique challenges surrounding workplace flexibility and 
integration into 21st century jobs.
    I know that the Secretary shares my commitment and my 
colleagues' commitments to these issues in supporting America's 
working women. I look forward to continue the work we have done 
over the years to ensure women's access to and success within 
today's labor market.

               MINIMUM STANDARDS FOR AMERICAN WORKPLACES

    One of the most important of the roles of the Department 
for men and women workers is enforcing the laws and the rules 
that set minimum standards for American workplaces: the minimum 
wage, the obligation to pay overtime, rules against child 
labor, requirements for employers to contribute to unemployment 
insurance and workers' compensation, and safety and health 
standards designed to minimize deaths, injuries and illnesses 
from hazards in the workplace.
    Again I want to thank the Secretary for the great work she 
is leading in these areas during very challenging times. Having 
strong, sensible and workable rules in place and enforcing them 
is vitally important to the workers these laws protect, 
especially workers with the least bargaining power or economic 
clout. Good enforcement is also important to employers who want 
to obey the law and do the right thing by their workers so that 
they do not find themselves undercut and outcompeted by those 
who would do otherwise. Some say that there is too much 
emphasis on enforcing workplace standards and health and safety 
laws and that instead we should be relying more on voluntary 
compliance. I disagree as protecting workers and ensuring that 
they safely get back home to their families at the end of each 
working day must be a priority.
    If anyone needs further evidence of this, they should look 
at the reports that have come out over the past several months 
from investigations into the tragic explosion 2 years ago at 
Massey Coal's Upper Big Branch Mine. Those investigations 
concluded that the explosion was caused by serious violations 
of safety rules and procedures. As a result 29 coal miners are 
dead. Or in my district where the Occupational Safety and 
Health Administration found workplace safety violations that 
led to a terrible explosion at the Kleen Energy Systems power 
plant construction site in Middletown 2 years ago, killing 6 
and injuring 50 other workers. The State has since moved to put 
stronger safety standards in place. In recent years there that 
has been a rebuilding of the Labor Department's capacity to 
enforce the law. Let us not go backward. The work that the 
Secretary and her Department does is so vital to protecting the 
health and the safety of our Nation's workers. They are matters 
of life and death, protecting our most vulnerable population, 
providing economic security and living standards for our 
working families, and providing opportunities for those looking 
for the skills to succeed in today's economy.
    Madam Secretary, welcome once again to the subcommittee. I 
look forward to your testimony.
    Secretary Solis. Thank you.
    Mr. Rehberg. Thank you, Ms. DeLauro. As is the custom in 
the committee, once the gavel is hit at the beginning of the 
meeting I call on the members as they are in their seat. So it 
will be a little bit out of order and I do strictly enforce the 
5-minute rule so we have as much opportunity to ask many rounds 
of questions as we possibly can and as also is customary the 
record will be left open for a period of 14 days, so any member 
that does not get to ask their full questions can in fact send 
them to you and we will just ask that you answer them in a 
timely fashion.
    At this time welcome, and I open it up to you for your 
statement.

                   Secretary Solis Opening Statement

    Secretary Solis. Thank you, Mr. Chairman. And I also want 
to apologize if my voice is cracking a bit because I feel like 
I am going through some cold weather issues coming back and 
forth here, but I want to thank you for the opportunity to come 
before you as well as Representative DeLauro and the committee. 
It is great to be back here, and I want to thank you for that 
invitation.
    As you know, I have provided you written testimony for the 
record, but I wanted to highlight a few areas for you. The 
Department of Labor's request reflects the approach that the 
President has taken to make priority investments in areas 
essential to helping America get back to work. Some of the most 
significant parts of these proposals are not before this 
committee, but are essential to securing our position as one of 
the most competitive economies in the world, such as proposals 
to improve access to education and job training.
    I am going to concentrate on those items before the 
committee which address the needs to invest in our workforce, 
protect workers on the job and secure Americans' incomes and 
benefits. In some cases we have made some very tough decisions 
on funding reductions in order to put America on a more 
sustainable fiscal course. This is part of the administration-
wide effort to improve efficiency and find savings.
    My testimony lists these items, and we can provide 
additional justification as needed. But I want to concentrate 
on two particular areas this morning, first the need to invest 
in a competitive workforce.
    For an economy built to last we must get our dislocated and 
low-income workers back to work. The budget request continues 
the Department's commitment to those who are most vulnerable in 
this economic distress by maintaining funding for our 
employment and training programs. To support innovation in the 
workforce investment system we are asking for an increase in 
the Workforce Investment Fund that will allow us to test new 
ideas and replicate proven strategies for delivering better 
results.
    For me innovation equals reform, and I am committed to the 
employment and training reform process. That includes returning 
dislocated workers, youth and especially veterans. We know 
returning veterans can contribute greatly to this economy, and 
this is why the unemployment rate for recent veterans is so 
troubling to me. We will bolster our support for newly 
separated veterans by expanding the Transition Assistance 
Program, known as TAP, employment workshops, increased support 
for State grants for veterans employment services, and by other 
investments necessary to implement the recently enacted Vow to 
Hire Heroes Act.
    Mr. Chairman, I applaud you in your efforts for holding a 
hearing on this subject last week and pledge to work with you 
to help prepare for this bill. To help those receiving UI get 
the assistance they need top find work, the budget proposes an 
additional $30 million for the employment service grants to 
States to fund reemployment services for UI claimants, as well 
as an increase of $15 million for reemployment and eligibility 
reassessment. Eligibility assessments and reemployment services 
have been to be highly effective and are helping those on the 
UI system to find higher paying jobs much sooner while at the 
same time saving the system overall monies.
    Lastly, the system of One-Stop Career Centers is a core 
delivery system for employment and training services, as you 
know. To strengthen the community based system, the budget 
includes a $50 million proposal to create a uniform and 
recognizable brand for the system to help improve access to the 
workforce system and create new online tools to reach out to 
individuals much sooner and much more frequently. We also need 
to support workers protection programs that not only protect 
American workers but are crucial to ensuring that all 
businesses are playing by the same set of rules to keep workers 
safe and to protect their wages and benefits.
    As we continue to recover from one of the worst economic 
crisis in three generations, it is especially important that we 
invest in the enforcement of key laws that protect our workers, 
wages and benefits. Thus, the budget requests additional 
funding for the Wage and Hour Division, including additional 
funds for the enforcement of the Fair Labor Standards Act and 
Family Medical Leave Act.
    The budget also includes funding to allow Mine Safety 
Health Administration, MSHA, to meet its statutorily mandated 
inspections while maintaining the progress that we have already 
made reducing the backlog of contested citations. I 
particularly want to thank the support of this committee in 
this particular area.
    The request for OSHA includes an additional $5 million to 
support OSHA's enforcement of 21 whistleblower protection 
programs. It administers and protects workers and others who 
have been retaliated against reporting unsafe and unscrupulous 
practices while maintaining the increase provided for the small 
business consultation program.
    In conclusion, to summarize, the Department's fiscal year 
2013 budget request provides investment to prepare Americans 
with the skills that they need and that businesses are looking 
for and to help workers and employers find each other more 
efficiently through a more effective workforce system. It also 
ensures we have fair and safe workplaces for all workers. We 
have to continue to respect workers rights, provide a level 
playing field for businesses, and help American workers provide 
for their families. While we focus on long-term shared goal of 
reducing Federal deficit, I still believe it is possible to do 
so in a way that is meeting these goals, and we stand ready to 
work with you in this committee. Thank you.
    [The statement of Secretary Solis follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rehberg. Thank you very much. On a bright note, last 
September I met with the roofing contractors in Montana and 
visited a work site where they explained how changes in OSHA's 
enforcement policy on fall protection regulations are certainly 
problematic. Given this change in policy, the regulations now 
effectively mandate fall protection options that are often 
infeasible and actually create greater hazards for workers. As 
a result I contacted Assistant Secretary Michaels about the 
problems to convey the concerns of the Montana roofing 
contractors, and I understand and am pleased to hear that he 
has been meeting with them. They have opened up a dialogue and 
there may be some opportunity for some flexibility. So I thank 
you for that.
    Secretary Solis. That is great, Mr. Chairman. Thank you.

              PROPOSED RULE ON CHILD LABOR IN AGRICULTURE

    Mr. Rehberg. Madam Secretary, you have no doubt also been 
aware that on February 2nd in the Small Business Committee Ms. 
Nancy Leppink appeared before the committee. And during that 
hearing she and I had an exchange about the child labor 
hazardous occupation rulemaking and she was not able to answer 
my question.
    So I would like to pose the same question to you. I asked 
her whether or not I would be able to hire my neighbor's 10-
year-old son to herd goats on my ranch on a youth motorcycle if 
this rulemaking were to be made final. She couldn't answer that 
question, so I ask the question of you. Could I hire my 
neighbor's 10-year-old son to herd my goats on a youth 
motorcycle?
    Secretary Solis. We are currently going through the review 
process for rulemaking. So I am not going to get into all 
finite detail. But I want to make it clear right now what this 
proposal is attempting to do. First of all, we are talking 
about a rule that hasn't been looked at for 40 years, and given 
the evidence and information that I have reviewed as well as my 
staff, we know that in 2009 there were 15,012 children who were 
injured on farms. This was noted in the Journal of the American 
Academy of Pediatrics. As well as the cost that is incurred by 
many farmers, $1.4 billion because of these hazards. What we 
are attempting to do in the rule is to try and mitigate that 
problem.
    Mr. Rehberg. Madam Secretary, I am well aware of the 
problem.
    Secretary Solis. If I may.
    Mr. Rehberg. Madam Secretary, I am well aware of the 
problem. That is not my question. My question was specifically 
would I be able to hire my neighbor's 10-year-old son?
    Secretary Solis. If there is an employment relationship and 
it is not family, say a parent that is allowing their child to 
work or people that are doing chores, that will not be impeded. 
But if it is someone who is in an employment situation and they 
are over the age of 16 years, and they are working on say 
mechanizations or whatever, equipment that could be hazardous, 
then we would strongly discourage that. But again we are 
looking at how----
    Mr. Rehberg. Would the regulation not allow.
    Secretary Solis. That is something that still we will be 
receiving comment. We received as you know 10,000 comments and 
we are very open. We are not here about trying to preclude 
people from working on family farms or neighbors coming and 
helping out say your family in doing chores and doing those 
kinds of things. It is when it comes to hazardous equipment 
where we see injuries that we want to provide better 
regulations and rules. Protection. I mean we have heard some 
really incredible----
    Mr. Rehberg. Children under 16 would be allowed on my ranch 
and I could put them on one of my horses, it is not a 
mechanized vehicle.
    Secretary Solis. A horse?
    Mr. Rehberg. Uh-huh.

                   PRIORITIZING SAFETY AND PROTECTION

    Secretary Solis. Obviously without a doubt that to me 
sounds very reasonable, that there are children that will be 
able to continue to do some of the work that they are currently 
doing now. Detassel corn, mend and paint fences, muck stalls 
and pens. That is exactly what we would want them to continue 
to do if that is what their chores and what their 
responsibilities are. What we don't want to see is when 
children are involved in grain elevators, grain bins, silos, 
stockyards, livestock exchanges where there could be harm and 
they are not protected and they could be stampeded. The last 
thing I want to see is young people that are maimed and then 
they are not able to fully enjoy their full life because of 
injuries that they sustain.
    So I want to be very practical. We heard outlandish things 
in other committees, that we would somehow regulate automated 
or battery powered screwdrivers. Nothing could be farther from 
the truth of what we want to do here. We are very reasonable in 
terms of the kind of information that we want to get and we 
want to be able to work with you, and we also want to work with 
the 4-H program. We are not going to try to move them out. That 
is not what this is about. This is about prioritizing safety 
and protection, making sure that there is more rigorous 
curriculum, and we are working with the Department of 
Agriculture and the Department of Education to set that 
curriculum because some people maybe don't always play by the 
rules, Mr. Chairman. They take advantage of young people in an 
employment opportunity. I am saying just let's put protections 
there.
    Mr. Rehberg. Ms. DeLauro.
    Secretary Solis. Thank you.

                  WORKFORCE INVESTMENT ACT EVALUATIONS

    Ms. DeLauro. Thank you very much, Madam Secretary. I read 
with interest the annual performance results for Workforce 
Investment Act programs this past year and am pleased to see 
that nearly 8.7 million workers received assistance and over 
half of the folk who got help gained employment despite the 
fact that there are nationally over four job seekers for every 
available job. On top of that, job seekers who gain employment 
through WIA were retained in their employment, according to the 
Department's data. Also, for job seekers, 8 out of 10 who 
utilized the system were satisfied by the assistance they 
received from the workforce system.
    What does this data reveal to you about the WIA program's 
response to this extended period of high unemployment?
    Secretary Solis. I would say to you, Congresswoman DeLauro, 
that we have attempted very seriously to hunker down and really 
do as much as we can to evaluate our programs, and because we 
are in tough times we realize that we don't have a minute to 
waste. And we are finding that more intensive services is what 
is required and that is what employers want. And I am very 
happy to tell you that our percentages in terms of people 
finding employment and people also being retained in jobs 
because they are able to get better training is actually very, 
very high. And you just alluded to some of those percentages.
    I would just say to you in some places we have seen major 
improvements where a system that has been overloaded because of 
recession we have seen more than 300 to 400,000 new individuals 
coming into the workforce system in the dislocated worker 
programs. We are now serving 8.4 million people and nearly 6.2 
million exiters of these programs.
    Many of them are finding at a 90 percent rate they are 
actually finding employment, they are finding that they are 
getting the advanced training and the certificates that they 
need, and we are also seeing more people that are going through 
our on-the-job training program. Businesses are saying that 
this is what they want because it gives them an opportunity to 
bring someone on board, test them out and, after their 6-month 
period or whatever it might be, they hire that individual 
because now there is loyalty, and now there is training and 
there is expertise and there is a credential that is gained by 
that individual.
    Ms. DeLauro. Thank you. I am also told that in the 12-month 
period ending September 30th, 2011, the ETA program served 
roughly 9 million people, an astonishing number and again 
particularly vital to the unemployed we are trying to move into 
high quality, well paying jobs.
    In the current dialogue over unemployment specifically we 
learned that training the workforce is essential to filling the 
skill gaps that businesses are finding as they look to hire. 
Two-thirds of all job openings from 2008 to 2018 are projected 
to require at least some post-secondary education or training, 
but as many as 90 million Americans lack the skills or 
credentials needed in today's labor market.
    How are existing ETA programs working to fill those gaps, 
train workers for available jobs? What are the results you are 
seeing with the assistance you are providing about putting 
people back to work?

                     TAA COMMUNITY COLLEGE PROGRAM

    Secretary Solis. This could be one of the, I think, very 
highest priorities that we have, using the tools that we have 
by also focusing in on some of the things that we have already 
put out like the TA community college program, where we are 
working with employers and saying to employers and community 
colleges, you won't be able to receive funding for these 
efforts unless we can guarantee that the curriculum and the 
skill sets are going to be warranted by those employers. And I 
think most of you have participated or your State has 
participated in the programs one way or another and have 
benefited from some of these efforts. I can go down the line in 
terms of big employers that are satisfied with what they are 
seeing on the ground. For now we are seeing community----
    Ms. DeLauro. Who are some of those employers and are they 
offering jobs?
    Secretary Solis. Yes. I am talking about a recent visit I 
had on a bus tour out in Kentucky--I am sorry, Wytheville, 
Virginia where we interacted with folks from Gatorade that came 
in and met with the community college and the chamber and said, 
look, these are the skill sets we need, we are willing to hire 
people, and also provide a subset of skills for other 
industries that can also come on board in that location. It is 
a rural county. They came away from that feeling that there is 
a good investment. And the employers said I am coming here and 
I am going to make sure that other members of the Chamber of 
Commerce come here because we know that there is a good 
product. And these people are skills tested, they have 
credentials and you see a career growth and ladder in an area 
where it is very hard to find a job in rural America.
    Ms. DeLauro. I did a forum with the community colleges and 
businesses in my district, and that includes manufacturing, 
Yale-New Haven Hospital, et cetera, and that model that you are 
talking about that you have----
    Secretary Solis. The partnership? 
    Ms. DeLauro. The partnership between the community colleges 
and the businesses where the businesses help design that 
curriculum.
    Secretary Solis. Right.
    Ms. DeLauro. And then they make a commitment to hiring, 
even in instances hiring a certain number of people at the end 
of that process. I think that is the direction we are going in 
and I thank you for that effort. Thank you, Madam Secretary.
    Mr. Rehberg. Mr. Alexander.
    Mr. Alexander. Thank you, Mr. Chairman. Madam Secretary, 
good morning.
    Secretary Solis. Good morning.

                              H2A PROGRAM

    Mr. Alexander. The National Council of Agricultural 
Employers recently published a report about the H2A program. On 
the front page of the report it says the H2A program is an 
example of the governmental regulatory abuse of small business 
causing economic harm to employers seeking an illegal 
workforce, threatening the jobs of the local year-round U.S. 
workers and rural and urban economies.
    The report also says that 47 percent of the employers were 
unsatisfied with the H2A program, 42 percent said they would 
not use it again because of its overregulation. The employers 
reported that $320 million in economic loss was because of the 
failed H2A program; $170 million was lost because workers were 
not able to be made available in a timely manner.
    As the director of this program, how do you react to this 
report?
    Secretary Solis. Thank you for your question, Congressman 
Alexander. One of the things that the Department looks at in 
terms of this program is that there have been abuses in the 
past and what we are trying to do is correct that. What our 
attempt here is to make sure that everyone is playing by the 
same set of rules, because we have had some people in the 
industry, not all of them, but enough bad actors where they 
have actually driven down costs, didn't want to pay for 
sufficient travel, advertising and things of that nature, and 
have abused these individuals. I have seen some of those 
programs where they have been abused in Florida and our parts 
of our country. It is an embarrassment when you see how 
individuals from other countries are being brought in with the 
promise that they are going to be given fair wages and salary, 
housing, transportation and then at the end of the day they are 
turned into indentured slaves. I have seen this happening in 
Florida. We are trying to root out that, make sure that we 
level the playing field, but also help businesses.
    We have had more Webinars with them, we have done a lot of 
outreach, and as we continue to move through this I want to 
refine the program. I am very open to hearing what suggestions 
you might have, because I am not in a position to say we want 
to shut down the program. But I also want to make sure that 
American workers that will get salaries that are just as good 
would be open to perhaps filling these positions, and I realize 
that there are some concerns on the part of our growers and 
would like to continue that dialogue with you.
    Mr. Alexander. You say that you want to protect the 
American workers to make sure that those jobs----
    Secretary Solis. That they have a chance, yes.
    Mr. Alexander. The same report says that the State 
workforce agencies referred only 36,000 domestic workers to the 
H2A employers. Only 5 percent of those actually began work. Of 
the domestic workers who began work but did not work through 
the duration of their contract, 59 percent quit, 15 percent 
were terminated for just cause, 7 percent failed to produce 
acceptable work authorization documents, and 16 percent left 
for a variety of other reasons.
    So it is obvious that according to their own data that 
domestic workers are not wont to do some of the jobs that H2A 
workers are filling.
    Secretary Solis. They are hard jobs and I would say that 
our attempt here is to make sure that we set a level playing 
field in terms of what the salaries are. So whatever you are 
offering on one farm in a county is similar to what is offered 
in a neighboring area, and I think that has been contentious 
with some of the employers and also just trying to make sure 
that when people do come in that they have adequate housing, 
that they are not just thrown into areas that are infested with 
insects, rats, that there is no drinking water. I mean we have 
heard some tremendous stories. We are trying to regulate that 
and make sure that if we do bring in people they understand the 
rules and that they also get notice before they even come to 
this country what to expect.

                              H2B PROGRAM

    Mr. Alexander. Let's move on to the H2B program, in January 
you finalized a rule that would increase the wages employers 
were required to pay to the H2B workers. You were sent a letter 
on September 7th that was signed by 50 Members of Congress, 
Republicans, Democrats, House and Senate, asking you to do away 
with that rule. You didn't do so, so Congress delayed the rule 
by the appropriations process. So at the end of this 
appropriations process are you going to come back with a rule 
placing these high salaries on H2B workers?
    Secretary Solis. As a result of the appropriation rider the 
effective date of the wage rule has been changed, as you said, 
and it is due out October the 1st. The rule does change the 
methodology of how the H2B wages are calculated. And the 
comprehensive rule obviously will look at the prevailing wages 
of the other industries in the neighboring area. So we are 
still getting information and look forward to continuing to 
have a dialogue with you as necessary.
    Mr. Rehberg. Ms. Roybal-Allard.

              PROPOSED RULE ON CHILD LABOR IN AGRICULTURE

    Ms. Roybal-Allard. Welcome, Madam Secretary. Let me 
compliment you on the efforts you have made to protect children 
in agriculture. Having our laws equally protect children in 
agriculture has also been a goal of mine because, as you know, 
agriculture has the second highest fatality rate among child 
workers. This fatality rate is four times greater than youth 
employed in nonagricultural workplaces. As you mentioned, 
according to the Journal of American Academic of Pediatrics, 
these injuries cost our country an estimated $1.4 billion per 
year, injuries such as those that took place last summer when 
two 17-year-olds in Oklahoma lost their legs in a grain auger 
accident and unfortunate deaths such as those that took place 
in July of 2010 of a 14-year-old and 19-year-old who suffocated 
in a grain bin in Mount Carroll, Illinois. Their deaths 
occurred in a matter of seconds as they were engulfed in 
grains.
    I do understand due to the ongoing rulemaking process that 
you are somewhat limited by the Administrative Procedures Act 
and cannot discuss matters that go beyond the notice of 
proposed rulemaking or the process that you intend to follow. 
As was mentioned earlier, however, there is a lot of 
misinformation circulating about the Department of Labor's what 
I consider modest and common sense proposed regulations for 
children employed in agriculture.
    So my questions are more for purposes of clarification, 
because as I understand it, these proposed rules and 
regulations apply only to paid youth employees. My question is 
do the proposed regulations prohibit children from working on 
their parents' farm, helping out on their neighbor's farm or 
participating in valuable agriculture education programs like 
4-H and the FAA programs?
    And finally, I believe you did answer this question, would 
the proposed regulation prohibit children from using equipment 
like power screwdrivers?
    Secretary Solis. The answer is no. We are attempting, as I 
said earlier, to really bring this regulation up to date. It 
was last viewed or actually brought into play in 1970. So a lot 
has happened on farms, there is a lot of industrialization that 
has occurred and a lot of mechanization. And of course with 
that comes injuries as a result of lack of training and safety.
    So no, we are not trying to preclude a family relationship. 
If there is a child or a grandchild that wants to work on 
auntie's or grandma's farm or grandfather's farm, that is fine. 
But if there is a paid relationship and they are over a certain 
age, yes, we want to take a look at it. We are not talking 
about battery powered screwdrivers, but we are talking about 
tractors, and we are talking about bins and we are talking 
about grain operation where children have been killed or have 
been maimed.
    We are not also talking about precluding educational 
programs. We encourage that. We are not in any way trying to 
take away from that particular part of our culture. I 
understand that, my father was a farm worker. I know that. But 
I also know that there are some needs to bring down the cost of 
injuries because in the long run the economy suffers, and 
trying to do that I think through this regulation and hearing 
from the public we are very open. As I said earlier, we have 
received over 10,000 comments. We take this very seriously. We 
know that there is a lot at stake, but there are a lot of 
people on the other side that may not quite understand what we 
are doing and will talk and stretch I think some type of 
hysteria so to speak that really isn't reality. We are not 
talking about precluding people who have children who want to 
continue to have that experience on the family farm. If it is 
not going to be injurious to them, where they are not going to 
be--say it is not clearly an employment relationship, then they 
have the ability to work on a farm, gain that experience, ride 
horses, corral, do the things that kids would do normally. But 
when we talk about tractors and we are talking about other 
things where there are serious injuries and it is an employment 
relationship, then we should be able to regulate that.
    Ms. Roybal-Allard. For the record I would like to submit 
two letters, one that is signed by 65 Members of Congress and 
the other by 105 organizations represented by the Child Labor 
Coalition in support of the Department of Labor's proposed 
regulation.
    Secretary Solis. Thank you.
    Ms. Roybal-Allard. Do I have time for one more question?
    [The letters follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rehberg. No. Mrs. Lummis.
    Mrs. Lummis. Welcome, Secretary Solis. Where did you 
develop your self-esteem?
    Secretary Solis. My?
    Mrs. Lummis. Yeah, you are in a very important position. 
Where did that come from?
    Secretary Solis. That is a hard question. I think my drive 
to want to serve the public and provide whatever leadership and 
advocacy I can to help people that don't ordinarily have a 
voice at the table, much like what you do I think in your jobs.
    Mrs. Lummis. Thank you. Let me tell you where I developed 
mine. I grew up on a ranch. I was driving tractors when I was 
8, 9, 10 years old. And the larger the piece of equipment, the 
more functions that piece of equipment performed, the better I 
felt about myself because I knew I was doing something 
important and capable, whether it was running a backhoe or a 
combine or a windrower or a baler. I just felt so good about 
myself. And when I could move on and I was branding, I was 
castrating, I was dehorning, I was giving injections to cattle 
as a little kid, not only on our ranch, but on the neighbor's 
ranch, all of us who were growing up together as little kids 
were doing exactly what you are trying to prevent kids from 
doing in an employment situation, in an employment situation.
    Let me give you some examples. Herding animals on 
horseback, breeding, dehorning, castrating or treating sick 
animals while in confined spaces. Good heavens, I wouldn't do 
any of those things outside of a confined space. Husbandry 
practices that inflict pain or cause unpredictable animal 
behavior. All animal behavior is unpredictable. Driving 
tractors or operating power driven equipment, that has always 
been a source of self-esteem for me. If I could hook up a power 
takeoff piece of equipment, and go out and grease it myself, 
put the wire in the baler myself, thread the baler. I don't 
know how to thread a sewing machine, but I know how to thread a 
baler, and that gives me a great deal of self-esteem as a young 
paid farm worker.
    What I am trying to say, Madam Secretary, is especially for 
young girls who grow up on farms and ranches and work for pay, 
for their neighbors and for themselves, that is how you learn, 
that is how you develop your self-esteem. And the rules that 
you are undertaking that have no new congressional 
authorization, you have said yourself that the source of your 
authorization came from legislation that passed in the 1970s. 
When we have unemployment that is so incredibly high and these 
massive problems with job training, to utilize the time and 
energy and resources of the Department of Labor to get into an 
area like this I find absolutely astonishing and completely 
inappropriate given where we should be focusing our time, our 
attention and the precious resources of the American people.
    Mr. Chairman, the only question I had in this series is 
where your self-esteem was derived. And I can tell you my self-
esteem was derived from learning to be a capable, responsible 
person who could do a job well and have a work ethic that I 
would be proud of and could take with me wherever I went in 
life. And I got it from being a little kid operating farm 
equipment on my land and the neighbor's land for pay.
    Mr. Chairman, I yield back.
    Mr. Rehberg. Thank you. Ms. Lee.

               UNEMPLOYMENT RATES IN MINORITY COMMUNITIES

    Ms. Lee. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, it is great to see you again. And thank you for your 
service and all of the work that you are doing at the 
Department of Labor, especially during these very challenging 
times.
    I know that you understand the great obstacles of poverty, 
disparities of unemployment, and the crisis of the long-term 
unemployed. And too many people are confronting this crisis 
today. So I look forward to continuing to work with you and 
your administration to address some of these critical issues.
    Couple of questions. I was pleased first of all to see the 
reduction in the Nation's unemployment rate in January and 
February, but the fact remains that it is still too high and 
minorities continue to bear the brunt of the recession.
    Unemployment rates for minority communities continue to be 
high at 14.1 percent for African Americans and 10.7 percent for 
Latinos, and of course this is unacceptable. We know that 
unemployment is directly related to poverty with over half of 
the 46.2 million people living in poverty being people of 
color. In the wealthiest Nation in the world this really is 
very shameful. And so I am very pleased to see your report 
reducing racial and ethnic disparities and unemployment. This 
is a very good first step. It was a very good report. And I 
hope committee members read this report and what DOL is doing 
to try to address this problem.
    But we need to do more. We need a plan, we need a plan to 
address these massive unemployment disparities head on, and we 
need actions targeted to these communities. So I want to know 
if you have a plan; if so, what does that plan include to 
aggressively target these disparities in unemployment?
    Secondly, the long-term unemployed, 450,000 from California 
and 2.7 nationally will exhaust their unemployment benefits at 
the end of the year. And unfortunately the bill which was 
passed, which I could not support, reduced the time that 
unemployment benefits would be allowed. And now we will have 
more long-term unemployed. And of course Congressman Bobby 
Scott and I are trying to get our bill passed, which is not 
making much progress at this point. For those who have hit 99 
weeks, now it is reduced of course to 70 some weeks as a result 
of that bill. And so we have got now more people who have been 
unemployed for a year or more. And I want to know what exactly 
are you doing to help the long-term unemployed who will 
continue to remain out of work. Now there will be more because 
we have shortened the length of time and not the number of jobs 
we should create for the long-term unemployed.

                       PATHWAYS BACK TO WORK FUND

    Secretary Solis. Thank you for acknowledging that the track 
record of the administration in the last 24 months has actually 
added 3.9 million private sector jobs and across the board we 
know it is stinging when it comes to minority groups. You and I 
know that, we have had many discussions. I will say the 
unemployment rate for particular groups, African American and 
Latino, has done gone down a couple percentage points. But we 
do need to do more particularly around our youth and young 
people. We continue to work with this administration in an 
effort to try to help all workers. So those that are long term, 
that have been out of work more than 6 months, those that have 
a need for more skill development because their literacy rates 
are very low, it hits very hardest for our communities. We know 
one of the efforts the President has proposed is talking about 
Pathways Back to Work Fund. And that hopefully will begin to 
address the long-term unemployed, the ones that you care about 
and that this committee cares about, and making investments 
also with providing those essential training, needed skills and 
also making sure that people have on-the-job training that we 
really utilize the programs that we have. For example, even 
kind of rebranding our One-Stop Centers, making sure that 
people understand where to go easily to get information. You 
don't just have to go to a One-Stop Center, but you can go to a 
community college working with us through the system in the 
workforce investment system to help more people understand 
there is a broader safety net out there to collectively use all 
the information together.
    One of the things that we have done to continue the 
programs to help even those communities that are really going 
through a hard time, we are talking about ex-offenders. We have 
actually had several grants that are coming out to continue to 
serve targeted populations. Those that have a record find it 
very difficult to find employment, especially young people. We 
have now proposed, and this is already out, a grant to help 
female ex-offenders, something that is very big in the State of 
California you and I worked on when we were members of the 
state legislature.
    I know how hard these programs are. But we also need to 
take a look at what kind of support we can also get from the 
Congress because each time we made these proposals they are not 
always funded like summer youth employment programs.
    Mr. Rehberg. Mr. Flake.
    Mr. Flake. Thank you, Madam Secretary. It is great to have 
you back here.
    Secretary Solis. How are you? Thank you.
    Mr. Flake. I just want to follow on some of the questions 
that Cynthia brought up. I grew up on a farm, I am missing the 
right end of my finger, this is a windrower accident at age 5. 
I was just with my father. My father's missing these three. 
That happened just a few years after that. But you can't 
prevent all these. When you read through what is here, 6-month-
old bulls, 14- and 15-year-olds shouldn't be able to work with 
6-month-old bulls or herding animals on horseback, breeding, 
dehorning, castrating, treating sick animals in confined 
spaces. As mentioned, where else do you do it? Do you just go 
on the open range for this? You have to be in a corral.
    Unpredictable animal behavior, it comes with the territory. 
I fear sometimes in an effort to make sure that nothing 
untoward ever happens that we are preventing experiences and 
everything else. Growing up for myself, most of my growing up 
was in a paid relationship. We got a steer at the beginning of 
the year, we took that steer to the fair, whatever we got out 
of that steer was our pay for the year. If you had a bum steer 
you had a bad year, but that is just how it was. But later on 
it was for wages as well.
    But when you read through this it just strikes I think all 
of us who have grown up with those experiences as being written 
by some bureaucrat behind a desk who has never sat foot on a 
farm or on a ranch, that doesn't know that animals are 
unpredictable, that things do happen.
    Other injuries happen on a football field. My wife tore her 
anterior cruciate ligament playing basketball in high school 
that plagued her for 20 years until she got the surgery. That 
was far more debilitating than this. I wouldn't suggest that we 
come in and try to keep girls from playing basketball. Things 
happen. We know that, you try to minimize it, but you don't 
over reach like this where you tell somebody that they can't go 
work on the friend's farm or a relative's farm or whatever else 
for pay because you might get injured somehow.
    I don't know, can you shed any more light on that? I know 
you have spoken some about it, but please enlighten me.

                           FAMILY-OWNED FARMS

    Secretary Solis. Thank you, Congressman. Well, first of 
all, I want to clarify also with Congressman Lummis's statement 
as well, she was talking about a family relationship, her 
parents working on a farm, that was owned by her parents. We 
are not talking about that. We are talking about a paid 
relationship employment. We are talking about children who are 
not related to you that are working on a farm say at a certain 
age, if they are over 15, that is what we are looking at. We 
are looking at kids. You heard stories presented by 
Congresswoman Roybal-Allard, I don't want to say children but 
younger than we are, obviously were killed because there wasn't 
enough protective gear, information, training on how they could 
utilize graining equipment in silos where people were injured 
seriously. That is what we are talking about. I am not talking 
about doing chores, I am not talking about that. And I can't 
get into great detail because I am also restricted right now.
    As I said earlier, we are taking a lot of comments, we got 
10,000 comments. We are going through all of those and we are 
listening. We know that this has to be reasonable, not talking 
about battery powered screwdrivers. I am talking about big 
equipment that causes harm. We are talking about trying to 
bring down the costs for farms. And we are talking about 
preserving a relationship with families. So if you have 
youngsters, if have you aunts, uncles that you want to work on 
their farm, that is not going to be prohibited in this bill.
    Mr. Flake. One when we would brand calves, we have got big 
pastures, you run one head per 200 acres in Arizona, you have a 
lot of riding that needs to be done. We would bring out kids, 
neighbor kids, friends and others that weren't blood relatives 
or worked with us that would have been prohibited at this point 
from herding animals on horseback. That just seems like 
somebody behind a desk writing a rule, not understanding how 
roundups happen and how branding goes. And I just--I don't 
know. I hope that the comments you received are reflective of 
the reality out there and I hope they are taken into account.
    Secretary Solis. I understand. As a child my motivation was 
riding my bike, but now youngsters are told wear a helmet. We 
didn't have to wear a helmet then. But now we know because 
injuries and the prevalence, brain injuries that can have on 
children, we are all told now that we have to wear helmets. So 
there are certain things that we learn over time. This rule is 
40 years old. We are looking at it and all we want to do is 
make it more coherent so we are not endangering more children.
    Mr. Rehberg. Ms. Lowey.
    Mrs. Lowey. I just want to welcome you. And Madam 
Secretary, I want to tell you how proud I am of the important 
work that you have done. And I look forward to continue to 
support your efforts.
    I must admit, I did not grow up on a farm and I know that 
you are looking at the various issues that have been brought up 
today. But for the record I would like to submit this article 
that was reported in the New York Times on January 12th, 2012. 
And it says, report blames safety lapses for an epidemic of 
deaths at Wyoming job sites. The report also noted that Wyoming 
had the highest workplace fatality rate in the country for all 
but 1 year from 2003 to 2008. In 2010, the last year that data 
was provided, Wyoming estimated occupational death rate was 
three and a half times the national average, the report said.
    So thank you for your important work.

                       COOPERATIVE RELATIONSHIPS

    Secondly, I would like to associate myself with the remarks 
of my colleague Ranking Member DeLauro and yourself about the 
important work you are doing with community colleges and I want 
to expand that effort. We can also agree that the workforce 
system must do more to address the mismatch between the skills 
needed by employers and the skills of job seekers. That is one 
of the reasons that I am such a strong supporter of the Trade 
Adjustment Assistance Community College and Career Training 
Grant Fund. It provides funding for community colleges to help 
more Americans prepare to succeed in growing high skilled 
occupations.
    So I am not going to ask a question, but I hope you will 
keep us up to date on the cooperative relationships between the 
colleges and the businesses and provide as many incentives as 
we can, because it is absolutely essential.
    I just met with a group of business people, about 25, a few 
weeks ago. They can't find Americans that they can hire for 
their jobs. And if we want to make it in America and we want to 
strengthen our economy, we have to be sure we are training our 
youngsters for the jobs that are there and for the jobs for the 
future. So thank you for your very important work.
    Another area throughout your career, because I know we have 
worked together, you have been a champion for women's issues, 
and I know that you are willing to do everything you can to 
ensure that women have necessary workplace protections. 
However, I am concerned that the President's budget request 
proposes to reduce the Women's Bureau budget primarily 
affecting its regional offices. Given this proposed reduction, 
could you explain to us how the budget request addresses 
women's workplace protections? I think it is very important and 
I appreciate your efforts.
    Secretary Solis. Thank you, Congresswoman Lowey. And I also 
just want to commend your State because they actually applied 
for the TA community college grant and got one of the largest, 
I think it was $19 million, but it actually draws on expertise 
to focus on health care careers and those vulnerable sectors 
that really need to improve their outcome. So we are looking 
forward to the partnerships that will come with that grant.
    To your point with the Women's Bureau, yes, we are looking 
at unfortunately a reduction in this particular area. But I do 
want to clarify that what we are doing here is something I have 
been trying to do since I got there, was integrate all of our 
divisions to focus in on women's issues overall. So when we are 
looking at vulnerable women and workers who are not getting 
paid their wages and overtime, we are structuring our programs 
in the Wage and Hour Division to do just that. We are going 
after employers that discriminate. OFCCP has a handle in this. 
So across the board all of our divisions are taking part in 
that.
    We also have the authority to implement the Family Medical 
Leave Act. We know how important that is to continue to fight 
to see that women also have the availability of that. So we are 
working with employers to do that.
    We have a great, I think, track record in terms of getting 
back wages for women that are in these low sector jobs. In this 
last year we collected nearly $169 million in back wages for 
over 270,000 workers in industries where women predominantly 
are focused. We also recovered $11 million in back wages for 
11,000 victims of sex discrimination.
    So we continue to push out our efforts. We know that we are 
consolidating some of our offices, but that doesn't mean we 
take away the role of what the Women's Bureau was intended to 
do, which is to do research, and also to do collaborative 
effort, and to work with us on evaluations. They will continue 
to do that.
    Mrs. Lowey. Thank you.
    [The newspaper article follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rehberg. Thank you, Ms. Lowey. I will let Ms. Lummis 
correct for the record her statement because I heard her talk 
about working off the farm or ranch for other people. I heard 
her say that.
    I do want to clear up for the record something you just 
said about riding a bicycle, you are required to wear a helmet. 
I assume there is no requirement to wear a helmet. It is a 
suggestion. My children wear helmets when they ski, when then 
ride horseback, when they ride a bike, but there is no penalty 
under law for not wearing a helmet, is there?
    Secretary Solis. Well, I know in different States they have 
different local authorities. And I am merely saying that over 
the course of time because we know of injuries that can be very 
serious, head injuries, that people have changed their conduct. 
They are taking more precautions. That is merely what I was 
trying to state, because things do evolve, they change.
    Mr. Rehberg. Well, they certainly do, but usually the 
Federal Government doesn't step in and come up with a one-size-
fits-all regulation like you are talking about. I can assure 
the committee that this will be addressed in the budget. I 
appeared before the Small Business Committee suggesting the 
same thing. And as I understand it, the schedule suggests that 
the final rule will be coming out in August and we will address 
this issue in the appropriations bill. I hope to see that no 
money is spent on the enforcement or implementation of the rule 
as it is presented. And it does talk about batteries, and a 
battery is a battery.
    I fought the same fight with the Consumer Product Safety 
Commission when they made the determination in their rule that 
youth motorcycles, snowmobiles and ATVs were toys because 
children might chew on battery cables and valve stems. It 
continually points out Mr. Flake's point about bureaucrats 
sitting behind a desk in Washington, D.C. crafting these 
regulations.
    I would like to ask you a few specific questions about an 
appropriation request. I see there is a proposal for a new $50 
million American jobs center.

                          REBRANDING ONE-STOPS

    Mr. Rehberg. And I assume you are familiar with the fact 
that the same thing was done under the Clinton administration. 
And I wonder how we expect a different solution or a different 
conclusion to a failed project that was actually canceled after 
a couple of years within the Clinton administration. And so, I 
guess, what lessons were learned that are going to make this 
any different.
    Secretary Solis. The President is asking us to have a more 
coordinated and more efficient system in place. If you go to 
any city across the country, you see many one-stop centers that 
are listed with different titles. There is a lot of confusion 
out there about what these centers--where they are located and 
what their names are. I remember as a former Member of the 
House, I had several that were run by the county, by the city. 
That doesn't make a difference in terms of the service 
delivery, but the names are different.
    And it is really just trying to brand them with this term, 
incentivizing all of the one-stops to come together so we can 
also put more information online, to make tools better 
available, and bring some conformity. So really what we are 
attempting to do is make it easier for the public and 
businesses to know where to go, so there is a one-stop place to 
get all that information.
    Mr. Rehberg. I have spent a lot of time studying branding 
and rebranding, Jack Reese, and positioning. They are kind of 
the foremost in marketing and branding and rebranding.
    So I guess question is--you know, with Ms. DeLauro's 
individual that came, I commented how impressed I was with 
his--I think it was called The WorkPlace, Incorporated, which 
was a nonprofit. Do you intend to make them, what, change their 
name? Fall under an umbrella? Put a sticker in their window?
    I guess I don't understand what the $50 million is going to 
be and what the rebranding does. It sounds like kind of the 
same old same old.
    Secretary Solis. Actually, we are trying to fix a system 
that hasn't been working well, because there is a lot of 
confusion. And we hear this often from employers, that they 
don't even know what the Workforce Investment System is about. 
And when you tell them about one-stops, they are not clear 
about what that means.
    And they should be taking advantage of what the services 
are that are provided there. Because, in many cases, as you 
have heard, businesses are trying to find employees. They can 
go to a one-stop, they can get this information. We want to 
make sure that there is conformity in how we brand the message.
    Mr. Rehberg. So how is this different than what the Clinton 
administration attempted to do?
    Secretary Solis. I wasn't here when the Clinton 
administration was here.
    Mr. Rehberg. Okay, so how is it going to be different from 
what is in place today? How are you going to spend the $50 
million?
    Secretary Solis. Well, right now we are going to try to 
bring conformity. So we have a lot, for example, of community 
colleges that also provide this assistance. We want to bring 
everyone under the umbrella to show that we are all 
coordinated, providing information to people who are looking 
for jobs and also training.
    Mr. Rehberg. I am just not following the $50 million 
umbrella. What does the $50 million do? What is your plan? 
What----
    Secretary Solis. It is a branding plan. So we would also--
we wouldn't wholly change their titles. We would say that if 
you are looking for an American job center, this is what it 
looks like, this is where it is at. And there would be a 
uniform system to do that, so you could push a button, so to 
speak, go to the same place, know in your area's ZIP Code where 
the nearest location is. And it isn't just for people, the 
public; it is also for businesses.
    Mr. Rehberg. Okay, then, as part of the subcommittee, as it 
considers the $50 million expenditure, I would like to see the 
branding plan.
    Thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. DeLauro.
    Secretary Solis. Absolutely.

                          1966 CHILD LABOR LAW

    Ms. DeLauro. Thank you.
    Before I get to a question on the misclassification of 
independent contractors, let me just see if I can set the 
record straight a little bit here.
    I think, in terms of the issue of the child farm workers, 
let's understand one thing, to be clear. It was in 1966, as I 
understand it--and this is what the Congress did. It is a law 
that has been in place since 1966. It exempts only farms owned 
or operated by a parent from the restriction on hazardous farm 
employment for kids under 16. It is not a new idea thought up 
by the Department of Labor. Farms owned by a grandparent or an 
uncle or a cousin have never qualified for the exemption. The 
Department has, and the Secretary has, no power to change that 
rulemaking.
    The issue in the proposed rule is exactly what is meant by 
``owned or operated,'' and that is what the rule is about. So, 
in fact, Congress extended the child labor law to agriculture. 
It is not in the Secretary's power to change this.
    Also, let me just tell you what we are talking about here. 
We are talking about youngsters who are 15 and younger. There 
are no limitations, current or proposed, on agricultural 
employment for anyone who has reached their 16th birthday, even 
for the most dangerous work, whatever it is.
    Now, the other piece that is important to note is, this is 
different than the rules outside of agriculture, where workers, 
by law, younger than 18, and not 16, are prohibited from 
working in jobs considered particularly hazardous for youth.
    And let us also be clear that we are talking about 
employment for pay. And unless wages are being paid, the rules 
have absolutely no application to children or teenagers that 
are doing chores around the family farm, helping out a 
neighbor, or participating in 4-H or FFA.
    So, you know, there is a good reason to be concerned about 
the safety of young people who are working in agriculture. It 
is forty years since these rules have been updated. Agriculture 
has the second-highest fatality rate among young workers, more 
than five times the average of all the industries.
    And as the Secretary has pointed out, we are discussing a 
proposal, not a final rule. It has been put out for review, for 
comment. The Department is considering all of this information, 
and that is what the process is about.
    And I would just add that, on the issue of children working 
on their parents' farms, the Department has withdrawn the part 
of their proposed rule clarifying that exemption. They are 
going to study it further. So they are working through this.
    But let us not forget what the law of the land is and look 
at this as willy-nilly somebody in the closet came up with this 
idea one day and thought it was a good idea to do it. The 
Congress in 1966 extended these laws to agriculture.

                        WORKER MISCLASSIFICATION

    I am going to see if I can get to worker misclassification, 
Madam Secretary. You asked for $10 million for the Wage and 
Hour Division, of which $3.8 million is for increased 
enforcement related to worker misclassification.
    Tell us what you mean by ``worker misclassification'' and 
why the Department considers this a high-priority concern.
    Secretary Solis. Yes, Congresswoman DeLauro, what we are 
looking to do here is to support the use of legitimate 
independent contractors. We are finding that there have been a 
lot of folks out there that have not been appropriately abiding 
by that.
    And we find that when workers are cheated of their 
appropriate wages, that they are not paid workers' compensation 
or other taxes because they are labeled as independent 
contractors, that is money that is not given to that worker, 
but it also robs the States and local government. And we are 
trying to correct that. There are a lot of injuries that occur. 
Workers' compensation--who ends up paying for that if somebody 
is classified inappropriately as an independent contractor?
    We are trying to get to the core of these industries where 
these abuses have happened. We are not going after legitimate 
independent contractors. What we want to do is make sure that 
people are not misclassified. So our efforts will work with the 
Wage and Hour Division. We will work also with different 
States. Minnesota, Missouri, Illinois, Connecticut, New York, 
Massachusetts, Maryland, Washington, Utah, Hawaii, Montana have 
already entered into an MOU with us to work with the IRS, 
because we know that there are a bunch of folks out there that 
want to cheat, that don't want to pay their taxes and don't 
want to pay the employee, and misclassify people. And places 
like Maryland, Washington, Hawaii, and Montana feel that they 
need to be a part of this effort with us. So we are doing it 
collectively.
    The amount that we are asking for, yes, in total is about 
$28 million. But I think collectively it will have a tremendous 
impact, because it will bring revenue back into our States and 
provide some semblance of safety for those workers that get 
injured out there.
    Ms. DeLauro. Thank you.
    Mr. Rehberg. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I first want to thank my colleague for pointing out how 
Wyoming took the step of identifying a problem with worker 
safety in the oil and gas industry, studying it, making 
recommendations to the State, and how the State is responding 
to this unique Wyoming problem of worker safety in the oil and 
gas industry.
    I think that States are uniquely qualified and positioned 
to identify problems that are unique to the job and employment 
sectors in their State and resolve serious problems. And, 
certainly, it is a serious problem in my State. And I commend 
my State and my Governor, Matt Mead, for addressing this 
tremendously important worker-safety issue.

                       WORKFORCE INNOVATION FUND

    I want to turn to the Workforce Innovation Fund and ask 
some questions about it. Because, as you know, Secretary Solis, 
every single dime that we are talking about spending today is 
borrowed from China, Japan, the American people, Saudis, and 
others--every dime. Because all of the revenue in this country, 
all of it, is consumed by entitlement programs. So the only 
part of the budget this committee has any control over, which 
is discretionary spending, it is all borrowed money.
    So what we need to do when we are making decisions about 
how to spend that money is to say, is this something that is so 
important for the Federal Government to do that it is worth 
borrowing money from China to do it?
    So, in that context, I have a question about the Workforce 
Innovation Fund. It was created in fiscal year 2011 to the tune 
of $125 million. Also received funds in fiscal year 2012 to the 
tune of $50 million. And now we are being asked to top it off 
to a $300 million commitment to innovation when we don't even 
have the first round of grantees yet because the first initial 
fiscal year 2011 funds won't go out until June. So we don't 
know yet whether the program is working.
    So my question is this. I know you have high hopes for the 
potential of the Workforce Innovation Fund to improve our 
workforce programs. But when can we expect to see the results 
of the initial investments that were made in 2011 and 2012? And 
how many more millions do we have to spend before we know 
whether it works or not?
    Secretary Solis. Well, that is a good question, and I would 
tell you that the Workforce Innovation Fund is a part of 
funding that comes from the workforce investment programs 
collectively.
    What we are attempting to do here is really look at good 
models. We talked a lot about, for example, the TAA community 
college experience, where we are getting employers to work 
closely with our community colleges so that we are actually 
matching the skills to what the employer wants. We want to 
incentivize that. And we are having to use these kinds of tools 
because we haven't reauthorized WIA. It is already--it is a 
stale piece of legislation that needs to be more flexible and 
adaptable. So I am using that prerogative, along with the 
support of the administration and with your support, to make 
these programs work better.
    So we are listening to the States, we are listening to 
locals, we are listening to the local workforce, and we are 
listening to employers. And this model has been proven to be 
ineffective. We are already giving out another series of grants 
that are going out.
    And we are finding that the return on it can help us better 
serve the needs of the local areas. So regions, for example, 
sectors that want to build out, pharmaceuticals, biofuels, 
things of that nature, we are testing the water to see exactly 
what that assessment market base is, but also making sure that 
we connect with the right employers that are going to be able 
to hire up the people in those jobs.
    Mrs. Lummis. Okay. So my question is, is it worth borrowing 
money from China to augment a program whose initial grants 
haven't even gone out?
    Secretary Solis. I would reframe the question and say that 
the money that is given to us by this committee are U.S. 
taxpaying dollars, they are U.S. dollars. And the 
relationship----
    Mrs. Lummis. But where--so you are saying that the 
mandatory programs are the borrowed money----
    Secretary Solis. No.
    Mrs. Lummis [continuing]. And that discretionary programs--
--
    Secretary Solis. No. What I am saying--you know, maybe I am 
not understanding your questioning, but my understanding is 
that the funding that we request from the Congress comes from 
our taxpayers, it comes from our consumers. And----
    Mrs. Lummis. Well, it really doesn't, though. It comes from 
China and the American people who are lending us money and the 
Japanese and the Saudis and whoever else is buying our----
    Secretary Solis. Well, there has been a lot of money that 
has been borrowed already to fight for some wars, and who is 
paying that?
    Mr. Rehberg. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Secretary Solis, there are some that 
believe OSHA regulations impose unfair burdens on businesses. 
And there are also studies that have shown OSHA enforcement has 
little negative economic impact on business and that 
production, revenue, and profits have increased in regulated 
industries and that small businesses continue to compete 
successfully.
    I know that businesses in my district tell me that they 
welcome strong enforcement because it helps to level the 
playing field for them and the majority of businesses that care 
about worker safety and follow the rules.
    Have you found evidence that regulation and enforcement 
cause detrimental effects on small businesses? And in keeping 
with your mission, what steps has the Department of Labor taken 
to work with small businesses to minimize regulatory burdens 
that may exist?
    Secretary Solis. The President has talked about looking 
at--having, actually, a look-back at our regulations. We have 
taken it upon ourselves to go back and look at old regulations 
and onerous ones that perhaps we can scale back.
    We do take it very seriously with respect to hearing from 
the business community. Whenever there is a regulation that is 
put forward, it has to go through that regulatory process where 
the Small Business Administration, the advisory groups there, 
do take a look at what economic impact there has been.
    Through OSHA we continue to have more consultations, more 
than any other time, because we know how important it is to 
make sure that small businesses understand exactly what they 
need to be following. So we provide consultations. In fact, 
what we are looking at is more consultations, because we know 
that last year we conducted about 30,000 small-business visits, 
consultations that we provided. We know next year we are going 
to see more.
    Our job and availability is to go out and do as much as we 
can, especially for those new arising industries where you have 
a lot of immigrant communities that aren't fully aware of what 
protections and rights are already on the books, familiarizing 
them as well as their workers as to what their role and 
responsibility--and to help prevent any injuries. Because, at 
the end of the day, if there is no appropriate coverage for 
those injuries, the businesses fail, they go bankrupt, and the 
taxpayer has to pick up the bill once that injury is then taken 
to, say, an emergency room unit. And you know that very well, 
serving in your capacity as a member of this committee. And we 
are trying to mitigate that.
    So we are doing our best. We know we can do more, but we 
also want to hear and invite the public and small businesses, 
because they are the engine of growth and we have a 
responsibility and obligation to do that.
    Ms. Roybal-Allard. I was glad to see that your budget 
invests in the Chief Evaluation Office, which reflects your 
continued commitment to program evaluation.
    Tell the committee how the Department is using the results 
of this research to shape priorities and to ensure our 
investments have a positive impact and are also cost-effective.
    Secretary Solis. The Department is very mindful that the 
taxpaying dollars that are given to us are a privilege. And we 
want to make sure that we are making the right investments and 
that we are getting the right return on those dollars. So, it 
is very important for us to prioritize our evaluation across 
the board.
    That is why I have made it a personal priority, because I 
come from that background. As a former Member of the House, we 
would scrutinize everybody's budget, including our own. I do 
take it very seriously and know that it is a part of what our 
mission should be.
    If people understand when they are reviewed in evaluation 
and given feedback and assessment on a more regular basis, they 
are apt to be able to change and make those adaptations that 
are going to save the taxpayer money. So that is what we are 
attempting to do through this whole evaluation--Chief 
Evaluation Officer.
    And I think that all government, rightfully so, should be 
doing the same thing. I know that the President strongly 
believes in that. That is why we are supporting this budget 
request.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Rehberg. Ms. Lee.
    Ms. Lee. Thank you very much.

                        SUMMER YOUTH EMPLOYMENT

    First, let me just say, our best economic policy to reduce 
the deficit, we all know, is to invest in job creation. Also, 
if we didn't have these huge tax cuts for the very wealthy, we 
would have the resources that we need to fund education and 
training and infrastructure and what the American people need 
and deserve. And, you know, so I just think we need to really--
this committee should really begin to look at really what our 
priorities should be, in terms of, you know, our investments on 
behalf of the American people.
    You know, let me just give you an example. With the teen 
unemployment rate--and we should have addressed this many, 
many, many years ago. It is an unbelievable high rate of 23 
percent. And African American teens are unemployed at the rate 
of 34.7 percent.
    Summer jobs and employment opportunities for our youth 
really help them become taxpayers and help them become good 
citizens who want to help in terms of their community and help 
reignite, really, the American dream for everyone.
    In Oakland, in my district, we are trying to use summer 
jobs and other initiatives not only to employ our youth but 
also to keep them out of trouble. I mean, young people need 
some alternatives. Again, that is, I think, a very prudent and 
wise investment on behalf of our Federal Government.
    Prior to the Recovery Act, there was not a dedicated 
funding stream for summer jobs. But through the very 
successful--and it was very successful--$1.2 billion youth 
activity stimulus, 300,000 summer jobs were created in 2009. 
This allowed our young people to develop job skills, become 
job-ready, and they paid taxes. And so, again, we invested in 
that effort, and our young people, those 300,000 young people, 
paid taxes.
    So with teen unemployment rates what they are now, it is 
clear that we need again to target funds for youth summer jobs 
and also year-round jobs for our young people. So let me just 
ask you how your budget addresses this issue. Because, once 
again, going to our economic policies, we know that job 
creation really helps reduce the deficit and helps young people 
become productive taxpayers.
    Secretary Solis. Well, as you know, Congresswoman, there 
wasn't a particular language that existed for many years that 
was dedicated solely for summer youth employment. Those days 
have since gone. And the President, with your help and others 
in the Congress, were able to dedicate funding in the Recovery 
Act, $1.2 billion, to help put over 300,000 young people to 
work.
    We know that through our own programs we do have the 
availability to help provide assistance year-round, and we 
attempt to do that through different programs. And one that I 
think you should be aware of is the Summer Jobs Plus program. 
It is a voluntary program because we don't have dedicated 
funding.
    You have fought time and time again to get a stream of 
funding for youth employment, and I know how valuable that is. 
Unfortunately, we didn't get the support of the Congress. So we 
decided on our own, through our own initiative, to help solicit 
support from private agencies and corporations. We were able 
last year to set aside about 80,000 job slots.
    This year, the President is behind the initiative. There is 
no Federal money because Congress hasn't acted yet. We hope 
that they will. Our goal is to create about 250,000, roughly, 
slots available. That is not nearly enough where we need to go.
    But there is participation. People like Jamba Juice, out 
your way, are hiring up--are looking to hire up people in San 
Francisco. But, also, because they have taken a liking to what 
we are doing and the results because they are finding trained 
staff and individuals from our Job Corps program, now they want 
to partner with us and spread this program throughout the 
country.
    So we have different corporations who are coming out, who 
are stepping up to the plate. But we know that isn't good 
enough; we need to do more. And that is why the President is 
also asking in his initiative for Pathways Back to Work, which 
would address summer youth and year-long unemployment for young 
people. It would actually put about $2 billion in for year-
round funding for youth.

                           JOB CORPS CLOSURES

    Ms. Lee. And, Madam Secretary, on Job Corps closures, can 
you just explain the process you all are going through? Because 
some are being closed, which I am quite disturbed about. And I 
want to make sure these young people do not lose an opportunity 
through the Job Corps centers, which do wonderful work.
    Secretary Solis. There will be a rigorous evaluation. 
Nothing has been set in writing. We will use the same criteria 
that they are supposed to be adhering to now. We know that 
there are some low-performing centers.
    But if there are any centers that are closed, those 
remaining students then will be sent to other operating Job 
Corps programs. And that is really what our agenda is, to try 
to get these programs up to speed, make sure they are complying 
with their contractual agreements.
    Ms. Lee. Thank you.
    Mr. Rehberg. Ms. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And I want to thank you again, Madam Secretary, for your 
extraordinary work. We are very proud of you.
    I would like to emphasize again the Bureau of International 
Labor Affairs and highlight your request for an increase of 
$2.6 million for the Bureau of International Labor Affairs' 
efforts on behalf of worker rights. We must ensure that our 
trading partners enforce the labor-rights provisions of their 
own laws, as well as our trade agreements, to protect our 
workforce. We cannot allow our trade partners to undercut 
American workers by exploiting their workers overseas, 
including exploiting child labor, to undercut wages.
    I want to make one other comment, because, having been on 
the Appropriations Committee for many years with my colleagues, 
the purpose of the Appropriations Committee and these hearings 
is to go through the whole budget and try to make it as 
efficient as we can and cut out waste, cut out fraud, cut out 
programs that don't make any sense today. And we understand 
that.
    I am just as concerned--it is a concern on both sides of 
the aisle--with our current deficit and our long-range debt. 
And we have to deal with it seriously. And my friends on both 
sides of the aisle may have different views as to the best way 
to get to that goal.
    But I would also like to put in the record that Wyoming 
received $669 million in subsidies from 1995 to 2009. That is 
also money borrowed from China. For example: disaster payments, 
$167,047,586; Conservation Reserve Program, $125,690,122; wheat 
subsidies, $86,900,699; livestock subsidies, $78,050,344; corn 
subsidies, $65,437,054; barley subsidies, $38,749,605; wool 
subsidies, $20,644,909; sugar beet subsidies, $7,099,085; et 
cetera, et cetera, et cetera.
    And I just want to make it clear that my friend and I come 
from different parts of the country, so some States may put 
more focus on certain needs, and I am very happy to support 
them if they are necessary. But I know a lot of kids who can't 
go to college because when there was a proposal of cutting $845 
million from Pell Grants--and fortunately they were not cut, 
they are working two, three jobs. And I visit these community 
colleges; these kids wouldn't be going to college without it. 
Worker training programs--I can go on and on.
    And the investments that we make in these programs with 
this committee, and why I am so proud to serve on this 
committee, are essential. Yes, we have to go through every line 
in the budget. But I think we have to respect the needs--corn 
subsidies, other subsidies, as well as many of us care 
passionately about investing in our young people, making sure 
they are getting the education, making sure they get the 
training that is necessary to prepare for the future, and make 
sure that every child has the opportunity to fulfill their 
dreams and meet their goals.
    And I just wanted to close with that and thank you again 
for your important work. And hopefully on both sides of the 
aisle we can respect the needs of the populations that may be 
different, but we want to make sure all our children have that 
opportunity to succeed.
    And thank you very much.
    Secretary Solis. Thank you, Congresswoman.
    I just want to say, with the ILAB funding, we are focusing 
in now on our trade agreements. As you know, three were passed; 
we had bipartisan support.
    We have a lot of work to do on the ground. And so our 
emphasis and focus is to look at how we can help impart our 
knowledge, our expertise, our technical assistance. We even 
have people right now on the ground in Colombia to help them 
restructure their labor agreements and also help them 
understand what judicial protocols need to be put in place. So 
we are doing a lot of technical, you know, advances in that 
way.
    Overall, it helps us because then we can kind of level the 
playing field in terms of trade and also allow for good 
businesses that want to export their items, that we know--or 
import them, when we are importing them--that we know we are 
not getting them because of slave labor or abuses that are 
happening in other countries.
    Mr. Rehberg. Mr. Alexander.
    Oh, okay. I just want to point out in the summer employment 
and when we talk about borrowing money from China, I don't know 
if you remember the hearing from last year but we talked about 
specifically the information that we received from Wisconsin 
about their summer employment. And of those youth that gained 
employment, it cost $90,000 per position, per employee. And so 
that is probably one of the reasons that we are as hard on the 
appropriations and borrowed money.
    The last----
    Secretary Solis. Mr. Chairman, that was corrected for the 
record, is my understanding. That is not a correct document, 
and that was corrected for the record.
    Mr. Rehberg. I will take a look, and I apologize if I am 
wrong. I was not made aware that that was corrected for the 
record. I am using my memory, which can be wrong sometimes.

                            I2P2 REGULATIONS

    However, last year, as you know, the bill I introduced in 
the House prohibited any further development of the I2P2 
regulation. And in discussing small businesses' position on 
regulation and over-regulation, I guess I am a little shocked, 
because every small-business organization that I talk to, in 
fact I belong to the NFIB and the Chamber of Commerce and such, 
suggest that there is a problem with many of the regulations, 
especially as they are coming out of the Department of Labor.
    And so I guess I am thinking back to 1998 and the panel 
that was created; SBREFA I think was the name of the panel. And 
they came up with the conclusion that many of the regulations 
that were coming out were onerous and cost-prohibitive. And I 
understand that under the new regulation that is being crafted 
that I tried to keep from happening in the last go-around, 
another recommendation of creating a panel similar to or called 
SBREFA is going to be reestablished, or established again.
    And I guess my question is, what did OSHA--how are they 
going to do something different? Are they going to find a 
different conclusion? Did they consider the recommendations of 
small business or the panel from the last time? Again, what is 
going to be different----
    Secretary Solis. Mr. Chairman, we haven't proposed any 
regulation. And, at this time, we are not putting anything 
forward.
    Mr. Rehberg. So there will be no SBREFA panel, nothing in 
that----
    Secretary Solis. Well, we are not moving in any direction 
right now. So we are in a hold pattern right now.
    Mr. Rehberg. Okay.
    I would also like to ask you about the Governors' Reserve. 
And in the last budget, I believe it started out at a 15 
percent reserve. And I had suggested at the time and in our 
bill that we lower that to 10, just because of the balance that 
was being carried forward, the billion dollars. And I had 
thought and assumed that that would be a one-time thing. The 
Senate cut it down even further to 5 percent, and I see now 
your recommendation is at 5 percent.
    My question is, have you gone out and asked the users? Have 
you talked to the States? What kind of reaction----
    Secretary Solis. We have. Yes, we have, Mr. Chairman.
    Mr. Rehberg. And the National Governors Association is 
supportive of changing this down to 5 percent?
    Secretary Solis. Well, they obviously are not in full 
agreement. But we do know that, when we look back at the usage 
of that set-aside, there were many Governors in the past that 
were just sitting on that amount of money instead of utilizing 
it when they could have been doing other things with it.
    Mr. Rehberg. I realize that. And that was part of why we 
suggested at the time a reduction from the 15 to 10. But, 
again, as I stated, that was to clear up that balance, telling 
the States--and not suggesting or recommending or making the 
States, mandating that they spend the money, but it was made 
available to them. You now have moved it to a different 
element, and you have made permanent what we suggested as a 
temporary cleaning up of the account.
    Secretary Solis. And I guess it is good, because we are 
utilizing that additional money and plowing it back into the 
programs that we know it is really needed in.
    So I think that is what the tradeoff is here. And I think 
it is a good one. Because we are hearing so much right now in 
this economic crisis that there has to be more training made 
available, and employers need to find individuals that are 
skilled up. The only way we can do that is if we can operate 
and function and provide the training that is necessary.
    Mr. Rehberg. I found your initial answer to my question 
particularly interesting, because I asked you the question--
maybe I phrased it wrong--did you go out and talk to the 
Governors and you said yes.
    Secretary Solis. We did.
    Mr. Rehberg. The second part of it was, do they agree, and 
you said no. So thank you for at least----
    Secretary Solis. Not all of them. Not all of them.
    Mr. Rehberg [continuing]. Asking them the question. I am 
sorry you didn't accept their recommendation. And, once again, 
I think it is a mistake to make it a permanent reduction. But 
we will deal with that in the executive session of the 
subcommittee, as well.
    I probably need to go to Ms. DeLauro.

                              RYAN BUDGET

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Just a couple of points and then a couple of questions.
    I guess we really don't care if we borrow from China if we 
are going to provide, as the Ryan budget does, $150,000 in a 
tax cut to the richest 1 percent or so of folks in the United 
States. So there we don't worry about China.
    Also, I think it is interesting to note that we are looking 
at a Ryan budget that is $19 billion below an agreement that we 
really all signed on to, and now the majority has reneged on 
that agreement. And then, interestingly enough, there is an 
$897 billion pot of cuts to nondefense discretionary programs 
which the other side will not fess up to. They won't point out 
what it is, what it is about.
    More interesting than that is, none of that money is going 
to deficit reduction so that we would have the opportunity to 
not have to borrow from China. But it is going to the tax cuts 
for the richest 1 percent of the people in this Nation. So the 
record should remain, you know, clear as to what we are talking 
about here.
    Madam Secretary, let me ask you, given that unemployment 
levels are nearly 13 percent for workers who are over the age 
of 25, with less than a high school degree, one out of every 
seven workers does not have the basic literacy skills necessary 
to succeed in the industries of tomorrow, what is the 
Department doing to identify and replicate successful 
community-based adult literacy programs and partner them with 
complementary training programs in local workforce investment 
areas to ensure that our lowest-level adults do not continue to 
fall behind on the economic ladder? Keeping in mind, as well, 
that in the 2011 budget every literacy program was eliminated.
    So what are we dealing with in terms of low-skilled 
workers?
    Secretary Solis. Well, we continue to address these issues 
through several of our programs, and you are familiar with 
them. One is the Job Corps program. You know, those are for 
students that are at risk, that perhaps failed in getting a GED 
or a high school education.
    Ms. DeLauro. I applaud you for looking at those and 
reviewing them.
    Secretary Solis. And reviewing them and tightening them up.
    Also, with the YouthBuild program, expanding what they can 
do, not just in construction, but now IT, getting credentials 
there, apprenticeship, pre-apprenticeship programs, and also 
looking at continuing and renewable energy. So those are things 
we are looking at to address that.
    We also know that we are working a lot closer with the 
Department of Education and their vocational and adult 
education programs. Because many employers are asking us, we 
have a workforce that has maybe less than an 8th-grade 
education. So we have to be able to address our programs so 
that we can readily work with people on the assembly line, so 
we can apply that skill, that education as immediately as 
needed.
    And the President is also talking about rebranding or 
reshaping how we do services for TAA and dislocated workers. So 
we are coupling those two programs, what we know works best, 
and putting that out. And we think that that is going to help 
to provide more of a seamless and more wraparound services for 
these hard-to-place individuals.
    So that is exactly what the Congress has been telling us, 
and now we are proposing to put that forward. So those are 
proposals that may not directly come before this committee, but 
I know that they are being talked about right now.
    Ms. DeLauro. Just a quick point on that forum that I had 
with community colleges and business and industry. One of the 
points that was made by both groups was this whole issue of 
literacy and coming prepared. And the community colleges were 
aware that that is what they have to try to do, as well. And 
the industry folks are saying, if we have those skills, then we 
don't have to reinvent that wheel and we can move forward.
    Secretary Solis. Right. Right.
    Ms. DeLauro. Backlog of mine safety citation appeals--I 
know the Department is working to reduce the backlog.
    Secretary Solis. Uh-huh.
    Ms. DeLauro. I also understand that coal mine operators 
have been appealing a larger percentage of the citations they 
receive.
    Well, I want to ask a question, and I am hopeful that we--I 
don't know what the chairman's plan is, but if we could go 
back, I want to ask a question on that.
    Mr. Rehberg. If we have time. We will end the meeting at 12 
o'clock. So we will do everything we possibly can. If people 
will shorten their questions.
    Ms. DeLauro. Thank you.
    Mr. Rehberg. You betcha.
    Ms. DeLauro. I will get back to that.
    Mr. Rehberg. Okay.
    Mr. Alexander.
    Mr. Alexander. Did Ms. Lummis ask her question a while ago?
    He called on you a little earlier. Did you ask your 
question?
    Mr. Rehberg. She hasn't had the opportunity. But if you 
want to go ahead, then--go ahead.
    Mr. Alexander. Madam Secretary, a little earlier you said 
that there was something like 12,000 young people, I believe 
was the number you used, somewhere around----
    Secretary Solis. Uh-huh.
    Mr. Alexander [continuing]. That were hurt on farming 
operations. Do we have any idea how many children are injured 
in that same age range outside farming territory?
    Secretary Solis. I don't have that information, but I am 
sure we can provide it to you. I was actually citing a study by 
the Journal of the American Academy of Pediatrics that put that 
out.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Alexander. Well, I was just wondering how far we were 
going to go, to restricting bicycle riders on sidewalks, et 
cetera.
    Secretary Solis. I don't have any intention of going in 
that direction.
    Mr. Alexander. Okay.

                   DISABILITY EMPLOYMENT INITIATIVES

    In December of last year, your office issued a rule that 
would require Federal Government contractors to employ at least 
7 percent of their workforce with people with disabilities. Is 
that 7 percent--where did that number come from?
    It is interesting, I find that the same rules apply to your 
office of 2 percent, but yet the report showed that only 1.8 
percent of the Department of Labor employees are with 
disabilities.
    Secretary Solis. We are actually looking at a proposed 
rule, if that is what you are talking about. And we are looking 
at trying to enhance the employability of people with 
disabilities.
    So we know that there are several ongoing initiatives that 
the administration is taking on. One is to get Federal 
Government to do that, but also employers. And so our attempt 
here is to make available information, get information also 
from employers to see what the impediments are, why we can't 
hire up more disabled individuals.
    This is really important, especially as we see returning 
veterans coming home that are injured, that are being 
discriminated against because of these injuries. And we want to 
try to make that available, so we are trying to educate. And 
that is what our proposed rule would do, to help provide 
importance access for these communities that are affected.
    Mr. Alexander. Well, in some way we are going to have to 
tweak the law, because it is against the law now for an 
employer to ask an individual or potential employee if they are 
disabled. Isn't that correct?
    Secretary Solis. Well, we know that there is a higher rate 
of unemployment in this community. So the evidence shows that 
we have a long way to go. There is discrimination that is going 
on.
    Mr. Alexander. Okay.
    Mr. Rehberg. Ms. Roybal-Allard.
    Okay. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    As an aside, I find it kind of interesting about this 
apparent battle of the States. This isn't about what States 
get. This is about what the Federal taxpayers are getting for 
their money. You know, New Yorkers get $9,000 per participant 
on Medicaid. Wyoming people get $6,300 per participant on 
Medicaid. So, you know, if that makes folks feel better, you 
know, I am happy about it. Besides, I think we should cut farm 
subsidy programs, too, you know.
    So this isn't about--and, really, farmers in Wyoming say, 
``We accept that. We know we are in a financial crisis. We are 
willing to phase those out because this is a financial 
crisis.'' So I am asking questions in the context of a 
financial crisis that we are in. This country is in a financial 
crisis.
    So, Secretary Solis, this isn't personal. You know, I am 
not trying to attack you. I am trying to attack a financial 
crisis that our country is in. And I am attacking it in every 
committee for every group that gets money that we borrow from 
other countries. That is just my philosophy.
    And I do intend to share some questions with you for the 
record on the H-2A program. You have been issuing some guidance 
letters, which you have the authority to do and that 
constituents find helpful. Sometimes I hear reports of 
inconsistent enforcement, and I will just make you aware of 
those in a letter. And we can address those separate and apart 
from this.
    Secretary Solis. Okay. Thank you.
    Mrs. Lummis. The other thing I have is kind of an aside to 
you, as well, because the President's budget includes a new $8 
billion in mandatory spending over a period of years for 
community colleges and business partnerships. And they have 
worked wonderfully in Wyoming. I do welcome the 
administration's renewed focus on community college 
partnerships. Gosh, we have some fabulous partnerships in 
Wyoming. I don't think we can afford a new $8 billion in 
mandatory spending, just as an aside.
    Question: Did you at any point consider pursuing this 
initiative within the $16 billion we already spend every year 
on workforce training?
    Secretary Solis. The President has made this proposal 
because we know already from our experience with the TAA 
community college program that there are some good things 
working there. And this is a way to help expand that so that we 
could have a more robust--how could I say--stimulus for our 
community colleges, working in partnership with businesses.
    Because the difficulty here is that we are finding from 
employers is that we don't have a skills match here, that we 
have to do a better job about that. And right now, as you know, 
many of our States don't have sufficient funding. They are 
cutting back in my State, in California, right now with 
community colleges. They are turning away people at the State 
system, as well. So, there is a ripple effect going on.
    And we are trying to leverage the money the best way we 
can. We think community colleges do a good job. In fact, your 
Senator there has been terrific. He has been outstanding in 
helping us work with your State to make sure that we make those 
good connections and that we are hitting those areas that are 
harder to serve, especially rural America and inner-city 
places, where we know that the incidence of high unemployment 
remains. And it is getting that skill set and availability, 
making sure that investments are also happening.
    So if there is an industry that wants to come into your 
area but they don't have the workforce, we can want to couple, 
we want to partner with them, we want to make sure the 
community college is on the ground doing that. Right now they 
don't have the flexibility to do that because they don't have 
the availability of funding to do that. So we are targeting 
what little we can make available.
    Mrs. Lummis. Okay.
    Thank you, Mr. Chairman.
    Mr. Rehberg. Thank you.
    I am always trying to catch staff in either a mistake or 
something. And staff does not recollect any change in the 
record of the numbers that I was referring to before. And so, 
if it is available, I would like that----
    Secretary Solis. Certainly.
    Mr. Rehberg  [continuing]. Perhaps by close of business 
today.
    Secretary Solis. Certainly.
    Mr. Rehberg. It was a Wisconsin study. It was their 
numbers. And that would be a substantive change in the 
transcript of the subcommittee's work if that, in fact, was 
incorrect. And I would like that right away, if I could, 
please.
    [The information follows:]

    DOL CLARIFICATION: The Department provided the information 
to the subcommittee March 28, 2012, the same day as requested. 
This submission included information provided in the FY 2012 
hearing transcript. In part, the FY 2012 information included 
this paragraph:
    In addition, specific to Wisconsin which was discussed in 
the hearing, the WIA Youth Recovery Act allotment for Wisconsin 
was $13,808,812 and their number of youth that participated in 
summer employment under the Recovery Act was 4,386, for a cost 
per summer employment participant of $3,148 or slightly below 
the national average.

                  THIRD PARTY EVALUATION OF JOB CORPS

    I can be as supportive and, at the same time, critical of 
Job Corps as anyone out there. And so I guess I am a little 
concerned, as I see the budget request that substantively 
changes from residential to nonresidential, it changes the 
aegis.
    And in fiscal 2011 we asked for a third-party evaluation. 
And I guess the question becomes, where are we in that 30-month 
evaluation? Was this recommendation of closing these 
underperforming Job Corps centers based upon the criteria 
within that third-party study?
    Secretary Solis. Well, we are right now looking at 
contractors to fulfill that. So that is ongoing right now.
    Mr. Rehberg. So the study is not done? So the 
recommendations are being made before the third-party 30-month 
evaluation is complete?
    Secretary Solis. No, we are--we are looking at all our 
information and our data. Preliminary findings are what is 
driving our decision.
    Mr. Rehberg. Are these federally owned or contracted 
private facilities? And I guess then, as part of that 
evaluation, is there a consideration----
    Secretary Solis. We are looking at every sector and their 
performance overall. So we are looking at that.
    And I know that, you know, there is a great concern, as was 
reiterated here on this committee, about the use of taxpayer 
dollars. So we want to make sure that we are actually doing the 
right thing and that we are actually not allowing for people 
who have been in this particular industry to somehow feel that 
we are not going to be hunkering down and looking to evaluate 
their usefulness and utility of the funding that they have.
    We found that there have been in issues in the past. We are 
trying to correct those. We are trying to get the bad actors 
out. At the same time, we are trying to make sure that we have 
opportunities for small businesses to enter into these 
agreements, too.
    That is something that is provocative, that we are actually 
saying, let's cut up those contracts, make it more efficient, 
so we can have more accessible information from those 
contractors as opposed to just the large ones that have been 
doing this for many, many years.
    Mr. Rehberg. And I applaud you. I agree, I think you ought 
to look for every opportunity for cost savings. It is just, my 
concern is--and I hate to phrase, things like ``win-win'' or 
``cart before the horse'' or ``lipstick on a pig''--but it just 
seems like the cart is before the horse here if the evaluation 
has not been done and these recommendations were made without 
showing criteria as to which centers are going to be closed and 
why----
    Secretary Solis. We will be happy to work with you. As I 
said, we don't have any proposed number that we are already 
going to be, you know, terminating. That is not what this is 
about. We will be looking at criteria that has been in place 
already. And we are going to look at low-performing criteria. 
We are going to look to see where people have made an 
improvement, and hopefully work to give them the information 
that they need.
    This has been an ongoing process. They get information and 
feedback on a regular basis anyhow. And I don't understand--you 
know, our attempt here is really to make these programs more 
effective. And some we know have done better jobs than others. 
In your State, perhaps you have some really good ones; in other 
States, that might not be the case.
    Mr. Rehberg. Can you tell me the thought process of going 
from the--prioritizing the 20- to 24-year-olds rather than kind 
of changing directions from the high-priority 16-, 17----
    Secretary Solis. The evidence shows that we have better 
results with an older population. But that doesn't mean that 
everything is in stone. We are talking about evolving and doing 
this. So we would be happy to work with you and also the 
stakeholders, who I know are very concerned about this.
    Mr. Rehberg. Do you know when the third-party evaluation is 
going to be done?
    Secretary Solis. Probably in early 2014, in fiscal year 
2014. And I would be happy to have my Assistant Secretary, who 
is here with me today, talk with you at more length and detail 
after this hearing, at another time.
    Mr. Rehberg. Okay. Great. Thank you.
    Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Before I get to that question, just a couple of points. I 
am sorry Mr. Alexander is not here, but just for the record, 
agriculture has the second-highest fatality rate among young 
workers, more than five times the average for all industries. 
And the citation is the Journal of the American Medical 
Association. I think that is important, and I will find Mr. 
Alexander to let him know that.
    I think that colleagues who are concerned about the 
financial situation that we have should take a very hard look 
at this Ryan budget and make a determination as to whether or 
not they can, in fact, support what would be a gift of $150,000 
in tax cuts to the richest 1 percent of the people in this 
country.
    And I want to just applaud the chairman. I am delighted to 
see, you know, your interest in the Job Corps and success of 
the Job Corps. I have been a long-time supporter of Job Corps. 
New Haven has one that is really absolutely superior. But I 
know you had some questions last year about Job Corps, Mr. 
Chairman, but pleased to see that you are thinking that they 
play a useful--a very useful role.

                      MINE SAFETY CITATION APPEALS

    Let me get to the backlog of mine safety citation appeals. 
As I said, the Department is working to reduce the huge backlog 
of the citations that are pending at the Federal Mine Safety 
and Health Review Commission. As I understand it, coal mine 
operators have been appealing a larger percentage of citations 
they receive, and the backlog of cases pending before the 
review commission has increased from 3,000 in 2006 to 18,000 at 
the end of the 2010.
    This is a serious problem. As long as the appeal remains 
pending, the violation does not count for triggering various 
enhanced enforcement powers intended for repeat or serious 
violations of mine safety laws.
    Congress provided supplemental appropriations in 2010 to 
bring more judges and law clerks to the review commission and 
more staff at the Labor Department to handle the cases. What is 
the progress being made to draw down on the backlog?
    Secretary Solis. First of all, I want to thank the 
committee and the Congress for making significant investments 
in this area to reduce the backlog. That is something that has 
been long overdue, and we are attempting to do that. The 
supplemental funding that you provided would allow us to scale 
back, you know--actually, to hopefully address that backlog.
    And what we are doing now is trying to really target and 
home in on what we call the backlog behind the backlog. So we 
are using new techniques, because we are finding that there are 
so many coming about now because of our recent inspections, 
that we are even doing a better job there. And we are going to 
attempt to do that with the funding that we have available.
    But let me just tell you, with the supplemental funding 
that you gave us, we closed nearly two-thirds of the targeted 
backlog already. This amounts to closing 7,000 open dockets and 
includes more than 39,000 violations. And as of the end of 
2011, we closed more than 80 percent of our open dockets in the 
targeted backlog, and we have begun to make significant 
progress.
    But I would say the bottom line for us, Congresswoman and 
members of the committee, is that we really do need to have 
better enforcement tools. And I know that there has been much 
debate and there has been support for legislation to help us 
have better tools that are more sophisticated and more up to 
date.
    So I would continue to urge the Congress, yourself and 
others that care about this issue, to put forward again that 
legislation that was introduced by Members of the House that 
could help provide the tools that we need. We know that we have 
a long way to go, but this area has been neglected for many, 
many years. And just by putting money in right now, you are not 
going to see the kind of immediate results that we all want, 
but it will happen over time.
    But we have to have better tools, and we have to have more 
enforcement, and we have to have higher penalties. If not, you 
are going to continue to see groups like Massey get away with 
the killing of 29 miners. And it could have been prevented, but 
you had malicious individuals that really misconstrued and used 
the laws to their advantage and kept our system--how could I 
say--hung up in this backlog, purposely, by contesting these 
appeals. And that is what happens when you don't have clarity 
of legislation.
    Ms. DeLauro. Mr. Chairman, let me ask you, I am assuming 
that this is--it is almost 5 of. I just have one other point 
that I wanted to make, and I don't know if Ms. Roybal-Allard 
has any further questions.
    Mr. Rehberg. Go ahead.

                               SKILLS GAP

    Ms. DeLauro. So, if I can, because I am very, very excited 
about what is being done with regard to the community college 
efforts and your relationship with them. I wanted to just say 
that I was fascinated when I did this community forum, because 
the whole issue of skills gap came up, which is why I applaud 
the additional funding in this instance to foster this model 
for training and for employment.
    These are not my words. A 2011 poll of owners of fast-
growing, privately held U.S. companies undertaken by the 
nonprofit Kauffman Foundation said that the inability to find 
qualified workers was cited as the biggest obstacle to growth. 
Some 40 percent of respondents said that they were being held 
back by the skills gap, compared with 13 percent by lack of 
demand.
    We have, October 2011, DeLoitte and the National 
Association of Manufacturers: U.S. manufacturers have 600,000 
unfilled positions because of a lack of qualified skilled 
workers.
    Eric Spiegel, American CEO of Siemens Corporation, has been 
on news programs where he said there are at least 3,200 jobs 
that his company has been unable to fill because suitable 
workers can't be found despite a vigorous recruitment program. 
He said, this is not so in Germany, where students right out of 
high school are trained as apprentices, even as they attend 
regular classes, to prepare for the global economy.
    We are going to have 2 million job openings in 
manufacturing nationally through 2018, mostly due to baby-
boomer retirement. And that is according to the Center on 
Education and the Workforce at Georgetown University.
    What are you proposing and what has the President outlined 
as a direction to move on this partnership----
    Secretary Solis. To train 2 million people.
    Ms. DeLauro. Two million people for jobs in this country, 
at a time when we have 12.8 million people unemployed.
    And this is not a 4-year program, an 8-year program. This 
is saying to the industry, like what Joe Carbone has done in 
New Haven--and the chairman heard from Joe--is that an 8-week 
training course with the industry participation is what it 
looks like. They committed to hire 100 people at the end of 
that process, that is the direction.
    I applaud you for what you doing. Thank you for being here 
this morning and for your public service.
    Secretary Solis. Thank you.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Mr. Rehberg. Again, thank you for appearing before the 
committee. We will give your budget all due consideration. And, 
as always, the record is open for 14 days for any of the 
Members, and I hope that you and your staff will answer in a 
timely fashion.
    Mr. Rehberg. Again, thanks for being here today.
    Secretary Solis. Absolutely. Thank you very much, Mr. 
Chairman and the ranking member and the committee members 
overall.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
